<html>
<title> - SOUTHERN BORDER VIOLENCE</title>
<body><pre>[Senate Hearing 111-791]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-791
 
                     SOUTHERN BORDER VIOLENCE--2009

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

 SOUTHERN BORDER VIOLENCE: HOMELAND SECURITY THREATS, VULNERABILITIES, 
                          AND RESPONSIBILITIES

                                  AND

                             APRIL 20, 2009

         SOUTHERN BORDER VIOLENCE: STATE AND LOCAL PERSPECTIVES

                   FIELD HEARING IN PHOENIX, ARIZONA


                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
50-382                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Blas Nunez-Neto, Professional Staff Member
                  Nicole M. Martinez, Staff Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director of Homeland Security Affairs
         Lee C. Dunn, General Counsel, Office of Senator McCain
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 43
    Senator McCain............................................... 3, 46
    Senator Graham...............................................    12
    Senator Burris...............................................    14
    Senator Pryor................................................    30
    Senator Carper...............................................    32
    Senator Tester...............................................    35
    Senator Akaka................................................    37
    Senator Kyl (Guest Member)...................................    47
Prepared statements:
    Senator Lieberman, March 25, 2009............................    99
    Senator Bennet, March 25, 2009...............................   101
    Senator Lieberman, April 20, 2009............................   191
    Senator McCain, April 20, 2009...............................   194

                               WITNESSES
                       Wednesday, March 25, 2009

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................     5
Hon. James B. Steinberg, Deputy Secretary, U.S. Department of 
  State..........................................................    18
Hon. David W. Ogden, Deputy Attorney General, U.S. Department of 
  Justice........................................................    20

                         Monday, April 20, 2009

Hon. Janice K. Brewer, Governor, State of Arizona................    49
Hon. Terry Goddard, Attorney General, State of Arizona...........    51
Hon. Phil Gordon, Mayor, City of Phoenix, Arizona................    65
Hon. Octavio Garcia-Von Borstel, Mayor, City of Nogales, Arizona.    69
Hon. Ned Norris Jr., Chairman, Tohono O'odham Nation.............    71
Jack F. Harris, Public Safety Manager, City of Phoenix, Arizona..    80
Clarence W. Dupnik, Sheriff, County of Pima, Arizona.............    83
Larry A. Dever, Sheriff, County of Cochise, Arizona..............    86

                     Alphabetical List of Witnesses

Brewer, Hon. Janice K.:
    Testimony....................................................    49
    Prepared statement...........................................   195
Dever, Larry A.:
    Testimony....................................................    86
    Prepared statement...........................................   251
Dupnik, Clarence W.:
    Testimony....................................................    83
    Prepared statement with attachments..........................   231
Garcia-Von Borstel, Hon. Octavio:
    Testimony....................................................    69
    Prepared statement...........................................   222
Goddard, Hon. Terry:
    Testimony....................................................    51
    Prepared statement with attached charts......................   199
Gordon, Hon. Phil:
    Testimony....................................................    65
    Prepared statement with attached photographs.................   209
Harris, Jack F.:
    Testimony....................................................    80
    Prepared statement...........................................   227
Napolitano, Hon. Janet A.:
    Testimony....................................................     5
    Prepared statement...........................................   102
Norris, Hon. Ned, Jr.:
    Testimony....................................................    71
    Prepared statement...........................................   224
Ogden, Hon. David W.:
    Testimony....................................................    20
    Prepared statement...........................................   132
Steinberg, Hon. James B.:
    Testimony....................................................    18
    Prepared statement...........................................   121

                                APPENDIX

Responses to post-hearing Questions for the Record from:
    Secretary Napolitano.........................................   152
    Deputy Attorney General Ogden................................   156
Paul Helmke, President, Brady Campaign to Prevent Gun Violence, 
  March 25, 2009, prepared statement with an attached report.....   158
Joseph M. Arpaio, Sheriff, County of Maricopa, Arizona, April 20, 
  2009, prepared statement.......................................   255


                   SOUTHERN BORDER VIOLENCE: HOMELAND
                   SECURITY THREATS, VULNERABILITIES,
                          AND RESPONSIBILITIES

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:31 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, Tester, 
Burris, Bennet, McCain, and Graham.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this 
hearing. This morning, we are going to focus in on the ruthless 
drug violence in Mexico, the implications of this violence for 
the homeland security of the United States, and most important, 
what our government is doing and should be doing about both.
    This is the first of two hearings the Committee has planned 
on this problem for now. The second hearing will take place on 
April 20, 2009, in Phoenix, Arizona.
    Today, we are privileged to have as witnesses top officials 
from the three Federal agencies here in Washington that are at 
the center of our Nation's response to this crisis. This is 
their first congressional appearance since yesterday when they 
released the Administration's new initiative to contain and 
respond to Mexican drug violence, and I thank Secretary 
Napolitano, Assistant Secretary Steinberg, and Deputy Attorney 
General Ogden for being with us this morning.
    The facts of this matter are now pretty well documented and 
appalling. More than 6,000 Mexicans have been killed in drug-
related violence in the past year. Most of the dead appear to 
be associated in some way with the drug trade, but not all of 
them. Ten percent of the fatalities are actually government 
officials and police. The police chief of Juarez, Mexico, just 
across the border from El Paso, Texas, was forced to resign 
when drug cartels threatened to kill one of his officers every 
48 hours unless he stepped down. The mayor of Juarez actually 
lives in El Paso temporarily with his family and commutes to 
work every day for reasons of safety.
    The U.S. Justice Department said in December that the 
Mexican drug cartels are ``the biggest organized crime threat 
in the United States'' and are present in 230 American cities.
    This morning, Secretary Napolitano will tell us in her 
testimony that Mexican drug cartel violence is ``a homeland 
security issue in which all Americans have a stake.'' The 
danger here is clear and present. It threatens to get worse. It 
also follows some puzzling and unpredictable patterns. For 
instance, El Paso has been ranked as the third safest city in 
America, but Juarez, literally a stone's throw away, is the 
epicenter of the carnage with more than 1,500 murders last 
year.
    Drug-related crime has increased in several American border 
jurisdictions and beyond. Phoenix now ranks first in America 
and second in the world in kidnappings with more than 700 
kidnappings in the last 2 years. Most of the kidnappers and 
their victims are drug smugglers, but innocent victims are 
always at risk of being caught in the cross-fire and, in fact, 
have been caught in the cross-fire.
    The Mexican drug cartels are engaging in brutal and 
inhumane tactics, the kinds that we, on this Committee, and the 
Secretary and the American people have come to expect from 
terrorists, and that is exactly what they have become--
attacking police stations and other government facilities, 
kidnapping and killing family members or innocent associates of 
people involved in the drug trade, posting the names of 
officials and law enforcers marked for execution, then 
kidnapping or killing many of those officials and informers, 
and in a gruesome mirror image of what we have seen from 
terrorism, decapitating their targets.
    The drug cartels tunnel beneath border fences and use their 
blood money to corrupt officials, mostly in Mexico but 
sometimes here in the United States. They are high-tech 
criminals and killers using satellite phones, encrypted radios, 
and Internet voice technology to shield their communications 
from the law. According to the Office of National Drug Control 
Policy, the Mexican drug cartels, as I mentioned, are operating 
in 230 American cities, from Appalachia to Alaska.
    The bottom line is this: We must do everything within our 
power to help the Mexican government disable the cartels and 
prevent them from exporting their drugs and destruction any 
further to America.
    Our good neighbor to the south, Mexico, is a strong country 
with a courageous national administration. President Felipe 
Calderon has taken on the cartels, and the Obama Administration 
is clearly intent on supporting him. Secretary of State Clinton 
is in Mexico City today. Secretary Napolitano and Attorney 
General Holder will be there next week. And President Obama 
will travel to Mexico in mid-April.
    In yesterday's announcement, the Administration directed 
the redeployment of Department of Justice (DOJ) and Department 
of Homeland Security (DHS) resources to the border to 
strengthen the prevention and investigation of drug, gun, and 
bulk cash smuggling and to increase southbound vehicle 
inspections.
    Over the last 2 years, Congress has also appropriated $700 
billion for Mexico under the Merida Initiative to better train 
and equip Mexican law enforcement, military, and border 
personnel to root out corruption and help reform the Mexican 
judicial system. I look forward to asking Deputy Secretary 
Steinberg about what the hopes of the State Department are now 
for the Merida Initiative as we go forward.
    I would say that the Obama Administration's response 
yesterday to the Southwest Border violence represents a 
significant step forward, but I do not think it is enough. In a 
letter that I, in my capacity as Chairman of this Committee, 
sent to the Budget Committee of the Senate regarding the budget 
for the Department of Homeland Security, I recommended an 
increase of $250 million in fiscal year 2010 to hire an 
additional 1,600 Customs and Border Protection (CBP) officers 
at the ports of entry and exit. I also requested $50 million 
for Customs and Border Protection to establish and enhance 
fusion centers along our Southwest Border and $50 million more 
for Immigration and Customs Enforcement (ICE) to hire more 
agents to work on gun investigations and also for fusions 
centers; and, finally, an additional $35 million for the Human 
Smuggling and Trafficking Center at the Department of Homeland 
Security.
    I think there are also legislative steps that we can take 
to strengthen this fight. If Congress, for instance, closed the 
gun show loophole that allows purchasers to circumvent 
background checks that occur at gun stores, our government's 
work would be a lot easier and more effective. There is an 
unusual additional problem that we, I think, will want to 
legislate on: Cash earned from American drug sales, which are 
the lifeblood of these Mexican drug cartels, is increasingly 
being smuggled back to Mexico in stored value cards. A single 
card can hold thousands of dollars. It is far less conspicuous, 
of course, than bundled cash and does not have to be, as a 
matter of law, declared at the border. Unfortunately, these 
cards are not considered legal monetary instruments, and border 
officials, therefore, have little authority to police them. 
That needs to be changed by a new law if we are going to make 
it harder for the cartels to launder their illicit profits.
    In sum, President Felipe Calderon's gutsy leadership in the 
fight against the drug cartels has provided the United States 
with an unprecedented opportunity to collaborate with him and 
the Mexican government to defeat the drug cartels that threaten 
the people of both of our countries. In our interest and 
theirs, we must together seize this opportunity.
    Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you, Mr. Chairman, for holding this 
important hearing, and I look forward to this Committee coming 
to Phoenix, Arizona, on April, 20, so we can get a lot of 
firsthand testimony as to the enormity and the significance of 
this challenge to our States and our communities all over the 
Southwest, as well as all across America.
    I want to thank our head of Homeland Security, the former 
Governor of the State of Arizona, who has a very in-depth 
knowledge on this issue. She has been heavily involved in it as 
governor of our State, and I appreciate the fact that you would 
come today and share not only your background but also plans as 
to how we can address this issue in the future. And it is a 
compelling issue.
    Many Americans believe that the escalating violence in 
Mexico is remote. It is not. According to a Justice Department 
report in December, Mexican cartels and their affiliates 
``maintain drug distribution networks or supply drugs to 
distributors in 230 cities across the United States.''
    The city of Phoenix is now the kidnapping capital of the 
United States, second only to Mexico City, for the most 
kidnappings in any city in the world. Just last month, 755 
criminals living in the United States who are allegedly tied to 
a major Mexican drug-trafficking organization were arrested.
    Few border cities have experiences the level of fear that 
the citizens of Nogales, Arizona, have felt from the rising 
violence of Mexican drug cartels. The city of Nogales straddles 
the border of Sonora, Mexico, and the State of Arizona. Its 
residents have seen several gun battles break out in broad 
daylight between Mexican police and the drug cartels. In 
August, just one block away from the U.S. consulate, three men 
wearing ski masks emerged from a car with AK-47 assault weapons 
and opened fire, killing several men. On October 10, 2008, 10 
men were killed during a deadly shootout and chase between 
heavily armed members of drug cartels and Mexican law 
enforcement as they sped through the city streets just a couple 
of miles from the border during the early morning hours while 
many Mexicans and Americans were commuting to work.
    The Intelligence Bureau commander for the Arizona 
Department of Public Safety said, ``It was such a heavy 
firefight that Mexican police were actually calling for 
reinforcements and asking for ammunition from the American 
side.''
    This increase violence led the State Department to issue an 
alert advising Americans traveling to Mexico to use caution 
because, ``Large firefights have taken place in many towns and 
cities across Mexico. . . . During some of these incidents, 
U.S. citizens have been trapped and temporarily prevented from 
leaving the area. . . . Criminals have followed and harassed 
U.S. citizens traveling in their vehicles in border areas.'' It 
is a sad state of affairs and a dramatic change from just a 
short time ago.
    The United States obviously must do all it can to assist 
President Calderon in his efforts against these violent drug 
cartels. The prosperity and success of Mexico is essential to 
the prosperity and the success of our own country. We share a 
border, our economies are intertwined, and we are major trading 
partners with each other.
    I commend the Administration for its announcement yesterday 
that there would be additional personnel deployed to the 
Southwest Border, increased intelligence capability, and better 
coordination with State, local, and Mexican law enforcement 
authorities, but I am convinced we must do much more. Instead, 
we have reduced the funding to the Mexican government for 
equipment, training, and assistance promised as part of the 
Merida Initiative, and, of course, in the United States, 
perhaps our dirty little secret is that between $10 and $16 
billion are spent by Americans to pay for these illegal drugs, 
creating a demand. And I look forward to Secretary Napolitano's 
comments about that side of this equation as to how possibly we 
can reinvigorate our efforts to try to cut down on what is 
clearly drawing these drugs to the United States and a major 
factor in this terrible violence that is taking place.
    I think it is time for the United States to show its 
support for our neighbor to the south and support the Mexican 
people and the Calderon administration.
    Mr. Chairman, could I just make a couple of points?
    One, obviously we are creating the demand, and it is, as I 
have mentioned, between a $11 billion and a $16 billion-a-year 
business. President Calderon is under real assault. Some high-
ranking members of his administration and law enforcement 
officials all over Mexico have been assassinated, showing that 
corruption penetrates to literally the highest levels of 
government, a problem that he is wrestling with. But the reason 
why we are having this showdown is that President Calderon is 
not averting his vision from this issue and is willing to take 
it on.
    Finally, I would like to point out--and I am sure that 
Secretary Napolitano will agree with me--this is an existential 
threat to the government of Mexico, and if the Mexican 
government fails and is taken over by the drug cartels, or 
large parts of Mexico are taken over, it not only has profound 
consequences for Mexico, but it certainly has most profound 
consequences for the United States of America. This is a 
serious issue.
    I thank you, Mr. Chairman, for having this hearing.
    Chairman Lieberman. Thank you, Senator McCain.
    Senator McCain joined the Committee this year. He has been 
instrumental in urging me and Senator Collins to move forward 
with these hearings today and in Phoenix on April 20, and I 
appreciate what you said just now, Senator McCain.
    I want to indicate for the record that Senator Collins, 
almost always here, had a conflict with another hearing. It 
happens to be on Alzheimer's treatments and cures, and she is 
the co-chair of the Senate caucus on that disease. So she 
wanted to extend her regrets to you, Madam Secretary, and to 
the other witnesses, and obviously will be with us as we go 
through this investigation.
    I want to welcome you today. I thank you for appearing here 
this morning. Thank you for all the experience, firsthand, that 
you bring to this challenge as part of your new 
responsibilities, and I would invite your testimony now.

   STATEMENT OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Chairman Lieberman and 
Senator McCain, for the opportunity to testify and to inform 
you what we are doing now in response to the drug war that is 
going on in Mexico that does have, as Senator McCain said, 
profound effects on the American homeland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 102.
---------------------------------------------------------------------------
    We have seen the violence in Mexico spike. We have seen it 
spike because of the efforts of the Calderon government to take 
on these cartels, and we have seen it spike because we are 
increasingly trying to shut down the avenues by which the drug 
trade can move drugs into the United States and, therefore, the 
cartels are fighting each other for turf and for precedence.
    We are seeing some increases in cartel-related crime in the 
United States. As has been mentioned, kidnappings in Phoenix, 
for example, are related to the drug cartels, and as the 
Department of Justice has itself noted, the cartels are now 
distributing drugs in at least 230 American cities. So the 
effort to minimize this issue as a ``border issue'' or to 
suggest that the American people, as a whole, do not have a 
stake in this would be misleading.
    There has always been, I must say, based on my own 
experience, a certain amount of violence and crime associated 
with drug and human trafficking along the border. And I say 
that as the former U.S. Attorney for Arizona, Attorney General 
of Arizona, and Governor of Arizona, a border State. But what 
we are seeing now is of a level and kind very different than 
what we have seen in the past.
    The 6,000 homicides already noted in the northern states of 
Mexico is a huge number. But the fact that over 550 of them 
were assassinations of law enforcement and public official 
personnel is itself chilling. And that indicates itself the 
seriousness with which this battle must be waged.
    Let me turn to what we are doing at the Department of 
Homeland Security.
    First, we know that the weaponry used in this war in Mexico 
comes primarily, although not exclusively, through the United 
States. Just a few weeks ago, March 7 through 13, 2009, we 
seized 997 firearms going into Mexico. That was accompanied by 
$4.5 million in cash and 45 criminal arrests. But we need to 
strengthen that.
    So we are doubling our Border Enforcement Security Teams 
(BEST). These are teams that are combining DOJ with DHS, State, 
and local officials. They also involve Mexican law enforcement 
officials. To date, they have literally made thousands of 
arrests, seized tons of drugs, hundreds of weapons, and 
millions in cash. We will double our commitment to those teams 
along the Southwest Border and increase the number of teams. 
For example, New Mexico has not had a BEST team. It will now 
have a BEST team.
    We will triple the number of Homeland Security intelligence 
analysts along the Southwest Border because we need to get away 
from the serendipity of a lucky search. We need to make sure to 
increase the yield from searches, and you do that by having 
better intelligence. We are tripling the number of analysts 
there.
    We are increasing by 50 percent the ICE attache personnel 
in Mexico City. These personnel are primarily working with 
Department of Treasury officials there and in the United States 
to combat the money laundering that is going on. We call it 
``Operation Firewall,'' but this is an area where I think we 
can achieve even more success than we have to stop that flow of 
cash into Mexico, into these drug cartels.
    We will double the number of Violent Criminal Alien 
Sections along the border. These are designed to prosecute 
recidivist violent aliens that we find. Many of them are 
working for the cartels.
    We will quadruple the number of border liaison officers. 
These are officers who work to coordinate between American law 
enforcement personnel and Mexican law enforcement personnel to 
share information and intelligence.
    We will increase the technology and resources employed at 
the border, particularly by moving significant biometric 
identification equipment down to the border so that we can 
trace the fingerprints of anyone who is picked up and make sure 
that they are run through ICE databases and the other databases 
we have before anyone would ever be released.
    Previous to this initiative, we had done virtually no 
screening of southbound rail traffic, so we do not really know 
what was being transported into Mexico by rail. There are eight 
rail lines that go into Mexico. We are now screening those rail 
lines.
    We will move nine Z-Backscatter mobile x-ray units to the 
border. That is to help identify anomalies in passenger 
vehicles. For example, on southbound cars, what the Backscatter 
can do is identify whether this car weighs more than it should 
even loaded with passengers, and if it does, it could be 
referred over to secondary inspection to see if that weight is 
attributable either to loads of cash or arms going into the 
cartels.
    We are deploying 100 more Border Patrol agents to the ports 
of entry, also to help with southbound inspections. We are 
moving 12 teams of cross-trained canines to the ports of entry 
going south. These are cross-trained because they are trained 
to detect both money and guns.
    We are moving three mobile response teams of 25 agents 
each. These are mobile response teams of Border Patrol agents 
that are designed to be mobile, to go where issues are 
occurring and to provide immediate response. We are moving 
three more of those teams right down to the border, and we are 
moving more license plate readers to the ports of entry.
    In addition to what we are doing at the Federal level, we 
understand that State and local law enforcement in the border 
areas is heavily affected by the increase in violence and the 
associated crime committed by these cartels and their members. 
We are, therefore, revising Operation Stonegarden grant funding 
to increase the types of missions that those monies can be used 
for, to pay additional law enforcement personnel, overtime, 
travel and lodging expenses for deployment of local law 
enforcement to the border cities. We anticipate an additional 
$59 million will be accessible to border law enforcement by 
expanding the guidance for those Stonegarden funds.
    In addition, we are reaching out to local border 
communities. I have sent some individuals down there now to 
personally stay in touch so we know on a real-time basis what 
is happening, and I myself am scheduling bi-monthly conference 
calls with border chiefs of police and sheriffs.
    These actions so far are designed to be budget neutral. 
What I have done is identify other activities that are less 
urgent fund balances to be able to move these resources where I 
think they are needed most. We may need some minor 
reprogramming, Mr. Chairman, but I believe that staff members 
are already apprised of that or are being apprised of that. But 
for the time being, we anticipate all of these actions by the 
Department to be within the budget that we have been given by 
the Congress.
    Senator McCain asked about demand. This is a supply issue. 
It is indeed also a demand issue. I will be delighted to work 
with the new drug czar, if he is confirmed, but I was also 
pleased to see that there was almost $70 million included in 
the stimulus bill for drug courts at the State and local level. 
Those have been very helpful in identifying non-violent drug 
offenders and getting them into treatment as opposed to the 
prison system, and that does help on the demand side. But 
undoubtedly there is much more we ought to be doing as a 
country where these illegal narcotics are concerned.
    We are working very closely with the Department----
    Senator McCain. Ma'am, could you say a couple of words 
about the programs in Arizona?
    Secretary Napolitano. Yes. In Maricopa County and in Pima 
County, the two urban counties of Arizona, there is a very 
extensive drug court program, and it works exactly as I just 
described. It is used primarily for first-time, non-violent 
offenders. They tend to be younger, and with their one 
experience with the criminal justice system, they do have an 
incentive not to experience it again. And they receive 
basically very intensive follow-up through the drug court 
system to keep them out of the prison system.
    Senator McCain. And it has been successful?
    Secretary Napolitano. It has been successful, yes, sir.
    With that, Mr. Chairman, I will conclude my remarks and, 
again, thank you for holding this hearing, the hearing that you 
are going to have on April 20, and for the Committee's interest 
in this very important issue.
    Chairman Lieberman. Thanks very much, Madam Secretary. We 
will do 7-minute rounds to start out with.
    As you know, there are some people who have suggested that 
while the Mexican drug cartels have obviously been involved and 
caused a wave of terrible violence in Mexico, some of us here, 
including people in public office and the media, are kind of 
overstating the impact of that on the United States. Am I 
correct from your statement in reaching the conclusion that, as 
Secretary of Homeland Security, you believe that Mexican drug 
cartel violence is a real threat to the homeland security of 
the United States?
    Secretary Napolitano. I agree, and it takes several forms. 
It does take the form of some increased violence now in the 
United States. It also takes the form of a threat that 
spillover violence of a significant nature will occur. And I 
believe as Secretary of Homeland Security, one of the duties I 
have is to identify threats and try to prevent those threats 
from actualizing in the homeland.
    And, third, these cartels have fingertips that reach 
throughout the United States, and they are responsible for a 
large amount of so-called street crime in our neighborhoods, on 
our streets, in our communities. And that in and of itself 
lends to a feeling of insecurity in different areas of the 
United States.
    So for all of those reasons, Homeland Security needs to be 
involved.
    Chairman Lieberman. You mentioned the danger of spillover 
of the violence. Obviously some has occurred already, but more 
broadly, the previous Administration left a contingency plan in 
place, I gather, should violence begin to spill over. I know 
that you have said that you are currently reviewing this plan 
and that you were concerned that it did not include State and 
local law enforcement as much as it should have.
    I wonder if you could indicate to us where you are in the 
review of the plan and when you hope to have it ready.
    Secretary Napolitano. Yes, Senator. We actually have a 
position, Assistant Secretary for State and Local Law 
Enforcement. I deployed him to go to the border to personally 
sit down with police chiefs, sheriffs, and so forth and to 
review the plan, give us their input.
    I would anticipate that we would incorporate that and have 
a working document that we would be using within the next 
several weeks.
    Chairman Lieberman. Will you try to state in the document 
what the trigger is here, what the threshold is? In other 
words, when you, as Secretary, decide that the spillover of the 
violence has reached a point where you want to implement 
contingency plans in the interest of the homeland security of 
the United States?
    Secretary Napolitano. I do not believe, Mr. Chairman, that 
it will be expressed numerically. That is too difficult to 
ascertain.
    Chairman Lieberman. Right.
    Secretary Napolitano. But I think it will be expressed in 
terms of what are the factors that would lead me, as the 
Secretary, to determine that plan needs to be deployed.
    Chairman Lieberman. Good enough. We look forward to that 
plan as it comes along.
    I thought that yesterday's announcement, which you have 
documented again today, of what the Administration intends to 
do was significant. It is particularly a significant 
redeployment of investigators and agents to the border to focus 
on interdicting the cartels' drug, gun, and bulk cash 
smuggling. But I will tell you that I am concerned that 
transferring these resources from other parts of the country is 
not sustainable in the long term and probably does not allow 
you to do everything we want to equip you to do on the border 
without increasing the overall resources available to the 
Department. And that is why I made the recommendations I did to 
the Budget Committee and why I intend to fight for more 
resources for the Department, particularly for Customs and 
Border Protection and Immigration and Customs Enforcement.
    Do you want to give a reaction to that? I am sure if we 
gave you the money, you would be happy to take it and use it 
well. But let me ask it this way: Are you considering modifying 
your fiscal year 2010 budget request to enable you to continue 
the presence of all these additional personnel--350 it looks to 
be, from yesterday's announcement--at the border without 
compromising your mission elsewhere in the country?
    Secretary Napolitano. Mr. Chairman, I believe that the 
fiscal year 2010 numbers are still being finalized. Right now, 
my belief is that I can sustain what I have described to you 
through fiscal year 2010. But obviously budgets and threat 
environments are always changing, and so we will obviously keep 
you apprised of that situation.
    Chairman Lieberman. So we may have a friendly disagreement. 
I may try to get you more resources that you are asking for. 
But I would rather---- [Laughter.]
    Which is unusual.
    Secretary Napolitano. I do not have Office of Management 
and Budget Director Peter Orszag sitting next to me, but I can 
feel his presence behind me.
    Chairman Lieberman. But you and I have a longstanding 
separate relationship, and we can build on that.
    Seriously, I think you are going to need more resources to 
get this job done, and also, this is a kind of war, and part of 
this is deterrence. And the increase of personnel at the border 
and the kind of sophisticated equipment you have talked about 
and intelligence resources are going to be critical to making 
life miserable for the drug cartels. And when life is miserable 
for them, it is obviously better for us.
    I think I saw in the media that you are seeing Governor 
Perry of Texas today. You know that he has asked, as I believe 
the Governor of Arizona has, for some deployment of National 
Guard to the Southwest Border. What is your current position on 
that?
    Secretary Napolitano. Mr. Chairman, I will actually be in 
Texas tomorrow, and I will be spending some time with Governor 
Perry, and I want to--he basically said, ``I want a thousand 
National Guard.''
    Chairman Lieberman. Right.
    Secretary Napolitano. It was a fair request--but without 
specificity. And so I want to talk with him specifically about 
why 1,000. Is that a magic number? How was it derived? And 
where would they go, what would their mission be? And the issue 
of National Guard performing some capacity to support civilian 
law enforcement at the border is still under consideration by 
the Administration.
    Chairman Lieberman. Thank you. My time is up. Senator 
McCain.
    Senator McCain. Thank you, Mr. Chairman.
    So you are undecided about the issue of National Guard 
troops to the border? And if so, in what capacity?
    Secretary Napolitano. Senator, it is still under 
consideration.
    Senator McCain. You mentioned that you are redeploying 
forces to the border from other areas. Where are they coming 
from?
    Secretary Napolitano. We can give you detail on that. There 
are literally a few from here, a few from there, a few from 
here. We have not redeployed from the Northern Border. I think 
that is important to say. We have delayed purchases of 
equipment to help support the movement of agents. We have also 
delayed some other initiatives in order to fund this, and then 
we are using unexpended fund balances from fiscal year 2006 and 
2008.
    Senator McCain. Well, I would appreciate it if you would 
for the record give us the areas where you are taking these 
resources from. I understand the decision, and we would be 
interested where they are moved to.
    Today's Wall Street Journal, March 25, 2009, says, ``U.S. 
to Send More Agents to Curb Border Violence.'' And then it 
says, ``However, competing agencies have refused to work 
together on the task forces that the Administration is 
bolstering to target the drugs, guns, and cash that are fueling 
fighting among Mexico's drug lords, according to the agency 
officials.
    ``And adding to the problem, the agencies are operating 
under rules that are up to three decades old, said former 
senior agency officials and members of Congress involved in the 
oversight.''
    And then it goes on to say that the problem of ``the Bureau 
of Alcohol, Tobacco, Firearms and Explosives was refusing to 
allow some of its agents to participate in several of the 
special task force groups established by the Department of 
Homeland Security to coordinate border efforts to crack down on 
guns and drug proceeds headed to Mexico, said bureau and 
Homeland Security officials.
    ``While bureau agents work on these task forces in Texas, 
regional leaders have refused to join the same effort in 
Arizona, officials from both agencies acknowledged.''
    Do you have a response to that Wall Street Journal 
statement and, obviously, those comments from officials in the 
Department of Justice, Bureau of Alcohol, Tobacco, and Firearms 
and Explosives (ATF), and the Department of Homeland Security?
    Secretary Napolitano. Yes, Senator, I read that article 
from unnamed officials, and I am glad that the Deputy Attorney 
General is here, but he and I and the Attorney General are 
united in this effort. And we understand that it requires the 
Department of Justice and the Department of Homeland Security 
agents and employees to work together to maximize the 
deployment of resources at the border. And when it comes to our 
attention that there is some competition or non-cooperation 
going on, we are going to repair that.
    Senator McCain. Well, is it true that your agents working 
on task forces in Texas have refused to join the same effort in 
Arizona? Is that true or not true?
    Secretary Napolitano. I do not know the answer to that 
question, and I am going to find out. But if it is true, it is 
going to be fixed.
    Senator McCain. Thank you. I would be interested in, again, 
for the record, if you would supply a response to that. I think 
it is an important question.
    On the issue of funding, the Washington Post today said, 
``U.S. Stepping Up Response to Mexican Drug Violence,'' it goes 
on to say, ``But some experts said the tools deployed represent 
a tiny first step toward what is needed.
    ``Retired Army Gen. Barry McCaffrey, the Nation's drug czar 
during the Clinton Administration, said that adding `a handful 
of platoon-sized units' will not check the problem and that the 
amount committed is minuscule compared with the $2.5 billion 
the U.S. military spends in Afghanistan each month and the $12 
billion going to Iraq.
    `` `It's commendable they're paying attention,' McCaffrey 
said. But, he added, `where's our sense of priorities?' ''
    Do you have a response to General McCaffrey's comments?
    Secretary Napolitano. Well, on the one hand, I would 
disagree. It is interesting, Senator Lieberman in his comments 
began with the fact that there have been decreasing violent 
crime statistics in the United States so why are we doing this. 
That is one press attack. And then the other one is, well, we 
are not doing enough.
    Here is what we have done. What we have done is analyze 
what is going on, including the efforts of State and local law 
enforcement along the border and what is happening in Mexico. 
We have done an analysis of what the Department of Homeland 
Security can contribute to that that would have the most 
effect, both in manpower and technology. And then we have 
worked with the Department of Justice in terms of what they 
will contribute to the effort. And then, of course, there is 
the Merida Initiative that you are going to be hearing about 
later.
    Our goal is to obviously address this in the most serious 
way possible. If we need to scale up, that will be something 
that we will bring to you. If we can scale back over time, 
obviously that is something as well. But for this time and 
train, these are the actions that immediately will be 
undertaken to make sure that the threat of spillover violence 
is contained and that we are assisting President Calderon in 
his efforts.
    Senator McCain. Besides the drug courts that you mentioned 
in Maricopa County and Pima County in Arizona, what other 
programs have you observed in your time as U.S. Attorney, 
Attorney General, and Governor that have been successful in 
trying to address the demand side of this issue?
    Secretary Napolitano. Senator, I would like to be able to 
respond at greater length about that to you and think about it. 
I will tell you that, in general, the characteristics of a 
successful drug prevention strategy require an education side, 
a public media side, and then an immediate intervention and 
treatment side. It is really a three-legged stool. And if you 
only fund one leg or two legs, you do not really get the effect 
on drug demand reduction.
    I will also share with you that in certain drugs--for 
example, methamphetamine--I am not sure that we yet have, once 
someone is addicted, a good treatment regime. But I would be 
pleased to supply you with a list specifically of certain 
programs around the United States that I think have been more 
effective than others.
    Senator McCain. Are you generally in agreement with my 
comment that this struggle that Calderon and the Mexican 
government are engaged in with the drug cartels is an 
existential threat to the very fabric of the government of 
Mexico? Do you agree with that statement?
    Secretary Napolitano. Yes.
    Senator McCain. I thank you. Thank you very much for being 
here today, and we look forward to chatting with you after your 
trip down to Mexico, and thanks for your good work.
    Secretary Napolitano. Thank you.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCain. Senator Graham, 
good morning.

              OPENING STATEMENT OF SENATOR GRAHAM

    Senator Graham. Good morning, Mr. Chairman. Thank you.
    Madam Secretary, is there any laws that need to be changed 
to combat this threat in the United States that you can think 
of in terms of guns, money, or wire transfers?
    Secretary Napolitano. Senator Lieberman mentioned the issue 
of the service cards that are being used in lieu of cash. That 
may be something to be looked at. The initiative that we are 
embarked on, however, Senator, does not require any change of 
laws.
    Senator Graham. Is it fair to say you are comfortable with 
the laws that we have in place to deal with the problems of 
Mexico?
    Secretary Napolitano. I am comfortable that the laws we 
have in place are the laws we are going to enforce and will 
allow us to take on the initiatives that I have described to 
the Committee.
    Senator Graham. When it comes to budgeting, what you might 
need in the future and having to defer some purchases, do you 
think a supplemental request would be appropriate here?
    Secretary Napolitano. Senator, right now in light of the 
other demands on the budget and the economic exigencies of the 
situation, I viewed it as my responsibility to find a way to 
pay for this with the money that Congress has appropriated.
    Senator Graham. Well, that gets us to a point--we are 
spending money very quickly on some things that are very 
controversial, and there is a lot of pushback. I doubt that 
there would be a lot of pushback--I cannot think of anything 
more important right now, really. You are at war in Iraq and 
Afghanistan. Our neighbor to the south is under siege. The 
government is being threatened. Its very existence in Mexico 
has been threatened. I cannot think of a better use of the 
Congress' time and efforts to come together and come up with a 
game plan to deal with our consumption back here at home, to 
beef up resources to your agency and the Department of Justice, 
to really go after consumption at home, create a very robust 
national drug court system that deals with this head on. I 
cannot think of a better use of our time and public dollars 
than to come up with a more robust presence on the border, 
whether it be military or other agencies involved. And I do not 
think you should have to put off purchases.
    I think we are missing the boat here. I think this is an 
opportunity to get the Congress and the White House together 
and really go after this problem. So it is, quite frankly, not 
appropriate, in my opinion, to say that we have budget problems 
when it comes to this. We have a lot of conflict about the 
budget, but this is one area where I think most Americans would 
cheer us if we spent some money wisely.
    What do you think about that?
    Secretary Napolitano. Senator, I think that I agree with 
you about the seriousness of the situation. I agree with you 
that reducing drug demand in this country is something that 
would have a beneficial effect in all kinds of ways, not just 
in terms of Federal dollars but State and local dollars that 
have to be spent because of the plague of drug abuse and drug 
usage in our communities.
    But for this day and train on this initiative, I am not 
requesting a supplemental.
    Senator Graham. Well, you are the Secretary of Homeland 
Security, and Senator McCain asked you what programs have 
worked and what programs have promise, and you gave a very 
thoughtful answer: ``Let me think about it.'' Well, I would 
encourage you not only to think about it, but come back to us 
and say, ``Help me fund it.''
    When it comes to the idea of how to use the military, if 
you think there is a need for it, let us get all in. I guess my 
point is let us be all in. What I see happening is encouraging, 
but I do not think this country is all in, in this fight. And I 
cannot think of a more dire consequence to the United States 
really in many ways than to have Mexico just collapse.
    So I would urge you, when it comes to budget matters, 
programs that need funding, to be more aggressive, lean 
forward.
    Secretary Napolitano. Senator, I appreciate that thought. I 
think I will have a better sense after my meetings in Mexico 
next week, and I would be happy to report back to the Committee 
on what we have learned there.
    I believe this will be an ongoing issue; in other words, I 
do not believe what we announced yesterday, what I have 
informed the Committee of today, is the last word that is going 
to be said on this subject. This is going to be something that 
is going to require efforts over time.
    Senator Graham. Well, if you need somebody to help you up 
here, I would be glad to call him and say, ``Peter, there is a 
lot of bipartisan support for some spending here that would 
make some sense.''
    So thank you very much. I know you understand these issues 
well, having lived in Arizona, and just let us get all in and 
win this thing.
    Thank you very much.
    Secretary Napolitano. Thank you, Senator.
    Chairman Lieberman. Thanks very much, Senator Graham. You 
have expressed, I think, what the feeling on the Committee is, 
and I would guess in the Senate generally. I think we will make 
an opportunity to introduce an amendment to the budget 
resolution to increase support to your Department and perhaps 
to the State and Justice Departments as well for this fight. 
And if there is a supplemental, we will probably try to do the 
same, just to make sure that you have--it is up to you then to 
determine how to use that, but I do not want you to feel or to 
be underresourced in deterring this violence from coming over 
the border and in aiding our allies in Mexico in defeating it.
    Senator Burris, thanks for being here. Good morning.
    Senator Burris. Good morning, Mr. Chairman. Thank you very 
much. And congratulations to you, Madam Secretary. You have had 
a stellar career. Among us, all have been Attorneys General, 
and you are looking at two of us, so we certainly appreciate 
your extended service to not only the great State of Arizona 
but to America.
    Secretary Napolitano. Thank you.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. And by way of a statement, it is clear that 
solving the border violence will require local and Federal 
agencies to coordinate their plans and their information. This 
violence is a terrible consequence of our continued fight 
against illegal drugs and those that promote them. A victory in 
this fight is a victory for our shared security benefits, not 
only on our borders, but also throughout America, which I am 
going to get to in a moment. However, we must realize that this 
problem is systemic and that we must utilize all the tactics 
that we have to review today in order to dismantle these 
criminal cartels effectively. Creating a successful deterrent 
to the trafficking of illegal arms and drugs is fundamental. 
But in order to decrease crime, we must also disrupt the 
network that funds it. And I hope that we can support President 
Calderon's brave effort to secure our border and destroy the 
roots of this ever-growing problem before they do any more 
damage.
    Now, as I mentioned, Madam Secretary, Operation Xcellerator 
and Project Reckoning were both multinational victories. Can we 
replicate these successes to weaken other cartels? And how can 
we use the lessons we learned from our earlier operations to 
make border enforcement more effective?
    Secretary Napolitano. Senator, there are a combination of 
things that need to occur, and it is really at several levels. 
One is we cannot fight the cartels in the United States. In 
other words, they are based in Mexico. The leaders of the 
cartels are in Mexico. Their power base is in Mexico. That is 
why we want to be working with the Calderon government so 
closely in their efforts to dismantle these cartels, which have 
grown ever more stronger over the last 10 or 15 years.
    Second, we have to make our border presence more robust, 
not just in terms of northbound interdiction but in terms of 
southbound interdiction, particularly where arms and cash are 
involved.
    And then, third, we have to do a better job at disrupting 
the drug distribution networks that find their way into our 
neighborhoods and communities, and that goes to the demand side 
in part that Senator McCain was talking about.
    Senator Burris. That is what I also want to discuss. If we 
deal with the demand side and we cut down on the demand through 
treatment and various--what do you call it, the three-legged 
stool where you have the education, the treatment--and whatever 
the third leg is on that.
    Secretary Napolitano. The media, the public part of it, 
where you have constant media messages.
    Senator Burris. Yes, because if there is no demand, there 
will be no supply, and this is what we always maintain. In some 
kind of way, we have to get to our communities to deal with 
those individuals who are selling and those who are using. If 
we cut down on the users--are we looking at any--because you 
have the drug czar or some other type of program, are they a 
part of the overall efforts with Homeland Security on our side 
to try to deal with the demand problem?
    Secretary Napolitano. Senator, assuming that the nominee is 
confirmed--and I personally do not know the timing on that--I 
am going to actually reach out with the Office of National Drug 
Control Policy (ONDCP) to make sure they are incorporated in 
our efforts.
    Senator Burris. Another question, too, in terms of this 
jurisdictional situation where you have all these agencies 
together, are these agencies going to be able to function 
together with all these questions up in the air? Do you have 
turf problems appearing as you now try to pull Justice and 
Homeland Security and your other agencies together? Are you 
going to be able to work out all your turf problems?
    Secretary Napolitano. Well, Senator, following up, again, 
on an earlier question in a Wall Street Journal article today, 
I believe that the Attorney General and I--we have worked 
together for many years on issues, and our common goal is if 
some of those residual turf issues are being played out in the 
field and they are interfering with our goal of strengthening 
the border and getting at these cartels, we are going to fix 
that.
    Senator Burris. I know that you and Attorney General Eric 
Holder, you all have worked together, but getting it down 
through the ranks is where the problem occurs. And with your 
experience in government, I am sure you are familiar with how 
you can bring something down from the top, but getting it to be 
operating amongst the operators, it is not always easy.
    Secretary Napolitano. Again, if there really is a situation 
that has developed, we will get it resolved. Let me be very 
clear. I think law enforcement in the field understands the 
risk of these cartels, the danger that they pose, and the 
strength that they have. So we will work through some of those 
issues if they are indeed interfering with our ability to 
disrupt the cartel action in the United States.
    Senator Burris. And having been the governor of Arizona, 
the prosecutor, the Attorney General right on that border, I am 
pretty sure you have a pretty good insight into what is taking 
place. Is that not correct, Madam Secretary?
    Secretary Napolitano. I would like to believe I do, yes, 
Senator.
    Senator Burris. Well, we are hoping that you are in the 
right place at the right time to do the job for the American 
people and the Mexican people to do what we can. But my 
position is, Madam Secretary, we have to do something about the 
demand at home. We have to stop the users and the ability for 
individuals to acquire those drugs and start treating those 
people who are drug addicted rather than locking them up and 
putting them in prison, which is also raising our costs.
    Secretary Napolitano. Yes, Senator.
    Senator Burris. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Burris.
    I just have one more question. If either of my colleagues 
have one more, they are welcome to ask as well.
    I just want to ask you to speak a little bit more--I am 
going to ask the Department of Justice witness as well--about 
what you can do through DHS to cut the flow of weapons from the 
United States to Mexico. Obviously, in the normal course of 
things--and you correct me if I am wrong, but my impression is 
that exit inspections do not happen very often. In other words, 
when people are leaving the United States, there are random 
inspections, but not very rigorous. So one obvious thing to do 
is to have more rigorous inspections at least at the Southern 
Border, as people are leaving the country. I just wanted to 
give you a moment to comment, Madam Secretary, on what specific 
actions additionally you are thinking about taking to clamp 
down on the southern flow of illegal firearms. Do you need any 
additional legal authority to do that? And, of course, that is 
one of the reasons why I know you have redeployed and why I 
think you should have more personnel to carry out that 
particular function.
    Secretary Napolitano. Yes, Senator, a great deal of the 
actions I described earlier are designed to give us a 
southbound presence; in other words, our history has been 
focusing on goods and people coming north. What we are trying 
to do now is, in addition to that, interrupt the flow of guns 
and cash going south. That is why we are going to be inspecting 
on southbound lanes. That is why we are deploying technology 
down there that allows us to scan vehicles and to weigh 
vehicles.
    One of the areas of coordination with Mexican law 
enforcement that we will be discussing next week is, given the 
number of lanes that go south into Mexico from the United 
States, Mexico has customs as well; they can also do southbound 
inspections.
    Chairman Lieberman. Right.
    Secretary Napolitano. And so dividing it up--we will do 
some, they will do some others--that is where the coordination 
aspect comes in.
    And then as I suggested before, we need to get beyond 
getting lucky at a lane inspection. That is why we need more 
intelligence and intelligence gathering about what vehicles are 
likely to be carrying these guns and this cash. And so that is 
why more intelligence analysts are being used at the border and 
deployed there as well.
    Chairman Lieberman. Senator McCain, do you have another 
question?
    Senator McCain. No. Thank you, Mr. Chairman.
    Chairman Lieberman. Let me just go back, and forgive me. 
Senator Burris, do you have one?
    Senator Burris. No, Mr. Chairman.
    Chairman Lieberman. I will just follow up quickly. How 
about a reaction to the concern about sales at gun shows? In 
other words, the Brady law creates a check on a person before 
they can buy a gun at a licensed gun store. At a gun show, the 
fact is that they do not have to go through that minimal check 
about criminal record, for instance.
    Would that help, do you think, to close the so-called gun 
show loophole?
    Secretary Napolitano. We may have a better sense of that as 
we increase seizures.
    Chairman Lieberman. Right.
    Secretary Napolitano. But, anecdotally, a number have been 
purchased at gun shows. The issue for me as the Homeland 
Security Secretary, Senator, is that we need to act now, and as 
you know, that sort of a statute would take awhile to wend its 
way through.
    So my view is I have to play the hand of cards I have, and 
the hand of cards I have allows me to do southbound seizures, 
and the hand of cards I have allows me to increase intelligence 
gathering, and the hand of cards I have allows me to coordinate 
better with Mexican law enforcement. So that is what I am going 
to do.
    Chairman Lieberman. Good enough. And I think the question 
of that law is obviously more in our court than in yours. I 
thank you very much for your testimony. To say the obvious that 
you know well from all your experience, we did not get to this 
point of crisis overnight, and we are not going to get out of 
it overnight. But we certainly appreciate the steps you have 
taken, and we want to work with you in the time ahead to both 
strengthen and protect our allies to the south and to protect 
ourselves as well.
    Thank you very much for being here.
    Secretary Napolitano. Thank you, Mr. Chairman. Thank you, 
Senator.
    Chairman Lieberman. Thank you.
    We will now call the second panel: Deputy Secretary of 
State Jim Steinberg and Deputy Attorney General David Ogden.
    Good morning, gentlemen. Thanks very much for being here. 
Deputy Secretary Steinberg, I appreciate your presence. I know 
that the Secretary herself is actually in Mexico today, so we 
thank you for being here, and we would welcome your testimony 
at this time.

STATEMENT OF HON. JAMES B. STEINBERG,\1\ DEPUTY SECRETARY, U.S. 
                      DEPARTMENT OF STATE

    Mr. Steinberg. Well, thank you very much, Mr. Chairman. It 
is a great pleasure to be here with you, Senator McCain, 
Senator Burris, to talk about the issues that you have raised 
this morning about violence, organized crime, and the threat 
that drug trafficking poses to the United States and to Mexico 
and our common efforts to address the challenges that we face 
along our shared border. And I am particularly delighted to be 
here with my colleagues from the Justice Department and 
Secretary Napolitano. I think it is important that we are all 
here together to represent the common effort that we are all 
engage in, in partnership with Mexico, to address this 
challenge.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Steinberg appears in the Appendix 
on page 121.
---------------------------------------------------------------------------
    I have a more extensive statement for the record, but I 
would just like to summarize a few points for you this morning. 
And as you noted, we are appearing at an important moment, as 
the Secretary is just on her way at this very moment down to 
Mexico City to meet with her Mexican counterparts and President 
Calderon to talk about the shared challenge.
    Her trip as well as President Obama's upcoming trip in 
April and the trips of the Secretary of DHS and the Attorney 
General highlight the importance that the Obama Administration 
places on the issue before us and the great opportunity that we 
have to build a stronger relationship with Mexico--one that can 
advance a wide range of shared interests and better position 
both of our societies for lasting success. It is important as 
we address the specific issue today that we do not lose sight 
of the bigger and bolder promise in the relationship between 
the United States and Mexico that will allow us to work 
together to address the global economic crisis, energy and 
environmental issues, and regional cooperation. But I do want 
to focus my remarks today on the urgent challenges we face in 
addressing the threat of drug trafficking and violence.
    As you yourself noted, Mr. Chairman, President Calderon has 
taken courageous and decisive actions against transnational 
criminal organizations by conducting counter-narcotics 
operations throughout his country and initiating large-scale 
police and judicial reform. The Mexican government's offensive 
and inter- and intra-cartel feuds over access to prime 
trafficking routes to the United States have driven the number 
of drug-related assassinations and kidnappings to unprecedented 
levels. The cartels have become increasingly brazen, targeting 
police, the military, and other security personnel, as well as 
journalists.
    It is against this backdrop that our two governments 
jointly developed the Merida Initiative, a strategic approach 
that recognizes the nature and magnitude of our shared 
challenge and expands our cooperation and work together in an 
unprecedented and collaborative fashion. I think it is 
appropriate to express our appreciation to you and the Congress 
for the strong bipartisan support for the Merida Initiative. 
Congress appropriated $465 million for the first phase of the 
initiative in the fiscal year 2008 supplemental allocating $400 
million for Mexico and $65 million for Central America and the 
Caribbean. An additional $410 million was recently appropriated 
in the Omnibus Appropriation Act, with approximately $300 
million for Mexico and $105 million for Central America.
    The State Department has been charged with overseeing the 
largest portion of Merida funding through implementing these 
foreign assistance funds in a collaborative and interagency 
effort. The State Department is working closely with the U.S. 
Agency for International Development (USAID), the Departments 
of Defense, Homeland Security, Justice, and Treasury both in 
Washington and at our embassies in the region, as well as with 
our host nation's partners. And as we enter the phase of 
concrete collaboration and implementation, our collaboration 
will accelerate.
    There are two critical areas in which the Merida Initiative 
will make an important difference: Interdiction and border 
security and judicial reform.
    Interdiction and border security funding, including support 
for the Mexican counterparts of our Federal law enforcement 
agency, focuses on support for enhanced information systems; 
purchasing special investigative equipment, vehicles, and 
computers for the new Mexican Federal Police Corps; and 
assessing security and installing equipment at Mexico's largest 
seaports.
    We are also providing inspection equipment and associated 
training to support the inspection capabilities of police, 
customs and immigration; and facilitating the real-time 
exchange of information related to potential targets. An 
expansion of eTrace, a weapons tracing program, will enable 
increased arms-trafficking investigations and prosecutions. 
Additional transport and light aircraft will improve 
interoperability and give security agencies the capability to 
rapidly reinforce law enforcement operations nationwide.
    Judicial reform efforts are equally critical. Merida 
includes efforts to improve crime prevention, modernize Mexican 
police forces, and strengthen institution building and the rule 
of law. Through case management software, technical assistance 
programs, and equipment, we will support Mexico's judicial and 
police reforms by enhancing their ability to investigate, 
convict, sentence, and securely detain those who commit crimes. 
Training programs will support the development of offices of 
professional responsibility and new institutions to receive and 
act on citizen complaints.
    Initial projects under the initiative have begun to roll 
out, including a bilateral workshop on strategies on prevention 
and prosecution of arms trafficking; the implementation of an 
anti-trafficking-in-persons system for the Attorney General's 
Office this month, the opening of three immigration control 
sites along the Mexico-Guatemala border that will issue 
biometric credentials to frequent Guatemalan border crossers, 
and a train-the-trainer program for Mexican Secretary of Public 
Security's corrections officers.
    We are also working with the Defense Department to 
accelerate the procurement and delivery of much-needed 
helicopters. This effort requires that we act swiftly and 
closely with our Mexican and interagency partners to respond to 
urgent needs.
    To conclude, I want to emphasize that every party in the 
Merida Initiative recognizes that we share common objectives 
and responsibilities and that a true partnership is required to 
provide our citizens the safety and security they deserve. The 
government of Mexico has clearly demonstrated a willingness to 
take strong and decisive action.
    While the Merida Initiative was born out of crisis, this 
provides us with a strategic opportunity to reshape our 
cooperation and expand dialogue with our partners both in 
Mexico and throughout the hemisphere on critical security and 
law enforcement issues.
    Thank you and I look forward to your questions.
    Chairman Lieberman. Thanks very much, Deputy Secretary 
Steinberg, for an excellent statement.
    Senator Burris and I are former Attorneys General at the 
State level, and we agree that one thing that we miss coming to 
the Senate is being called ``General.'' [Laughter.]
    I do not know whether as Deputy Attorney General you get 
that title, too, but anyway, Deputy Attorney General Ogden, 
thanks for being here.

 STATEMENT OF HON. DAVID W. OGDEN,\1\ DEPUTY ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Ogden. Thank you very much, Chairman Lieberman, Senator 
McCain, and Senator Burris. I suppose maybe I am ``Deputy 
General.'' I do not know.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ogden appears in the Appendix on 
page 132.
---------------------------------------------------------------------------
    I appreciate very much the opportunity to appear before you 
today to discuss the Justice Department's role in addressing 
the alarming rise of violence perpetrated in Mexico by warring 
Mexican drug-trafficking organizations and the effects of that 
violence on the United States, particularly along our Southwest 
Border. I want to share with you our strategy systematically to 
dismantle the cartels, which currently threaten the national 
security of our Mexican neighbors, pose an organized crime 
threat to the United States, as has been discussed, and are 
responsible for the scourge of illicit drugs and accompanying 
violence in both countries.
    Although the drug-related violence in Mexico has existed 
over the years, as Secretary Napolitano indicated, the 
bloodshed has escalated in recent months to unprecedented 
levels as the cartels try to use violence as a tool to 
undermine public support for the government's vigorous counter-
drug efforts.
    A significant portion of this increase in violence actually 
reflects progress, counterintuitively, by the governments of 
Mexico and the United States in disrupting the activities of 
these drug cartels since President Felipe Calderon and Attorney 
General Eduardo Medina Mora took office in 2006. As the Justice 
Department and our Federal agency partners have worked with the 
Mexican authorities to disrupt and dismantle successive 
iterations of the leadership of these cartels, their successors 
have escalated the fighting among themselves for control of the 
lucrative smuggling corridors along the Southwest Border.
    This explosion of violence along the Southwest Border is 
caused by a limited number of large, sophisticated, and vicious 
criminal organizations, not by individual drug traffickers in 
isolation. Indeed, the Justice Department's National Drug 
Intelligence Center has identified the Mexican drug cartels, as 
has been mentioned this morning, as the greatest organized 
crime threat facing the United States today. That insight 
drives our response.
    There is much to do and much to improve. But the 
Department's strategy means to confront the Mexican cartels as 
criminal organizations rather than simply responding to 
individual criminal acts. For more than a quarter century, the 
principal law enforcement agencies in this country have 
recognized that the best way to fight the most sophisticated 
and powerful criminal organizations is through intelligence-
based, prosecutor-led task forces that leverage the strength, 
resources, and expertise of the full spectrum of Federal, 
State, local, and international investigative and prosecutorial 
agencies. It was this approach, for example, that fueled the 
ground-breaking Mafia prosecutions in the United States and 
Italy in the late 1980s and 1990s that really brought down La 
Cosa Nostra. The Department is applying these same 
intelligence-driven tactics that broke the back of the Mob to 
fighting the Mexican drug cartels.
    Our strategy to identify, disrupt, and dismantle the 
cartels has five key elements.
    First, it employs extensive and coordinated intelligence 
capabilities. We pool information generated by our law 
enforcement agencies and Federal, State, and local government 
partners, and our Mexican and our foreign counterparts, and 
then use that product systematically to direct operations in 
the United States and to support the efforts of the Mexican 
authorities to attack the cartels and the corruption that 
facilitates their operations. I want to entirely endorse 
Secretary Napolitano's comments in response to the questions 
from the panel concerning the issue of coordination. It is 
essential that we have full and complete cooperation between 
our departments. I know the Attorney General and I have a long 
working relationship with the Secretary, the highest regard 
mutually between us, and we will solve any problems that exist 
there because it is essential to our success that there be full 
and complete operation among all of the elements of both 
departments.
    The second element is that, led by experienced prosecutors, 
the Department focuses its efforts on investigation, 
extradition, prosecution, and punishment of key cartel leaders. 
As the Department has demonstrated in attacking other major 
criminal enterprises, destroying the leadership and the 
financial assets of the cartels will undermine the entire 
organizations.
    Third, the Department pursues investigations and 
prosecutions related to the smuggling of guns, cash, and 
contraband for drug-making facilities from the United States 
into Mexico. This is the southbound element that the Chairman 
was discussing. The violence and corruption in Mexico are 
fueled by these resources that come from our side of the 
border.
    Fourth, the Department uses traditional law enforcement 
approaches to address spillover effects into the United States 
of cartel operations in Mexico, and that, of course, includes 
spillover violence. It also includes attacking drug violations 
in the United States.
    And fifth, in that regard the Department prosecutes 
criminals responsible for the smuggling, kidnapping, and 
violence in Federal court. The ultimate goals of these 
operations are to neutralize the cartels and bring the 
criminals to justice.
    Attorney General Holder and I are committed to taking 
advantage of all resources in this fight. Last month, the 
Attorney General announced the arrest of more than 750 
individuals on narcotics-related charges under Operation 
Xcellerator, which Senator Burris mentioned. That was a multi-
agency, multi-national effort that began in May 2007 and 
targeted the Mexican drug-trafficking organization known as the 
Sinaloa cartel. Through Operation Xcellerator, Federal law 
enforcement agencies--along with law enforcement officials from 
the governments of Mexico and Canada and State and local 
authorities in the United States--delivered a significant blow 
to the Sinaloa cartel by seizing over $59 million in U.S. 
currency, more than 12,000 kilograms of cocaine, more than 
1,200 pounds of methamphetamine, approximately 1.3 million 
Ecstasy pills, other illegal drugs, and weapons, aircraft, and 
vessels.
    An equally sweeping initiative against the Gulf cartel, 
announced in September 2008 called Project Reckoning produced 
similar dramatic results.
    Now, Operation Xcellerator and Project Reckoning were 
tremendous successes in the battle and show the strengths of 
the approach. But there is much more work to do. The cartels 
remain extremely powerful. Drugs are coming into the United 
States; guns and cash are moving south. So the Attorney General 
is taking the following steps in conjunction with the 
Administration's overall initiative.
    DOJ's Drug Enforcement Administration (DEA), which already 
has the largest U.S. drug enforcement presence in Mexico, with 
11 offices there, is placing 16 new positions in its Southwest 
Border field divisions specifically to attack Mexican 
trafficking operations and violence.
    DEA is also deploying four new mobile enforcement teams 
with 32 new personnel to specifically target Mexican 
methamphetamine distribution in organizations along the border 
and in Atlanta and Chicago, which are key distribution nodes.
    DOJ's Bureau of Alcohol, Tobacco, Firearms and Explosives 
is redeploying 100 employees, including 72 agents, under its 
Project Gunrunner. That is a major plus-up effort, really a 
surge, effectively, of new personnel into the Southwest Border 
constituting essentially a 67-percent augmentation of the team 
there. The fiscal year 2009 budget and the Recovery Act include 
critical new funding for Project Gunrunner as well, which will 
be used to hire 37 additional employees to open, staff, and 
equip new teams. And we will be assigning new personnel to 
consulates in Juarez and Tijuana to provide direct support to 
Mexican officials on firearms-trafficking issues.
    Our Organized Crime Drug Enforcement Task Forces program is 
expanding to create new Strike Forces along the border. And the 
Federal Bureau of Investigation (FBI) is creating a Southwest 
Intelligence Group, which will serve as a clearinghouse of all 
FBI activities concerning Mexico and increase the focus on 
these key problems--extortion, corruption, kidnapping--that we 
are seeing and integrate that effort with the overall effort of 
the other law enforcement agencies working the border. We have 
also increased the presence of the Marshals Service in the 
border area. And our Office of Justice Programs is investing 
$30 million in stimulus dollars to support State and local law 
enforcement to combat narcotics activity along the border, and 
State and local law enforcement may also apply for their share 
of the $3 billion in Community Oriented Policing Services 
(COPS) grants and Byrne Justice Assistance Grants provided for 
those programs.
    All of this will be added to our effort to dismantle the 
cartels, and I do want to conclude with a brief mention of the 
Merida Initiative that Deputy Secretary Steinberg so ably 
described.
    The Department strongly supports that initiative, which 
provides an unprecedented opportunity for a highly coordinated, 
effective bilateral response to criminal activity. We are 
actively involved in the planning and implementation of the 
initiative both interagency and with the Mexican government. 
One of the first programs in Mexico is a ministerial level 
Strategy Session on Arms Trafficking, funded by the government 
of Mexico and the State Department, and developed by the 
Justice Department with DHS and the U.S. Embassy. It is going 
to be held April 1 and 2, 2009, and that is the program that 
the Attorney General and the Secretary will be attending on the 
second day. It will provide important support for our joint 
efforts with Mexico, which have rightly focused on the 
development of intelligence-based targeting and prosecutor-led 
multi-agency task forces.
    Thank you for your interest in this important issue. I 
think working together we can rise to this challenge, and I 
would be happy to answer your questions. Thank you.
    Chairman Lieberman. Thanks, Mr. Ogden. I want to start with 
you, and I want to highlight something. I quoted from the 
previous Administration statement of the Justice Department in 
December, and you have repeated it here today, which is that 
the Mexican drug cartels are the No. 1 organized crime threat 
in the United States today. People have focused on the Mexican 
drug cartels primarily in terms of the actual and greater 
potential for spillover of violence into the United States. But 
you have said something else that is really as broad as the 
country is, and I just wanted to ask you if you want to back 
that up a bit, that this is quite significant. This is the No. 
1 organized crime threat in America today.
    Mr. Ogden. Yes, Chairman Lieberman, it is. And I think to 
understand the dimension of it, first you have to recognize the 
centrality of these drug cartels and the distribution of 
illegal drugs in the United States--cocaine, marijuana, and 
methamphetamine. A substantial majority of the drug trafficking 
in those drugs is controlled by the Mexican drug cartels. As 
has been described, they have operations in over 250 
jurisdictions in the United States. We have estimated that 
between $17 and $38 billion worth of drug proceeds are 
controlled annually by the cartels, and they move south.
    Chairman Lieberman. That is the Department estimate, 
between $17 and $38 billion a year?
    Mr. Ogden. That is correct.
    Chairman Lieberman. To say the least, these people have the 
money to buy very sophisticated weaponry and also, of course, 
to compromise law enforcement, if they are so inclined.
    Let me ask you if you could just explain a little bit more 
for the record about what it means to say that the Mexican drug 
cartels are operating in as many as 250 cities or metropolitan 
areas in the United States today. What kind of presence do they 
have there?
    Mr. Ogden. Well, they have distribution networks in which 
they have essentially distributors and in certain communities 
enforcers essentially that distribute the drug product, that 
collect the revenues, and that enforce the payment obligations.
    Chairman Lieberman. Are these people that they have sent in 
from Mexico, or are these people who are essentially soldiers 
in their organized crime families that are American?
    Mr. Ogden. My understanding is that it is a combination of 
the two. We have a presence of individuals from Mexico, but 
there are also U.S. persons who are involved in the operations.
    Chairman Lieberman. Do you have any evidence that you want 
to share with the Committee at this point about the American 
arms of the Mexican drug cartels compromising law enforcement 
in this country?
    Mr. Ogden. Well, it is certainly the case that a large 
percentage of the weapons in the hands of the drug cartels have 
a U.S.-based origin. And our Mexican counterparts deal with 
that, and it is a major challenge for them. And, obviously, 
spillover violence is supported by that as well.
    Chairman Lieberman. Let me ask you a couple of questions 
about that. Some of the numbers here are really quite 
startling. This Project Gunrunner, which is the ATF strategy 
for disrupting the flow of firearms to Mexico from the United 
States, has referred for prosecution--these are numbers from 
fiscal year 2004 to February 17 of this year--795 cases 
involved 1,658 defendants, 382 firearms-trafficking cases of 
those, including 1,035 defendants.
    In the last 2 years alone, the Mexican government has 
seized more than 33,000 firearms from the drug cartels and 
estimates that hundreds of thousands of firearms enter Mexico 
from the United States each year.
    I have seen the number, and I want to ask you to comment on 
it. We have a category called ``Federal Firearms Licensees.'' 
Those are people who are licensed to sell guns under the 
Federal law. I have read that ATF estimates that approximately 
6,700 of those Federal firearms licensees are located along the 
Southwest Border. Are you familiar with that number? And if you 
are, just try to develop it a little bit. Are they really along 
the border? Or is it within 25 or 50 miles from the Mexican 
border?
    Mr. Ogden. I cannot speak to the specific number. That 
number sounds familiar. It has been described to me. And I 
believe that what we are talking about are basically the 
Federal districts along the border. But I can get the specifics 
for you, Mr. Chairman.
    Chairman Lieberman. Why don't you do that for the record.
    I have heard recent reports that ATF is sending over 200 
agents, redeploying to the border to work on firearm-
trafficking investigations. I want to ask you the same question 
I asked Secretary Napolitano, and I did not make a 
recommendation on behalf of this Committee to the Budget 
Committee because only DHS is under our jurisdiction. We are 
concerned that the redeployment of the Department of Justice 
personnel to the border may compromise law enforcement in other 
parts of the country and wonder whether you are planning to 
submit a modification, or the Department is, of the fiscal year 
2010 budget to beef up your activities, both these and 
prosecutorial activities, the whole range of activities that 
you describe to combat the Mexican drug cartels as an organized 
crime threat to the United States.
    Mr. Ogden. Two parts to the response.
    First, we do not believe that we are compromising law 
enforcement in the short term. We have taken agents we believe 
that we can move. In the hundred that are being moved, it is at 
the moment a 3 to 6-month deployment for a surge to really try 
to make an impact.
    Chairman Lieberman. Right.
    Mr. Ogden. Thirty-seven additional are new that are being 
hired and brought in through stimulus. We will assess the 
situation and see at the end of that short-term period how to 
respond.
    As to the longer-term picture, we are looking at the fiscal 
year 2010 budget and considering this issue quite centrally in 
our thinking about what the needs are.
    Chairman Lieberman. I appreciate that. We would like to 
work with you on that. You have used a word that resonates with 
Senator McCain and me. We have an inherent tendency to want to 
support ``surges,'' particularly when we think they protect the 
security of the United States.
    Mr. Ogden. That was not tactical on my part. [Laughter.]
    Chairman Lieberman. Thank you. Senator McCain.
    Senator McCain. Mr. Ogden, you stated that it was between 
$16 and $30 billion in proceeds from drug trafficking. How do 
they get that money back to the suppliers of the drugs and the 
transporters? I would imagine it goes all the way back to 
Colombia. How does that kind of money move from the consumer in 
the United States of America all the way through the layers of 
the pipeline that comes to the United States of America?
    Mr. Ogden. Senator McCain, the number is actually--the 
estimate is slightly larger than that. It is $17 to $38 
billion, the estimate that I have seen. And how it moves is in 
a number of different ways. Bulk cash movements are a big part 
of this. Literally, large quantities of cash are put together 
and smuggled across the border south. There are various ways in 
which this is accomplished, and we are quite focused on 
identifying those cash flows through intelligence, trying to 
identify the vehicles that are moving it, and trying to 
interdict them, working together with the DHS. But it is a 
major challenge.
    There are other ways. There are these stored value cards 
that are used, and there are likely other ways. But bulk cash 
is a big----
    Senator McCain. What about wire transfers?
    Mr. Ogden. There may be some of that, although I think it 
is less typical than these cash transfers, which are harder to 
trace.
    Senator McCain. Well, whenever, obviously, we have gone 
after crime, we follow the money. And, obviously, it has been 
true with the Mafia, etc. So are we doing enough to go after 
the money?
    Mr. Ogden. Senator, I think that is an extremely important 
question at which we are looking very hard. We are adding to 
each of our organized crime strike force teams at the border a 
financial analyst. That is one of the steps that we are taking 
with this specific initiative, adding financial analysts to 
each of our strike force teams to be looking at those aspects 
of the fight in a very focused way. And as I say, we are 
working hard with the Treasury Department and with the other 
agencies on the bulk cash issue.
    Senator McCain. I think you can also see manifestations of 
this money in the lifestyle that some people enjoy: Large 
mansions on both sides of the border, ostentatious displays of 
wealth. Are there ways of tracking that as well?
    Mr. Ogden. It may be that is an element that people look 
at, unexplained concentrations of wealth. I do not know 
specifically. I will get back and see what we are doing about 
that particular aspect and report back to you, Senator.
    Senator McCain. Well, I have seen some of it myself, and so 
I would hope that sometime we can at least identify the 
inhabitants and the people that are flying private jets, etc., 
and try to devise ways of going after it in that fashion.
    Are you seeing some of these activities still being run 
from prisons in Mexico as well? We see drug cartels sometimes 
run from prisons in Mexico. Are you seeing that in the United 
States as well?
    Mr. Ogden. I am not aware of that specifically, Senator, 
but, again, I will inquire and see if there is information that 
we can share about that.
    Senator McCain. We all know that there are prison gangs 
that have Central American and Mexican connections.
    Mr. Ogden. That is correct.
    Senator McCain. So it would seem to me that drug 
trafficking might be part of that. But I guess I am trying to--
we need to sit down and game this situation and try to think 
outside of the box. If it is up to $38 billion, we ought to try 
attacking this issue from some new directions, and some of that 
may require legislation, as it did when we took on corruption 
as far as the Mafia is concerned.
    Secretary Steinberg, how concerned are you about corruption 
at the highest levels in Mexico?
    Mr. Steinberg. Senator McCain, it is a very important 
issue, and I think one of the marks of President Calderon's 
seriousness in this is the efforts he has made against 
corruption. The Mexican government has instituted a program, 
Operation Clean House, which has identified a number of very 
senior officials associated with law enforcement with 
significant corruption problems. And I think the fact that he 
has taken this on and been willing to take the risks associated 
with exposing those individuals and trying to bring them to 
justice reflects the determination that he has.
    As you said, once you have the magnitude of money involved 
here, the potential for corruption is enormous, and it is a 
true challenge to the State to be able to combat that kind of 
money which is being liberally used by the cartels to try to 
corrupt government officials, law enforcement officials, and 
the like.
    So we have seen a really vigorous effort on the part of the 
Mexican government, the Attorney General's Office, and others 
to take this on, but it is going to be an ongoing challenge.
    Senator McCain. It seems to me, Deputy Attorney General 
Ogden, we have illegal immigration, the coyotes, drug 
smuggling, and kidnapping all mixed up together now. Do you 
agree?
    Mr. Steinberg. I do, Senator, and I think that is a 
critical insight here--these are organized criminal 
enterprises. They are committing crimes in both directions and 
in our communities and in Mexico. That is why it requires a 
coordinated attack that attacks them as organizations in the 
way that we are going about it. We have much to do to improve 
on it, but we have a strategy, and I think we are working hard 
on it.
    Senator McCain. In the now kidnapping capital of America, 
the same people that are smuggling illegal immigrants are the 
same people that are smuggling the drugs, the same people that 
are having the illegal immigrants call up their relatives and 
pay ransom.
    Mr. Ogden. I think that is likely true. Certainly, the 
enforcement side that we see with the home invasions and the 
kidnappings is entirely related to the drug trade in the way 
that you have described. And that is why what we are trying to 
do and I think what we are effectively doing and trying to 
improve upon is to bring together all the law enforcement 
agencies, Federal--both at our Department and the Department of 
Homeland Security--the State and local law enforcement, tribal 
law enforcement, and working with our courageous counterparts 
in Mexico, to bring this intelligence together, look at this 
thing as an overall organization, and attack it as an 
organization.
    Senator McCain. Well, I would like you also to continue to 
look at the use of unmanned aerial vehicles (UAVs). There are 
areas along our border that are basically trackless, and it 
takes a long time once someone gets across the border to get 
into any kind of populated area if they are on foot, or even 
sometimes in vehicles. And I really believe the technology--and 
we have had a number of cases of failed technology along the 
border, as you know. But I think it is pretty clear that the 
UAVs can be very effective, particularly given the state of 
technology today. If you agree we are in a ``war'' on drugs--we 
use that term too loosely. But the fact is if we are in a 
struggle that poses an existential threat to the country of 
Mexico, then I think we ought to look at the technological 
aspects of warfare to increase our ability to surveill and 
interdict. So I hope you will be looking at that.
    I thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCain. Your last 
line of questioning reminds me that a short time ago, General 
Renuart, who is the head of our Northern Command, which is 
responsible for the Pentagon's role in homeland defense, 
testified briefly about what his command is beginning to do 
with regard to the spillover of violence from Mexico and to be 
a support to the Mexican military as well. And he might be a 
good witness to bring before us at a future hearing on this 
subject, because we are really beginning to mobilize our 
resources here, including defense.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    Deputy Secretary Steinberg, in your testimony you were 
saying the coordination between Justice and State was to the 
point of assisting the Mexican law enforcement and the Mexican 
judges. Could you explain that again, how you are working with 
the judges and the Mexican law enforcement along with Justice 
and coordinating those efforts?
    Mr. Steinberg. Certainly, Senator. As I said, one of the 
most important parts of President Calderon's effort is to deal 
with the justice system. He has, along with the Mexican 
legislature, adopted a very ambitious set of legal reforms to 
really transform the legal system in Mexico to be more like our 
own system of oral advocacy and away from the judicial inquiry 
mode that they had before. So there is a very broad-ranging set 
of reforms that they are now engaged in, as well as efforts to 
deal with corruption in the judicial system, to provide 
training for prosecutors and judicial personnel, to reform the 
corrections system and corrections facilities, and to train 
corrections officers there. So it is really a systematic effort 
really to get at the whole system from all of its aspects, from 
prosecutions through corrections, to make the system more 
responsive, more insulated from corruption and the impact of 
cartels, and to prove that the State really is on top of these 
things.
    Here, although we have a responsibility for coordinating 
the assistance, we draw on the capabilities and strengths of 
all the different parts of our government, USAID and Justice in 
particular, on these reform efforts.
    Senator Burris. Thank you. And, Deputy Attorney General 
Ogden, I raised a question with Secretary Napolitano about the 
local use of drugs. How are you all coordinating with local law 
enforcement? Because it is my fervent belief that if there is 
no demand, there can be no supply. And especially in inner-city 
Chicago, where I come from, the major industry is drug usage 
and turf battles and turf spraying with AK-47s.
    I know that there is a drug czar and you have these joint 
efforts, but are we looking forward to putting more resources, 
too, into local law enforcement and into treatment to stop the 
demand of these individuals who may find themselves being 
addicted to drugs so that we can cut down on the flow of the 
dollars going into this drug trade, which then is shipped out 
to Mexico, which is used to build these big cartels? It is 
coming from the $10 and $15 that is given right on the street. 
So if we cut that out, wouldn't that cut the head of the snake 
off?
    Mr. Ogden. Senator, that is true. Clearly, the violence and 
the entire industry is fueled largely with dollars that flow 
south from the United States in exactly the fashion that you 
describe. And the effort of the Office of National Drug Control 
Policy (ONDCP), I believe there is a renewed commitment to 
addressing the demand problem there; certainly the drug courts 
that Secretary Napolitano spoke about, which are funded through 
programs of the Department of Justice's Office of Justice 
Programs to increase those important elements in the fight; and 
then, as you say, coordination with State and local law 
enforcement.
    The new stimulus package has $3 billion worth of Byrne 
Justice Assistance Grants and grants under the COPS program to 
help and support State and local law enforcement, and we plan 
to work very closely together with them on these initiatives.
    In addition, State and local law enforcement, as I 
mentioned, are integrated into the enforcement, intelligence 
sharing, and prosecution teams that I was discussing earlier.
    Senator Burris. Is anyone dealing with the educational 
piece of it, the treatment piece to treat those individuals who 
are addicted to drugs so that we can cut down on the demand? I 
know that does not fall in the Justice bailiwick. It is 
probably in some other department. But in this coordinated 
effort that we are talking about here, Mr. Chairman, I do not 
know whether or not we have funds that we can some kind of way 
find where we can get down to that ultimate user that is 
putting that $5, $10, $15, and $20 that really ends up going 
back to Mexico in these big bundles that fuel these cartels. 
And we must get at the source of it, and that is in my 
community and all the small towns across America. These drugs 
have inundated our youth. They are in small communities where 
law enforcement do not have the resources to go after them. And 
they end up eventually in the criminal justice system or in the 
health care system in a way that even brings a whole drain on 
our economy.
    We must get at the root cause, and that is, the user of the 
drugs, and education and treatment are the sources that I keep 
saying that we must do.
    Can you comment on that, gentlemen? Do you agree with me?
    Mr. Ogden. We certainly agree with you that education and 
treatment are critically important. I think our drug courts try 
to incorporate treatment. But there is a lot that needs to be 
done.
    Mr. Steinberg. If I could just add, Senator, one of the 
aspects of our program that does not get as much attention is 
we are also working on demand reduction in Mexico as well. That 
is another piece of this. Just as we need to deal with the 
demand side here, we need to help Mexico deal with its demand 
side because they have their own drug problem which also feeds 
the cartels.
    Senator Burris. Thank you very much, Mr. Chairman. Thank 
you.
    Chairman Lieberman. Thanks, Senator Burris.
    Senator Pryor, we now have three former State Attorneys 
General.
    Senator Pryor. That is right, three against one.
    Chairman Lieberman. We are a tight group. [Laughter.]
    Not to suggest that you are a law breaker, Senator Tester.
    Senator Tester. Just here to offer a level of common sense, 
Mr. Chairman. [Laughter.]
    Senator Pryor. I love that.
    Chairman Lieberman. As usual, he gets to that.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Mr. Ogden, let me start with you, if I may. 
In December, the Department of Justice Drug Intelligence Center 
released a report that identified 230 cities in the United 
States, three of those being in Arkansas, with a Mexican drug-
trafficking organization or presence in the city. How is the 
Federal Government reaching out to those cities and those 
States and local law enforcement, governors, fusion centers, 
whatever the case may be? How are you reaching out in trying to 
work with different levels of government to try to make that 
situation better?
    Mr. Ogden. It is critically important, Senator, exactly as 
you say, to have both coordination and mutual support with 
State and local law enforcement in dealing with this problem. 
These are enormous organizations that their tentacles reach 
into our communities across the country. And so through our 
intelligence-sharing facilities that are essentially chaired by 
the Drug Enforcement Administration, they bring in all Federal 
law enforcement, State and local law enforcement, and to a 
significant degree, our foreign counterparts, to share that 
information. The information is shared with our State and local 
counterparts and partners. There is an effort at the 
prosecutorial level to coordinate enforcement of drug offenses, 
and so both with the DEA's outreach to individual communities 
that have particular problems with the mobile enforcement 
teams, with our Organized Crime Drug Enforcement Task Force 
(OCDETF) that incorporates State and local law enforcement, and 
with the coordination as I described at the DEA intelligence-
sharing facilities, there is really a concerted effort to work 
together with State and local authorities on this problem.
    Senator Pryor. And you have been talking mostly about 
information sharing, but are you also targeting tools and 
resources to those cities and those areas?
    Mr. Ogden. We are, and thank you for reminding me to 
address that part of it. There are $30 million in the stimulus 
that are specifically going to the border State and local law 
enforcement to support border issues. Beyond that, there are $3 
billion of grants under the Byrne Justice Assistance program 
and the COPS program, which are available for State and local 
law enforcement to apply for support from the Justice 
Department and to work with us on developing the most effective 
programs for law enforcement generally, but obviously this 
problem is a central and important one that would receive 
priority.
    Senator Pryor. And no portion of those money pots that you 
are talking about are designated specifically for this, but you 
are saying they are available generally, and I guess they are 
somehow prioritized within DOJ?
    Mr. Ogden. Well, certainly there is an effort to have those 
programs address the urgent law enforcement needs that exist 
across the country, and so those monies are to provide that 
kind of support, and then we have the coordination operations 
that I was describing on the operational side to make sure 
people are working together.
    Senator Pryor. With the report that came out in December, 
it said 230 cities in the United States. Is that number about 
the same today?
    Mr. Ogden. I believe so. That is, I think, the most current 
intelligence that we have on that question.
    Senator Pryor. And when it says a Mexican drug-trafficking 
organization presence in a city, does that mean it is usually 
done with Mexican nationals?
    Mr. Ogden. I will get back with whatever detail that we can 
provide more specifically. But it is, I think, a combination of 
Mexican nationals and U.S. persons who are involved in that.
    Senator Pryor. Let me ask, if I may, Mr. Steinberg, a 
question about--is it pronounced the Merida Initiative?
    Mr. Steinberg. Merida, sir.
    Senator Pryor. Merida. Could you tell the Committee what 
that is and how that is going?
    Mr. Steinberg. Yes, sir. The Merida Initiative was started 
last year. It was a multi-year initiative that began with 
funding in the fiscal year 2008 appropriations bill. We have 
now had--between the fiscal year 2008 appropriations of about 
$400 million and now $300 million in the omnibus, it is a 
comprehensive effort that involves a number of Federal agencies 
as well as our counterparts in Mexico to address a full range 
of the issues involved in helping Mexico strengthen its efforts 
against the cartels and against narcotics and violence. It 
focuses on efforts like providing the Mexican government with 
non-intrusive inspection equipment so that it can detect flows 
of firearms and funds going south. It provides support for 
judicial reform, support for corrections reform, support for 
training officials, support for additional mobility and 
intelligence and information sharing among law enforcement 
officials at the Federal and local level in Mexico and with 
their counterparts.
    So it is really quite a comprehensive effort dealing with 
the full range of issues that allows the Mexican government to 
take on this very strong challenge, and it will require a 
multi-year effort working together and involving a broad range 
of agencies in the United States, the State Department, Justice 
Department, DHS, Treasury, USAID, and others working with their 
Mexican counterparts to address this problem.
    Senator Pryor. Can you tell yet if it is going to be 
successful or if it is headed in the right direction?
    Mr. Steinberg. We are in the early days. As I say, the 
first tranche of funding just became available at the end of 
last year. We have already begun to implement a number of 
programs, particularly with a focus on some of the training 
programs that Deputy Attorney General Ogden and I have 
mentioned, but also in getting this equipment to them that they 
need, this non-intrusive inspection equipment, which is a very 
high early priority, as well as some of these training 
programs.
    In addition, there are things that are sort of the big-
ticket items. It is increasing our ability to exchange 
information and ideas on tactics and operations, and a very 
high priority is getting them the mobility they need to be able 
to respond quickly when we have information and to support 
their own efforts as they try to strengthen particularly the 
Federal police as a key element of their effort against the 
cartels.
    Senator Pryor. And we did this last year. Is it your 
impression that this Administration will continue to prioritize 
this and continue to seek this type of funding and continue the 
program?
    Mr. Steinberg. Senator, as you know, we have not yet 
finalized the 2010 budget yet, but we see this as a multi-year 
commitment, and I am confident that, without discussing 
specific amounts yet, this is a priority we intend to continue.
    Senator Pryor. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Pryor, for 
your questions.
    Next we go to Christopher Carper's father, Senator Tom 
Carper. We are honored to have both the Senator and his 
offspring here this morning.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Thank you, Mr. Chairman. We will 
let the audience look at the folks behind me and figure out 
which one of them might be my son, Christopher.
    Thanks very much. Our thanks to each of you for being with 
us today. I apologize for being late. One of the 
responsibilities of this Committee is not just to be concerned 
about the security of our borders and the security of our 
homeland, but also a responsibility is to make sure that we 
count every 10 years how many people live in this country in 
the census, and that starts in about a year. And we had a big 
session today with a lot of Latino organizations that are 
anxious to make sure we count the folks that are here, 
hopefully legal, but some may be some who are not. So I 
apologize for being delayed and having missed your testimony 
and that of my former governor colleague, Janet Napolitano. But 
we really appreciate your presence and appreciate your work.
    I caught just a little bit of Senator Burris' comments when 
I was coming in and out, and I asked my staff about this. Is 
this the right picture? Do I have this right? In this country, 
we consume enormous amounts of illegal drugs, and a lot of 
those come out of Mexico, and as a country, we pay a lot of 
money for those illegal drugs, and a lot of that money ends up 
down in Mexico, and the folks down in Mexico use a portion of 
that money to come back into the United States and buy weapons 
from us, and they send people who do not have a criminal record 
into gun stores to buy a number of weapons legally. They send 
people into gun shows where they can buy weapons legally. And 
they can buy assault weapons legally now because the ban on 
that has dropped.
    I am a guy who believes in the right to bear arms, but I 
also have some concerns about the way this seems to be working 
to me. We took the train down here this morning from Delaware, 
and I read in the local paper this initiative that has just 
been launched by the Administration. I said it sounds good. I 
understand that Governor Napolitano discussed it today. But if 
the two of you could just take a couple of minutes and talk to 
us about how this new initiative reduces some of the demand for 
illegal drugs in our country. And, second, how this initiative 
will reduce the ability of folks to come into this country and 
to buy weapons here that will go back and be used as a part of 
the violence, not just on the border but into this country and 
certainly well into Mexico. If you all could take a shot at 
that, I would be grateful.
    Mr. Ogden. Certainly, Senator. Well, I think the basic 
picture that you paint of large criminal organizations which 
are selling drugs in the United States for large amounts of 
money, buying weapons in the United States, taking the money 
and the weapons back to Mexico and using them to further the 
criminal enterprise----
    Senator Carper. I mean, we are all about a strong economy, 
and we are trying to stimulate our economy and pass stimulus 
bills and so forth. It seems like this part of the economy is 
going too well, and we need to figure out how to deflate this 
bubble.
    Mr. Ogden. Certainly, it is a very insidious economy, and 
it is one that has these terrible ramifications for our border 
communities and for our partners and friends in Mexico. And it 
is something that we are very serious about attacking.
    We think that it is critically important to attack these 
organized criminal enterprises as organizations and to take 
them on through prosecutor-led task forces, intelligence 
sharing among the relevant law enforcement agencies working 
with State and local governments, and most important, 
partnering with the Mexican government, which is so 
courageously taking on this problem on their side of the 
border. And what we are trying to do with these new resources 
is to support that centrally driven prosecutor-led strategy to 
bring these people to justice and dismantle these 
organizations.
    On the demand side, we have talked today, I think that it 
is a very important thing to do. We need to address the 
distribution here. We need to do everything we can to address 
addiction and the problems that bring that about. 
Fundamentally, this problem of the cartels we need to address 
the way we took on the Mafia in the 1980s and 1990s and try to 
take them down that way.
    Senator Carper. All right.
    Mr. Steinberg. If I could just add, Senator, obviously this 
is a priority for the Mexican government. It is of deep concern 
to them that it is feeling the violence on the other side of 
the border. And we are talking not just about small firearms, 
but in many cases actually things that are approaching heavy 
weaponry. So this is not just a question, although we are 
concerned about individual weapons, but we are starting to see 
the kinds of weapons that are really used in military warfare.
    So this is a very serious problem, and it is contributing 
to this remarkable violence on the Mexican side.
    Senator Carper. But the folks that are using those weapons, 
Mr. Steinberg, where are they buying those, the heavier 
weapons?
    Mr. Steinberg. I think there are a variety of sources, and 
one of the things that we are working with the Justice 
Department is to understand better where they are including 
efforts not only to detect them going across the border through 
non-intrusive inspection equipment, but also through the eTrace 
program, which tries to identify the sources of them and look 
back to the sources, and then working with Treasury and Justice 
to identify where they may be coming from.
    Senator Carper. All right. I understand that a fair amount 
of this hearing today has focused on the Southern Border, and I 
want to take just a minute--I do not know if anyone has 
discussed the Northern Border with you or not. The Northern 
Border is pretty big, and it is worth a little bit of 
attention.
    I would ask--and this is probably more for Deputy Secretary 
Steinberg. But how long do you think it will take to fully 
implement the State Department's Merida Initiative? And do you 
feel the money that the Congress appropriated was enough to 
provide concrete improvements to the Mexican government's 
counter-narcotic and anti-cartel efforts?
    Mr. Steinberg. Well, Senator, this is a multi-year effort, 
and we are off to a good start. As I indicated, the Congress 
has now provided about $700 million to Mexico, and one thing 
that we have not talked as much about this morning, but I just 
do want to emphasize, is that some of the funding has gone to 
Central America and to Haiti and the Dominican Republic because 
we have to see this in a regional context. And it is very 
important and the Mexican government is very concerned as well 
about its Southern Border, so seeing this regional effort is 
quite important.
    That is a significant start on a program that will take 
several years, and clearly, again, without specifying what we 
will be looking for in the 2010 budget precisely, we are going 
to need continued funding. This is going to be a multi-year 
effort.
    The good news is we really now have the framework underway. 
We have the letters of agreement with the government of Mexico. 
We have the interagency understandings mostly in place at this 
point that allow us to be effective. I think we are going to 
see an acceleration of the program as we go forward. So 
sustaining that going forward is going to be quite important, 
and obviously we will be talking to you about that as the 2010 
budget comes up.
    Senator Carper. Good. Now we will go back to the Northern 
Border. The kind of concerns that we have seen, that we see 
every day along the border of Mexico are riveting, and they 
demand our attention. When you look at the Northern Border, can 
you all describe for us any current or future efforts to 
bolster security along the Canadian border? Have you seen 
suspicious illegal immigration activities or trends that our 
intelligence folks or law enforcement people feel can pose a 
national security risk?
    Mr. Steinberg. Senator, we work very closely with our 
Canadian counterparts as well. It is a very strong relationship 
that we have with the security officials, with the RCMP in 
Canada, to have a joint effort and to coordinate our effort 
there----
    Senator Carper. RCMP stands for the Royal Canadian Mounted 
Police?
    Mr. Steinberg. The Royal Canadian Mounted Police, yes, sir.
    Senator Carper. Yes.
    Mr. Steinberg. Still there, and doing a very fine job.
    Senator Carper. After all these years.
    Mr. Steinberg. But the President was just in Canada 
visiting with his counterparts, and we had a chance to talk 
about this. The border there is critically important to our 
economic well-being, the ability to both, on the one hand, make 
sure that people, commerce, and goods can move expeditiously to 
have the kind of just-in-time integrated economy that is so 
critical to our well-being, and we depend so closely on working 
with Canada on those things, but at the same time to deal with 
security and to see this as a shared space so that it is not 
just the border as how we deal with security problems, which 
not just involve illegal immigration but, obviously, concerns 
about potential terrorist threats and the like. And that is 
something that we have seen increased collaboration and 
cooperation between our two countries. We need to continue to 
build the infrastructure around the Northern Border as well to 
address these concerns.
    Senator Carper. All right. Thanks very much.
    Mr. Chairman, thanks very much. Timely hearing. This is 
really timely.
    Chairman Lieberman. Thanks, Senator Carper. Thanks for 
being here. It has been a very productive hearing so far.
    Senator Tester, thank you.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman, and I 
apologize for not being in on the first panel, and I apologize 
for not hearing your testimony. But, nonetheless, I think this 
is a very important hearing, and I want to thank you, Mr. Ogden 
and Mr. Steinberg, for being here today.
    I come from a border State, as Senator Carper talked about. 
It is a Northern Border State. We have different issues, as you 
pointed out, Mr. Steinberg, but it certainly has its 
challenges, and I look forward to working with you in the 
future on meeting those challenges. But whether it is the 
Northern Border or the Southern Border, porous borders mean 
that the potential for drugs flowing into communities all over 
the country is real, and it is everybody's problem.
    We do need, as Senator Burris pointed out when I first came 
in, to acknowledge that there is a clear demand problem here in 
the United States. I think that is critically important that we 
get a handle on that. And I want to be clear about one other 
thing. Some have used this latest outbreak in Mexico to argue 
for tighter gun control restrictions in the United States. I do 
not agree that is the right answer either. I think that the 
right answer is really cooperation, which I am hearing at all 
levels of government, and smarter intelligence, more eyes and 
ears on the border, getting tougher on criminals that are 
smuggling the weapons and drugs, and as I said earlier, demand 
here at home.
    One other thing that I would throw in, and that is, trade 
policies at work in Mexico as well as here in this country. I 
think anytime you get a situation where people are struggling 
to make a living, they are willing to almost do anything to 
feed their family.
    Mr. Ogden, I want to make sure that you have the resources 
to address gun crimes, and rather than ask for new gun laws, I 
am glad to see Project Gunrunner is being discussed; I am glad 
to see that you are working to find folks that smuggle weapons. 
I think that is critically important.
    I am a firm believer in getting the biggest value for the 
buck that we spend when it comes to taxpayer dollars, but I 
think there are a lot of folks in my State that think that is 
money well spent to go get the bad guys.
    Mr. Ogden. Thank you, Senator. We certainly agree with 
aggressive enforcement of the gun laws that are on the books, 
getting at this smuggling through the eTrace system, which is 
the ATF system for identifying a gun that has been used 
illegally, a gun that is in Mexico that is seized, how it was 
sold, and tracking down that process to try to find the gun 
smugglers, the gun runners, is critically important.
    Senator Tester. I appreciate that. I appreciate that a lot 
for a lot of different reasons.
    I think it was you, Mr. Ogden, who said that there is $30 
million in the jobs recovery, stimulus bill, whatever you want 
to call it, that go directly to the border.
    Mr. Ogden. Senator, there are $30 million in the stimulus 
for the Office of Justice programs to provide grants to State 
and local law enforcement directly connected with the border 
and the critical communities that are suffering from drug----
    Senator Tester. Is that the Southern Border only, or is 
that both borders?
    Mr. Ogden. It is focused on the Southern Border and the 
communities that are directly affected by that problem. The 
larger package in the stimulus, there are $3 billion worth of 
grants under Byrne Justice Assistance Grants and COPS that are 
available nationwide.
    Senator Tester. Do you know how much of that is going to 
the Northern Border? I know this is the Southern Border 
hearing, but----
    Mr. Ogden. I think that essentially remains to be seen. We 
are open for business to receive applications, and I think we 
will try to process them according to appropriate criteria.
    Senator Tester. And the $30 million you talked about is 
used to develop relationships with local entities on the 
border.
    Mr. Ogden. To support them and support our relationship, 
that is right.
    Senator Tester. And how is that going? Is that money 
getting out? When do you anticipate that money to get out? When 
do you anticipate those relationships to be developed so you 
can send that money out?
    Mr. Ogden. Well, the relationships exist, and we are 
working hard on them every day. We work side by side with State 
and local law enforcement in this battle. The money is--as you 
can appreciate, there are processes. People need to apply. We 
are ready to receive those applications and to move that money 
out as soon as possible. A precise timeline I think depends on 
the applications and how fast we can move them.
    Senator Tester. I would just say from my perspective, I 
appreciate those efforts, working with local law enforcement, 
working with, in the Northern Border's case--and I am much more 
familiar with that than the Southern Border--people who own 
land, who farm and ranch along that border. I think you can get 
a lot of bang for the buck, and I think that those 
relationships really need to be developed if we are going to 
get a firm grip on tightening up the border.
    I speak mainly from a Northern Border perspective, but if 
it applies to the Southern Border, then so be it and so do it. 
And so I thank you for those efforts.
    You had mentioned that you feel it is important to attack 
the cartels, treat them as an organization, attack the 
organization. Part of being able to do that is communication 
between not only those local entities that are on the American 
side of the border with Homeland Security, but also the Mexican 
side of things. And I did not hear your statement, and you may 
have addressed this already. But what kind of communication do 
you have--because timeliness is critically important here. What 
kind of communication do you have with local agencies, local 
law enforcement, and Mexican law enforcement at all levels?
    Mr. Ogden. It is a critically important question, and there 
is no way to understand this problem and how we are going to 
solve it without understanding what you have just said, which 
is that we need to have the most productive partnership with 
our Mexican counterparts that we possibly can have. And we have 
a very strong and good relationship. The Merida Initiative, in 
which we are side by side, our prosecutorial and investigative 
experts working with theirs to build infrastructure, to build 
bridges, and to make ourselves more coordinated, is a critical 
piece of this, the work that the State Department, the Attorney 
General, and Secretary Napolitano are doing, to build those 
bridges.
    We are sharing information to a very significant degree. We 
are working to build vetted units within the Mexican law 
enforcement structure of agents who have been vetted by the DEA 
and by the United States as being people who are not corrupt 
and who can be trusted with our intelligence. And all of this 
effort which is underway, has been underway, which we are 
trying to accelerate. As the Deputy Secretary said, it is 
critically important to winning this fight.
    Senator Tester. If there is one area that needs to be 
addressed--I will not call it the ``weakness,'' but if there is 
one area that you would say we really need to focus on to 
really be able to secure the border, stop the gun running, stop 
illegal drugs coming the other direction, what would it be?
    Mr. Ogden. I think the critical thing is to have the 
strengthening of our working relationship with the Mexican 
government, strengthening the institutions on both sides, and 
the coordination on both sides.
    Senator Tester. Thank you very much, and I appreciate you 
both being here.
    Chairman Lieberman. Thanks, Senator Tester. Thanks for 
those questions. Senator Akaka, welcome. Thanks for being here.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. Good to 
be here. Let me apologize for being late to this hearing, but I 
was conducting another hearing before this.
    I am very interested in what is happening there on the 
Southern Border, as well as the Northern Border, and would like 
to direct this question to Deputy Secretary Steinberg, and 
bring in the Merida Initiative, which is an assistance package 
to Mexico and Central America to combat drug trafficking and 
organized crime with an objective to maximize the effectiveness 
of efforts against drug, human, and weapons trafficking.
    The Merida Initiative provides also funding to support a 
variety of programs in Mexico. The large amount of funding and 
broad scope of the initiative makes oversight particularly 
challenging. I would like you to address how you are monitoring 
progress on this. What performance metrics do you have in place 
to measure the progress of the Merida Initiative in meetings 
its goals?
    Mr. Steinberg. Well, thank you, Senator. I think you have 
raised a very important point because, obviously, the test of 
the program in the long term is going to be how effectiveness 
we are in partnership with Mexico in helping the government of 
Mexico to get control of its streets to deal with this very 
serious organized threat to the very public security of its own 
citizens. And so we have a set of short-term measures that we 
are going to be focusing on as we go forward, looking at issues 
like increased arrests of drug traffickers and gang members, 
the dismantling of organized crime syndicates, increased 
interdiction of illegal drugs and weapons, improved 
effectiveness of the national judicial systems, reduction of 
criminal case backlogs, reduction in the average length of 
trials, increased public confidence in the courts, improved law 
enforcement cooperation both between us and the Mexicans and 
between the Federal level in Mexico and the local authorities, 
and the ability to deal with the cross-border issues not just 
between the United States and Mexico, but also into Central 
America.
    So there are a number of things that we are going to be 
working on there over the long term to see a reduction in 
violence, to see a reduction in these flows of the drugs north 
and the money and the arms to the south. These are early days, 
but I think we have already seen the very fact of this 
increased violence to some extent is a reflection of the 
determination on the part of the Mexican government to take 
this on. And the cartels are fighting back. They are seeing 
their existing routes be disrupted. They are fighting over 
territory.
    So we are seeing in some respects a kind of intensity of 
fighting reflecting the determination of both sides, the United 
States and Mexico, to take this one. But we are going to need 
to stay at this for a while. The cartels are well organized and 
well funded. They are fighting for their lives, and the Mexican 
government is going to be doing what it needs to get that done.
    So we will have to stay on top of this. Oversight is very 
important. These are significant resources. We have mechanisms 
in place. These are largely situations where we are not 
transferring funds to Mexico so much as providing technical 
assistance, training, and equipment that we are working on 
together so we have a good ability to make sure that it is 
being used for the purposes that Congress intended.
    Senator Akaka. You mentioned training. In particular and 
specifically, how is the training going? I can recall that 
training was to begin April 2008, and since then--then my 
question would be: How is the training program? And what kind 
of metrics are you using to check on that?
    Mr. Steinberg. Well, Senator, the initial appropriation for 
the Merida Initiative was enacted in June of last year, so we 
have been operating on funding that has just become available 
starting last summer, and we have been working with Committee 
staff here up on the Hill in the initial days to agree on a 
plan going forward. We had to reach some letters of agreement 
with the Mexican government on how these programs should go 
forward.
    So the reality is that the programs have actually begun in 
the last 4 or 5 months, and we are beginning to see these 
programs take place--training of corrections staff, working 
with judicial officials, and as I said, a significant effort 
focused on the procurement of equipment, particularly non-
intrusive detection equipment, which is a major part of the 
actual overall amount of spending.
    But these efforts now I think are accelerating. We have the 
framework in place, and we need to keep at it.
    Senator Akaka. Thank you.
    Deputy Attorney General Ogden, there are a number of 
initiatives addressing the violence associated with the drug 
cartels near the Southwest Border. In order to meet these 
initiatives, your Department must coordinate--and my question 
is really on your coordination--with DHS, the State Department, 
and the State and local governments as well.
    How are you ensuring that your Department's 
counternarcotics efforts are complementing rather than 
duplicating efforts of other agencies involved?
    Mr. Ogden. Thank you, Senator. I think you put your finger 
on a critically important aspect of the response here, which is 
we do need to be extremely well coordinated.
    The Drug Enforcement Administration was established to be 
the drug enforcement entity, the central drug enforcement 
entity for the United States, and DEA has established 
intelligence centers, the Special Operations Division (SOD) 
center, and the El Paso Intelligence Center (EPIC), which bring 
in all of the critical agencies to share intelligence and to 
share information. That is a critical aspect of the 
coordination of this effort, that effort that the DEA does, and 
then the DEA works to make sure we are de-conflicted, that we 
do not have conflicts among agencies pursuing these cases, and 
work together with the prosecutors in their own task forces, of 
which DEA and the other agencies are a part, to put together 
these major initiatives that are designed to take down the 
cartels, such as Xcellerator, such as the one against the Gulf 
cartel.
    So we are pursuing coordination through those mechanisms 
and, I think, continuing to look for ways to improve our 
coordination.
    Senator Akaka. Yes. And as was pointed out, you have been 
working with groups. Can you tell me how many different groups 
there are that you are working with on this problem?
    Mr. Ogden. The groups that we are working with on our side 
of the problem you mean?
    Senator Akaka. To deal with this problem.
    Mr. Ogden. Well, certainly within--well, it is a large 
number. I am not sure I could quantify it. In the Justice 
Department, there is the DEA, the ATF, the FBI is an important 
part of this, the Marshals Service, and our Federal prosecutors 
in the Criminal Division and in the U.S. Attorneys' Offices. At 
DHS, there is ICE, the Border Patrol components, and the rest 
of the critical aspects of DHS working on this. Obviously, our 
partners at the State Department in working with the Mexican 
authorities are critical. The Treasury Department with respect 
to the aspects of this that affect the cash flows is another 
critical partner. State and local law enforcement, tribal law 
enforcement, and then, far from least, our Mexican colleagues 
and counterparts are so bravely taking this battle to the 
cartels in their own backyard. That relationship is critical. 
And I have probably left out someone who will be annoyed with 
me, but it is a large group that we are bringing together.
    Senator Akaka. Yes, well, thank you very much, Mr. 
Chairman. My time has expired.
    Chairman Lieberman. Thanks very much, Senator Akaka.
    I just have one more question or two for you, Mr. 
Steinberg, about the Merida Initiative. Incidentally, I 
appreciate what you said a short while ago about the 
relationship between the United States and Mexico. It is a 
longstanding relationship. It has been through difficult times. 
This seems to be one of the better times. We always ought to 
have a pro-American Government in Mexico and a pro-Mexican 
government in America. That does not always happen. We have it 
now, and in regard to this specific crisis, we have an 
extraordinarily courageous Administration in Mexico City that 
we want to work with and we are working with. So I appreciate 
the way you said that, as a matter of our foreign policy, if 
you will, in addition to domestic law enforcement.
    I want to ask you just this question about the Merida 
Initiative. First, I understand that we are in the budget 
process so you cannot tell us how much you are going to ask 
for, for Merida, but I appreciate that you made a commitment on 
behalf of the Department to continue this as a multi-year 
program. You tell me if you are willing to answer this 
question. I assume that we will put at least as much into the 
program as is going in on an annual basis now. Is that fair to 
conclude?
    Mr. Steinberg. Senator, again, without getting into 
specifics, when the program was initially envisioned, we were 
talking about a 3-year, $1.4 billion program. Now, obviously, 
we want to look at it in terms of individual year allocations, 
how we can best use the money. We do not want to get more money 
than the system can appropriate. So I cannot give an absolute 
number, but I do think the fact that it is a multi-year thing 
and some sense of the scale that was initially envisioned gives 
you some sense about the kind of role that we saw going 
forward.
    Chairman Lieberman. In the first 2 years, fiscal year 2008 
and 2009, Congress actually appropriated less money than was 
requested. There was $950 million requested and $700 million--
still a considerable amount, of course--was appropriated. One 
of the reasons given here in Congress for the reduction in 
funding was a concern about the slowness with which the Merida 
money had been disbursed to date. This is not a problem of your 
creation, that you found this, but I gather that a relatively 
small fraction of the funding appropriated in fiscal year 2008, 
as Senator Akaka indicated, for Mexican law enforcement 
agencies has actually been expended to date--not obligated but 
actually expended.
    So I wanted to ask you if you agree with that observation 
that this is moving slowly, and if so, why do you think it is 
and what are you doing with the Secretary to expedite the 
disbursement of the remaining fiscal year 2008 Merida funding.
    Mr. Steinberg. Well, Senator, I think everyone always wants 
the money to get out the door as fast as possible, and I think 
we could talk about the details about what happened last year. 
I think there was a period of time that it was important for 
the Department and Congress and the key members of your staffs 
to have a joint understanding about what we are going to do, 
because it is a long-term program, and getting it off on the 
right footing was important. So there was a period of time 
associated with that, and once we had an agreement here in the 
United States about how to spend the money, we needed to work 
that with the Mexicans.
    By the end of calendar 2008, I would say we had the 
mechanisms in place, and now we are ready--fortunately, 
coinciding with the beginning of this Administration--to really 
begin to be aggressive about this. And as I said, one of the 
things that we are going to see, although a relatively small 
amount of money has been obligated at this point, a significant 
amount of funding, particularly for this non-intrusive 
detection equipment, is really ready to go.
    Also, a very important additional part that I hope we will 
be moving very quickly is the helicopters for the Mexican 
military. Congress was good enough to waive the informal 
notification requirements under the Foreign Military Financing 
(FMF) program. The formal notification expires on April 13, 
which means we will be in a position after April 13 to finally 
negotiate those contracts for the helicopters, which are 
critically important to provide the mobility and the speed of 
responsiveness.
    So as we get some of these larger programs out the door, we 
will see that in terms of the percentage of funds allocated, 
that will go up very dramatically, and as I say, we have now 
the letters of agreement in place with the government of Mexico 
that facilitate the expenditure of the funds that are handled 
under our international narcotics law enforcement accounts.
    And so I think that the pipeline is well established, the 
relationships are well established, both within the United 
States and between the United States and Mexico, and we can see 
an acceleration of the implementation of the program.
    Chairman Lieberman. That is very encouraging, and we will 
obviously keep in touch with you on that.
    Although the Merida funding is appropriated to the 
Department of State foreign assistance accounts, obviously the 
Department of Homeland Security and the Department of Justice 
are important partners with you. This is in the form of open 
group family therapy. We have heard grumbling--not, of course, 
from Mr. Ogden--that folks at DHS and DOJ feel that they have--
and, again, this maybe goes more back to the previous 
Administration--but they have not been fully involved in the 
budget priority formulation process. And I wanted to ask you if 
you intend to include them early on as best you can in that 
process?
    Mr. Steinberg. Absolutely, Senator. I think it is 
critically important, as you have heard today both from 
Secretary Napolitano and my colleague here. This is a multi-
agency effort, and many of the expertise and capacities 
obviously lie outside the State Department. So we cannot 
develop and implement these programs without the work of these 
other agencies. And while we provide a convening framework, the 
Secretary chairs the high-level group that involves both the 
agencies in the United States and our counterparts in Mexico, 
that we need to work very effectively. And I have been 
encouraged in the short time we have all been together--
particularly my colleague who has been in office just for a 
very short period of time--of the very collaborative spirit 
that we all approach this with.
    Chairman Lieberman. Well, thanks very much. I thank both of 
you for your testimony. I thank you for what you are doing 
every day on this challenge to our security and to our 
neighbor's security.
    My impression from this morning is that our government is 
really mobilized now on this, but it is going to be a longer-
term fight, and we want to help you in every way we can in it.
    As a formal matter, we are going to keep the record of the 
hearing open for 15 days, if you or Secretary Napolitano want 
to add to your testimony. There may be some Members of the 
Committee who were not here, or some who were, who want to 
submit additional questions, which we will ask you to fill out. 
But thank you very much for being here. Thank you for what you 
are doing.
    The hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]


         SOUTHERN BORDER VIOLENCE: STATE AND LOCAL PERSPECTIVES

                              ----------                              


                         MONDAY, APRIL 20, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                        Phoenix, AZ
    The Committee met, pursuant to notice, at 9 a.m., in the 
Phoenix City Council Chambers, 200 West Jefferson Street, Hon. 
Joseph I. Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, McCain, and Kyl.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. I will focus this morning on the very 
real consequences for communities along the Mexican border 
associated with activities of the Mexican drug cartels and 
their nightmarish violence.
    We are going to consider the spillovers of this criminal 
behavior into the United States, the crime that has already 
occurred, and we are going to ask if we are prepared to deal 
with more if it does occur and what we in the Federal 
Government can do to help working with State and local 
officials.
    I want to thank my friends your Senators from Arizona, John 
McCain and Jon Kyl for focusing the attention of this Homeland 
Security Committee of ours on the threat of the Mexican drug 
wars to homeland security here in the United States. Our Nation 
and the State of Arizona are fortunate to have these two great 
public servants fighting for you and our country in Washington. 
I am proud to have Senator McCain as a Member of this Committee 
and also proud to have Senator Kyl joining us today as a 
special Member of the Committee.
    I also want to thank Governor Jan Brewer, Attorney General 
Goddard, Mayor Gordon, and other officials from across the 
State who are going to testify here this morning. I know how 
hard you have all been working to keep your citizens safe and 
your State prosperous. We come today to listen, to hear your 
ideas about how the Federal Government can help you to stop the 
lawless behavior that the Mexican drug cartels are causing.
    As the citizens of Arizona know only too well, drug-related 
violence has claimed over 7,000 lives in Mexico since the 
beginning of last year. That is a stunning number. The cartels 
have gone to war with each other and the Mexican government. 
This conflict obviously escalated with Mexican President Felipe 
Calderon's heroic decision to take on the cartel 2 years ago 
and at the same time to root out corruption within his own 
government. Now increased enforcement efforts by the Department 
of Justice (DOJ) and the Department of Homeland Security (DHS) 
at the border are making it more difficult for the cartels to 
smuggle drugs into the United States.
    It seems to me that our goal should be to squeeze the 
cartels from both sides of the border, and as we began to do 
this they have reacted as the lawless thugs that they are. Many 
of the killings that I have described in Mexico bear the 
characteristics frankly that we typically associate with the 
threat that this Committee has been most focused on and that is 
the threat of Islamist terrorism: Beheadings, gunfights on 
crowded city streets, the targeted intimidation and 
assassination of government officials, and, as Phoenix is 
painfully aware, kidnappings and ransom demands. These are true 
atrocities.
    What is also true is that the majority of victims are 
associated with the Mexican cartels, but we also know that 
innocent civilians have gotten caught literally and 
figuratively in various aspects of the crossfire, that the 
intensity of the violence has spread across the border and 
created an atmosphere of fear in border communities, and that 
the cartels have extended their deadly reach far away from the 
border into the United States.
    Phoenix has endured, as I have said, this extraordinary 
wave of kidnappings, but we have also seen in border 
communities--and I want to hear from the local officials in 
more detail about this--an increase in violence in some areas 
and quite a remarkable increase in car thefts in several border 
communities which are associated with the drug cartels.
    Federal law enforcement official have told us that Phoenix 
has become the most significant hub for marijuana smuggling 
into the United States for the Mexican drug cartels. The law 
enforcement officials at the Federal level also tell us that 
there is no present indication that the cartels plan to carry 
across the border the extreme violence occurring in Mexico, 
but, my friends, these cartels have the money, the weapons, the 
network of operatives throughout the United States and the 
utter disregard for human life to do so at some point and that 
is what we must be on guard for and push back.
    According to the Federal Bureau of Investigation (FBI), the 
Mexican drug cartels are now the No. 1 organized crime threat 
in the United States, displacing the Mafia. In addition to the 
kidnappings and home invasions that they carry out in places 
like Arizona, which we are going to hear about today, they are 
increasingly responsible for other crimes. They steal cars from 
border cities in which to smuggle guns and cash back to Mexico. 
El Paso and Laredo, Texas, have experienced the most dramatic 
increase in car thefts in recent years, but Phoenix and Tucson 
are now among the top 20 most vulnerable cities for car thefts.
    The drug cartels and smuggling organizations also attack 
each other to hijack loads of drugs or aliens from competing 
operators. And of course, the cartels' primary business is 
smuggling narcotics across the border to distribute in and from 
more than 230 American cities from Anchorage, Alaska, to 
Hartford, Connecticut, and just about everywhere in between. 
Incidentally, I say parenthetically that part of the response 
to the Mexican drug cartel violence has to continue to be 
aggressive law enforcement against drug sale and usage 
throughout the United States.
    In that sense, we the American people do bear some 
responsibility for this crisis because the great demand for 
illegal drugs by Americans and the subsequent flow of illegal 
cash, billions and billions of dollars of it, and weapons into 
Mexico clearly fuel the cartels' explosive growth and provides 
them with the resources to wage war with each other and with 
the Mexican government, and increasingly with people here in 
America.
    President Obama has recognized the severity of the problem. 
Last week he was in Mexico with President Calderon discussing, 
planning operational responses to the crisis. Three top Obama 
Cabinet officials have traveled south of the border in the last 
month, Homeland Security Secretary Napolitano, former governor 
here of course, has gone twice already. The Department of 
Homeland Security is redeploying resources to the border to 
step up the detection of arms and cash bound for Mexico and 
drugs and undocumented aliens bound for the United States.
    Just last week, Secretary Napolitano announced the 
appointment of a man named Alan Bersin to be a so-called 
special representative for border affairs. A border czar, if 
you will, whose job it is to make sure the Administration's 
border initiatives in response to the Mexican drug cartels is 
efficient, coordinated, and effective. DHS is now also 
finalizing a government-wide contingency plan if violence 
spills further across the border. And the State Department is 
implementing the $1.4 million Merida Initiative to screen and 
train Mexican law enforcement officers, purchase helicopters 
for the Mexican military, support reform of Mexico's judicial 
system, and purchase and deploy scanning technology at border 
crossings.
    These are significant actions, but we can and must do more. 
With my friends here on the dais, I am determined to expand the 
resources available to the Department of Homeland Security, the 
Department of Justice, and State and local law enforcement 
agencies in the border region in States like Arizona to take on 
the cartels in the most forceful way we can. With broad 
bipartisan support, this Committee's Ranking Member, Susan 
Collins, Senators McCain and Kyl, and I passed an amendment to 
the Senate budget resolution just a few weeks ago for Fiscal 
Year 2010 budget, which would add $550 million for beefed up 
law enforcement along the U.S.-Mexican border.
    It would send over 2,000 more law enforcement officers and 
investigators to the border region and specifically set aside 
$40 million for State and local law enforcement to expand your 
anti-cartel operations. We intend to ask that some of that 
money be added to the Fiscal Year 2009 Emergency Supplemental 
Appropriations bill when it moves through Congress in the next 
few weeks. Particularly to backfill in for the approximately 
400 Department of Homeland Security employees that Secretary 
Napolitano has redeployed from elsewhere in the country to the 
border.
    You know, my friends, that State and local law enforcement 
is where the rubber ultimately meets the road here. What we do 
at the Federal level is critically important, but it will not 
have the impact we need it to have if we do not work in concert 
with you, our partners in this war against the Mexican drug 
cartels. That is why our Committee has come to Phoenix this 
morning to hear the witnesses that we are privileged to have 
before and to continue to work with them to protect the safety 
of the people of border States and all of the United States 
from this very critical threat to America's Homeland Security.
    Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you very much, Mr. Chairman, and 
thank you for taking the time from your busy schedule to be 
here in Arizona, one of the frontline States in the struggle 
that we are facing as far as the violence that has been 
generated by many of the causes that we will hear from our 
witnesses today. I am very grateful you came and I also 
appreciate the fact that you will hear first hand from 
Arizona's local and State elected officials and law enforcement 
officers on the increasing violence along the U.S.-Mexico 
border. I appreciate those who were invited to testify, but 
unable to attend, including Sheriff Joe Arpaio, who submitted 
written testimony. The Committee is here today to hear from 
those who have the difficult job of securing the safety of the 
citizens of Arizona and the Nation despite the fact that our 
Southwest border is not yet as secure. And as we know all too 
well here in Arizona, violence associated with illegal drug 
traffic by the Mexican drug cartels is a real problem and must 
be addressed.
    It is for that reason that I have joined the calls for the 
National Guard to be sent to the border. I look forward to 
hearing our witnesses' ideas on the how best to deploy the 
Guard and what other solutions they propose be taken.
    Due to the insecure border and the high demand for illegal 
drugs in the United States, the drug cartels' activities are 
impacting the security of the United States and particularly 
border States like Arizona. I am sad to say that the city of 
Phoenix is now the kidnapping capital of the United States and 
second only to Mexico City for the most kidnappings in any city 
in the world. The city of Nogales has seen several gun battles 
break out in broad daylight between Mexican police and the drug 
cartels just a couple of miles from the border. The city of 
Tucson has seen its crime rate increase this past year, 
especially for property crimes and car thefts. Each of these 
instances can be traced to an increase of violence along the 
Mexican border and the high demand for illegal drugs within the 
United States.
    For these reasons, I was pleased that the Administration 
announced last month the addition of more personnel to the 
Southwest border, increased intelligence capability, and better 
coordination with State, local and Mexican law enforcement 
authorities. But it is not enough. Instead, the United States 
has cut funding to the Mexican government for equipment, 
training and assistance promised as part of the Merida 
Initiative. We have failed to stop the demand for drugs in the 
United States and been somewhat lax in preventing the transport 
of bulk caches of firearms to Mexico.
    Just last week, the Administration denied Governor Brewer's 
request for Federal support to add 250 more National Guard 
troops to be assigned at the border to the Joint Counter-
Narcotic/Terrorism Task Force. This is an unacceptable response 
and I hope our witnesses will further explain the ramifications 
of that decision.
    I hope the hearing today will highlight the outstanding 
work that our State and local officials are performing to 
provide for the safety of Americans despite the unwillingness 
in some instances of the Federal Government to provide the 
necessary resources to assist Mexico in its efforts against the 
drug cartel violence and to secure the Southwest border from 
the flow of drugs, money laundering and illegal immigration. We 
must do more, and the people at today's hearing know that fact 
far better than I can attest. I am very eager to hear from them 
today.
    Additional Federal action is urgently needed and in my 
judgment, our failure to do more puts at risk the safety and 
security of our citizens each and every day.
    Thank you again Mr. Chairman, and thank you for coming to 
Arizona.
    Chairman Lieberman. Thank you Senator McCain for that 
excellent statement. Senator Kyl we would welcome an opening 
statement from you now.

 OPENING STATEMENT OF SENATOR JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, for holding this 
hearing and thank you Senator McCain for coming up with the 
important idea to highlight the issues and learn as a result of 
hearing from friends here in Arizona.
    Let me begin by just reiterating one thing my colleague 
Senator McCain just said. We need to recognize the outstanding 
work that is being done everyday under very dangerous 
circumstances by the Federal officials, the State officials, 
and the local officials. They are working very hard under very 
difficult circumstances.
    I view there to be two purposes for this hearing today. 
First of all to hear from the people who are literally on the 
ground closest to the problem what is occurring; and second to 
get their recommendations as to what to do about it. Having 
talked to several in advance, I know it will to a large extent 
boil down to resources. And because the State of Arizona is not 
in a position right now to spend additional resources on this 
problem, which is after all an international problem--people 
coming across our border committing crimes from another 
country--clearly the resource issue has to be taken back to 
Washington, DC.
    So I see part of the benefit of this hearing, our ability 
to take what we hear today, both anecdotally and statistically, 
and just from the experience that these people have and go back 
to Washington to be able to better persuade our colleagues in 
the Congress and people in the Administration of what has to be 
done and why the resources are so significant.
    And another point I would like to make is this. We tend to 
focus on the people who would actually be standing guard at the 
border or who would be arresting people for crimes and with 
good reason, that is where it begins. But then we tend to 
forget that there is an entire chain in the criminal justice 
process that also has to be funded for this to be effective. 
You need to have, for example, people to prosecute the cases 
and for defense of those charged you have to have public 
defenders, that costs money. Obviously, you have to have enough 
judges and court personnel, court rooms. You have to have jails 
to put the individuals if they are incarcerated. The 
transportation requirements are daunting as well.
    So we cannot just focus on the border patrol or on more 
resources for the Sheriff's office, though I know they would 
like more resources, but they need it but also we need it up 
and down the chain.
    Just to give you an illustration, I am told by Judge Roll, 
who is the chief presiding Federal district judge here, that 
there is a significant need for more judges, more courthouses, 
and I would note that when the number of prosecutors were added 
to this district, the felony case filings for the first 3 
months of this year have increased by 24 percent.
    Now, the point is, there is a relationship between the 
people you have to prosecute the cases and the number of cases 
that get prosecuted. People on the ground will tell you that 
there is a threshold of 500 pounds of marijuana. We are on 
track to interdict 1.2 million pounds of marijuana this year. 
What do you do if you cannot prosecute the cases? There is a 
lot of anecdotal evidence that under 500 pounds, the cases are 
not prosecuted.
    You can see that when we add new prosecutors, you get a lot 
more cases filed, and if they are not filed, and the people 
just continue to get away with what they are doing, then we are 
not obviously solving the problem. So, we need to view it from 
beginning to end of the criminal justice process and make sure 
that it is all adequately resourced.
    I would like to just conclude with two, quick points.
    Senator McCain and Senator Lieberman both mentioned the 
Merida support. Anything that the United States can do to 
assist the government of Mexico, which is now very strongly 
committed to helping us, will be a benefit not only to them, 
but to us, as well, and we need to be very open-minded about 
the kind of support that we can provide to them.
    And, finally, and this is just a personal note, but I had a 
meeting recently with the head of the Drug Enforcement Agency 
(DEA) here, and I asked this question specifically: I said, 
what happens if we were to legalize marijuana, would that solve 
that problem? Her view, which confirmed mine, is no, it will 
not. We are dealing with very bad actors who are going to make 
money illegally one way or another. They found a way to do it 
through smuggling, whether it is through people or 
methamphetamine. Eighty percent of methamphetamine now comes 
from Mexico. You can legalize one, but unless you are willing 
to legalize it all, and then have it apply to anybody of any 
age.
    In other words, the point is, you cannot just legalize a 
piece of it and expect to have the problem solved. We need to 
solve this from a resource point of view and learn from the 
experts what else needs to be done. I really appreciate you're 
holding this hearing so that we can find that out, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Kyl. That is a really 
good point because I was once an Attorney General, and you 
never have enough resources to prosecute every case you want to 
prosecute. So you have to make priorities, and some of the drug 
cases may end up being lower in the priority list, including 
some of the gateway drugs like marijuana. But the impact of 
that up the line I think is significant.
    So, I thank both of my colleagues for, again, bringing us 
here and for the good statements they have made. We now look 
forward to the testimony of our witnesses in exactly the way 
both Senators have indicated.
    First, we are honored to have the Governor of Arizona, the 
Hon. Jan Brewer here for us, and we welcome your testimony at 
this time.

 STATEMENT OF HON. JANICE BREWER,\1\ GOVERNOR, STATE OF ARIZONA

    Governor Brewer. Thank you, Chairman Lieberman, and 
Senators McCain and Kyl, let me thank you and the Senate 
Committee on Homeland Security and Governmental Affairs for 
holding this very timely and critical important hearing today. 
Arizona appreciates you making this a priority, for taking time 
to be here to learn firsthand what our State is engaged in 
regarding the border.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Brewer appears in the 
Appendix on page 195.
---------------------------------------------------------------------------
    Mr. Chairman, someone whom I admire greatly once described 
the Arizona border situation eloquently. He stated those of us 
from border States witness every day the impact illegal 
immigration is having on our friends and our neighbors. Our 
country and city services, our economy, and our environment, we 
deal with the degradation of our lands and the demands imposed 
on our hospitals and other public resources. Our current system 
does not protect us from people who want to harm us. It does 
not meet the needs of our economy, and it leaves too many 
people vulnerable to exploitation and abuse.
    I happen to totally agree with those sentiments made by 
Senator McCain. Senator, you are absolutely right, our system 
does not protect us, and Americans should have the right to 
feel safe in their homes. The fact is too many avenues exist 
for illegal trafficking of drugs and immigrants, which 
unfortunately makes Arizona particularly an attractive State 
for those factions engaged in these illegal activities.
    I am very grateful for the work of the Federal authorities 
and our own law enforcement resources such as the Arizona 
Department of Public Safety, county sheriffs, and municipal 
police departments, all of which keep a watchful eye and ear 
while we citizens work, rest, and recreate.
    It should be mentioned, however, that despite the vast 
efforts in Arizona, as governor, I still cannot state 
unequivocally that Arizona is immune from spillover effects of 
the Mexican drug wars. Unfortunately, Arizona's reputation as 
``ground zero'' for illegal narcotic smuggling, human 
smuggling, and kidnapping is directly related to our border 
status and the growing threat posed by criminal syndicates 
south of the border. The relative success of our law 
enforcement north of the border should not lull the Federal 
Government into believing things will always be this way.
    Mr. Chairman, I have identified five primary suggestions 
that I believe our national policymakers should consider 
regarding our border.
    First, the Federal Government should give serious 
consideration to my March 24, 2009, request to increase the 
National Guard presence on Arizona's border by 250 soldiers. 
Redeploying current and existing resources as a first step, but 
it is more important that border States and local and tribal 
law enforcement receive a surge in additional Federal funding 
and additional resources to respond to the clear increased 
threat of violence and kidnapping.
    Chairman Lieberman, you recognized this need for additional 
funding when you introduced legislation to add $550 million in 
Federal money to better secure our borders. My hope is the 
Administration and Congress will seriously give consideration 
to both of our proposals, and, Mr. Chairman, as the Committee 
moves forward, I hope it considers that while technology and 
physical barriers are an important tool in dealing with border 
challenges, boots on the ground combined with solid 
intelligence is what really facilitates adequate response and 
effective prevention.
    Next, I believe Congress must strive for a sensible 
immigration policy that first and foremost focuses on securing 
our border. There is no more important border policy than that.
    Second, the Federal Government should make prosecution of 
human trafficking activities a top priority.
    My third suggestion is that all the ports of entry between 
Arizona and Mexico should be modernized and outfitted to 
balance appropriate traffic flow with the needs for inspection 
and other security measures.
    Next, I believe it is time for the Federal Government to 
address the immense fiscal burden that border States are 
unfairly shouldering in combating illegal immigration.
    To date, the Federal Government is not bearing its full 
responsibility in law enforcement. Education, healthcare, human 
services, and the correction system are directly tied to 
illegal immigration and human smuggling.
    Mr. Chairman, I think any discussion about violence on our 
Southern Border must also be upfront in recognizing that the 
United States still has a hefty appetite for illegal drugs. The 
price we pay for illegal trafficking of these drugs is 
enormous. Addressing these matters requires a comprehensive, 
national look at what works and what does not work.
    In conclusion, Mr. Chairman and Senators, these are just a 
few perspectives from the State of Arizona on how we see the 
challenges on the border. I have said before that Arizona and 
the Southern Border States cannot and should not have to 
shoulder the burden of securing our borders and protecting our 
citizens from these seeking to do us harm. A porous border 
ultimately can leave the entire country at risk.
    I appreciate the opportunity to testify in front of the 
Committee of Homeland Security and Governmental Affairs, and I 
thank you, Mr. Chairman, and I would be happy to answer any 
questions.
    Chairman Lieberman. Thank you very much, Governor. You said 
a lot in the short time that we gave you, and I appreciate that 
very much. We look forward to the question and answer period.
    Attorney General Goddard, welcome and good to see you 
again.

 OPENING STATEMENT OF HON. TERRY GODDARD,\1\ ATTORNEY GENERAL, 
                        STATE OF ARIZONA

    Mr. Goddard. Thank you, Chairman Lieberman, Senator McCain, 
Senator Kyl, and I join the governor in thanking you for 
conducting this field hearing here in Arizona, the point where 
the problems of the Southwest Border are most acute, most 
critical. I hope I can provide some insight on how, as the 
Chairman just suggested, that we can focus on what has been 
going on in our State in terms of combating the organized crime 
threat.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Goddard appears in the Appendix 
on page 199.
---------------------------------------------------------------------------
    Mr. Chairman, you've already stated that this has been 
identified by the FBI as the No. 1 organized crime threat. I 
won't repeat my remarks along that line because you summarized 
it so well, but I would point out that the criminal syndicates 
that we are fighting against are highly flexible, paramilitary 
organizations, and they use violence as an integral of their 
modus operandi, of their business plan, and that is what we are 
dealing with.
    Their operations are made up of at least four, primary, 
criminal enterprises, and I have a very rudimentary drawing 
over here that shows them in graphic style, but I think it is 
important to keep all four in mind. Guns and cash, smuggled 
south, drugs and human beings, smuggled north, and each leg of 
that stool needs to be paid attention. Arizona has increasingly 
become home to the cartels' most lucrative and heavily-utilized 
smuggling corridors, and the corridors are really what we need 
to be cognizant of and pay attention to. Approximately half of 
the northbound contraband in human beings and drugs passes 
through our State, and the fiscal impact that the governor just 
referred to is as a result of that literal flood of illegal 
activity.
    While most of the violence has been in Mexico, this is by 
no means just a Mexican problem or just a border problem. The 
Department of Homeland Security recently identified cartel 
activity in 230 cities, as the Chairman mentioned, and 
Hartford, Connecticut, is not immune from the kind of threats 
that we see here on the Southwestern Border. There is a dot for 
Hartford, Mr. Chairman, on the map to which I refer.\2\
---------------------------------------------------------------------------
    \2\ The chart referenced by Mr. Goddard appears in the Appendix on 
page 207.
---------------------------------------------------------------------------
    This does not show all 230 U.S. cities, but it gives a 
representative sample of how widespread the cartel activities 
are in this country and the active partnership that the cartels 
have joined in with street gangs and prison gangs throughout 
this country to facilitate the distribution of drugs is 
something of which we need to be constantly cognizant.
    For the U.S. Border Patrol, the Tucson Sector is only 13 
percent of their jurisdiction of the U.S.-Mexico Border, but it 
is responsible for approximately 44 percent of the interdiction 
of human beings that are smuggled across the border and a 
similar amount of drug seizures, which, as I believe Senator 
Kyl mentioned, is hitting a record this year--1.2 million 
pounds of illegal drugs is where they appear to be headed.
    And here, in the city of Phoenix, despite, I am sure the 
chief will tell you, a shrinking violent crime rate, of which 
the police are justifiably very proud, the kidnappings are out 
of control, almost one a day in this community. Tucson has 
become a leader, unfortunately, for home invasions, and here, 
at the Attorney General's Office, we have been dealing for 
almost a decade with human smuggling and all of its associated 
crimes, including money laundering, extortion, human 
trafficking, and murder. And Arizona law enforcement has a 
great record of successful collaboration.
    Just in the last year, my office coordinated with Federal, 
State, and local law enforcement agencies in four major 
organized crime takedowns: A major arms trafficking 
organization; a Coyote organization that was smuggling over 
10,000 people a year across the border; another which 
transported from Phoenix to cities around the country over 
8,000 people a year; and, finally, a drug smuggling operation 
which, in 4 years, had brought over 2 million pounds of 
marijuana across the Mexican Border.
    These are important successes, but I do not want to deceive 
the Committee or anyone else. As big as they are, they only 
impact a very small part of the total of the cartel business.
    From my seat, it seems clear that our effort against the 
cartels must change in at least three ways.
    First, we need better communication and information sharing 
at all levels of law enforcement, State, local, and Federal, 
and with our Mexican counterparts, something that is still very 
rudimentary.
    Second, we need to attack all aspects of cartel operations. 
As this diagram shows, drugs, people, guns, and money flow 
across the border, but I would submit especially money has been 
the weak spot in my opinion.\1\ Southbound traffic is as 
important as northbound traffic, and that involves bulk cash, 
large amounts of hundred-dollar bills literally bailed 
together, and other means of money transportation that I will 
get into in a minute.
---------------------------------------------------------------------------
    \1\ The chart referenced by Mr. Goddard appears in the Appendix on 
page 208.
---------------------------------------------------------------------------
    And, third, we need coordinated command and control for the 
entire border region, employing all the Federal resources 
coordinated with State and local. For too long, we have had 
silos that have divided us and divided the Federal effort.
    Let me just say a little about the money. We call them 
blood wires that are used to pay for people being transmitted 
into the United States, and I would like to recognize Cameron 
Holmes, who is right behind me. He's the head of our Financial 
Crimes Taskforce in the Attorney General's Office, and I would 
submit one of the true money laundering experts in the United 
States. It is his expertise that allows us in the Attorney 
General's Office over the last almost 10 years to be 
aggressively monitoring the wire transfer activity to the 
cartels and intercepting over $17 million of that activity. 
Now, that is a drop in the bucket, but it has caused major 
disruption in the kind of money transfer for illegal activities 
such that hundreds of millions of dollars that used to be 
coming into the State of Arizona are not doing that today.
    We have learned a few lessons, and if I could summarize 
those quickly for the Committee, it shows that we are up 
against a well-organized, criminal organization. They are 
sophisticated, high-tech, and very flexible. Our response needs 
to be equally well-coordinated if we are going to succeed.
    The cartels meet resistance, law enforcement resistance by 
shifting ground. It may be geographical; it may be in terms of 
their business enterprise, whenever they get pushback. We have 
to be as opportunistic and as flexible if we are going to be 
successful. We need a seamless local, State, and Federal 
response, and I would be happy to go through in more detail 
with questions.
    A couple of very specific requests. One, we have 
partnerships at the local level that are working. I would 
submit the High-Intensity, Drug-Trafficking Area (HIDTA), a 
hard acronym to pronounce, is one such model, where the 
Federal, State, and local authorities truly get together and 
make cases and have brought real prosecution results.
    But I want to emphasize to this Committee how important our 
failures are in the area of stopping the hemorrhaging of cash 
to the cartel bank accounts. We need a region-wide, bi-
national, coordinated attack on corrupt money transmitters. I 
believe we can shut them down, but we need much better 
information to do it.
    And I would like to simply show you one item. This is a 
stored-value card. This kind of card, which we think of as a 
gift certificate, has been used to move hundreds of thousands, 
if not millions, of dollars across the border. It is not a 
financial instrument under U.S. law, and, as a result, there is 
no crime to take $1 million in a card like this and take it 
across the border. That single regulatory change has been 
pending for years, and I would submit that the time is long 
past that it has to be implemented. Stored-value cards are 
money, and they must be curbed in crossing the border.
    Recognition has been paid to the Merida Initiative. That is 
a critical effort to make sure that our efforts are on both 
sides of the border, and, just to conclude, the violence will 
not be contained until the Mexican drug cartels are destroyed.
    In the interest of the United States to assist Mexico in 
its courageous fight, and we need to step up our own efforts to 
dismantle the cartels' operations on this side of the border, 
our attack must be changed, I think, fundamentally to reflect 
the seriousness of the threat. We must fight smarter and we 
must fight harder.
    The single best way is to cut off the flow of illegal 
money. It should have been done years ago, it must be done now. 
We face an urgent, public safety threat, as the Committee has 
recognized by your presence here today, and we look forward to 
working with you to try to solve and overcome this problem.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, General Goddard. I 
think we will do 5-minute rounds of questions, and we will keep 
moving until we have finished our questions. I appreciate your 
statement, and it brought to mind the similarities, if you will 
allow me, between fighting the Mexican drug cartels and the war 
we are in against terrorism, specifically Islamist terrorism. 
Some of it is just the broader view, which is, as you said, the 
drug cartels are now paramilitary organizations with the money 
to buy very sophisticated, military equipment, but with a 
paramilitary approach.
    Second, just as the terrorist groups are defined by a 
willingness to use brutal violence to achieve their political 
ends, the Mexican drug cartels are defined by a willingness to 
use brutal violence to achieve, I supposed you'd say, their 
business ends, which is the sale of drugs. And I am also struck 
by your specific call for us to focus on the financial 
transactions that the drug cartels are involved in because, as 
we found at the Federal level, some of the most effective work 
we have done against terrorist groups like al-Qaeda and now 
increasingly against State sponsors of terrorism like Iran, has 
to do with tying them up financially, in that sense, trying to 
close off part of the lifeblood of these organizations.
    And the stored-value cards are one indication of that. 
You've probably done more work on this than I or my staff have, 
but is this a matter of simple regulatory change or is it, as I 
had originally thought, requiring a law change at the Federal 
level?
    Mr. Goddard. Mr. Chairman, Members of the Committee, my 
understanding is what we need to do in terms of stored-value 
cards is to define them as monetary instruments subject to 
reporting in the Currency and Monetary Incident Reports 
(CMIRs), and that change is statutory.
    Chairman Lieberman. OK, so, then we are going to work to 
really accelerate some action on that, and, of course, this 
shows you that the enemy here, the drug cartels, are smart, so, 
they know what the law is here in the United States. You do not 
have to be a genius, but they have figured out this is a great 
way to move money across the border because it is not 
technically illegal. So, it is time for us to make it illegal.
    And any other ideas about stopping the flow of cash, better 
stopping the flow of cash?
    At the hearing we held in Washington on March 25, 2009, one 
of the government witnesses--of course, you can not come up 
with a hard figure on this--estimated that the annual takeout 
of the United States by the Mexican drug cartels is between $17 
billion and $38 billion. I mean, that would make it one of the 
largest businesses in the United States. What more can we do to 
stop the cash from flowing southward?
    Mr. Goddard. Mr. Chairman, Members of the Committee, the 
number that you've just used is the drug revenues. Human 
smuggling revenues, we believe, exceed $2 billion. So, it may 
be small in the comparison, but it is also a major business 
opportunity.
    Chairman Lieberman. That is absolutely right.
    Mr. Goddard. And one that they use. I have a couple of 
other specific suggestions. One is that we lower the threshold 
for mandatory reporting of single transaction money transfers.
    Currently, whenever we cross an international border, it 
asks if we have over $10,000 of currency. I believe that number 
is way too high, and that, in fact, it would help us 
immeasurably in terms of finding the smugglers if we could have 
a reduced number. I do not have a specific number, but I 
believe that is too high, along with recognizing stored-valued 
cards as part of that $10,000, I think we'd go a long way.
    I also think--and this is, I believe, a regulatory issue--
the Internal Revenue Service (IRS) does, in fact, examine all 
of the money transmitters, but it does it on a random basis. I 
can tell you, Mr. Holmes and his staff can tell you precisely 
where the risks of greatest criminal activity are through the 
money transmitters in particular that are shifting money across 
the border for the cartels. It does not take rocket science, it 
is a matter of statistical examination, and if they use a risk-
based analysis and go after the various transmitters who are 
the source of the greatest risk, they could go a long way to 
shutting down these criminal operations, and they are, in fact, 
criminal and they are on both sides of the border, and they 
need better attention. So, I am talking about money 
transmitters here, that is Western Union and the other----
    Chairman Lieberman. Right.
    Mr. Goddard [continuing]. Wire transfer operations which 
have been very helpful to the cartels in filling their pockets, 
and I think we have been working virtually alone here in the 
State of Arizona to try to cut off their access to funds. We 
could certainly use all the assistance we can get from other 
States and from Federal authorities.
    Chairman Lieberman. Those are very helpful suggestions, and 
we will take them back to Washington with us.
    Governor, I thought you made an interesting point about 
National Guard personnel. Again, I know there are great 
differences, but one of the things we learned in Iraq, of 
course, is that numbers matter, that personnel on the ground, 
boots on the ground matter when you're in a conflict, and it 
seems to me that we are understaffed, under-resourced in 
responding to the Mexican drug cartels. I know you've made this 
call for National Guard personnel.
    Tell me what thoughts you had more specifically about what 
they might do if the National Guard were involved in this.
    Governor Brewer. Well, thank you, Mr. Chairman, and it is 
important.
    I think the people of Arizona are alarmed that we do not 
have our borders secured, and, by that reason, we are the 
recipient of drug smuggling, money laundering, and kidnapping. 
I believe that we need to get additional National Guardsmen on 
the border in order to secure our border, regardless, Mr. 
Chairman and Senators, of all the issues that come to Arizona 
and other border States. If we do not secure our borders 
quickly, we are at great risk. I believe that if we could get 
an additional 250 National Guardsmen on the border, they would 
be able to help law enforcement along the border and relieve 
them from doing things such as communication, logistics, and 
planning--all those things that take up their time from 
actually supporting the border security.
    Mr. Chairman, it is absolutely ultimately most important 
that Congress understands that we are the recipient of all 
these horrible things that could take place in Arizona and the 
whole United States if we do not secure the border. We need 
resources. We need boots on the ground, and I know, Mr. 
Chairman, that it has been mentioned on a couple of occasions 
that taking our National Guard and putting them on the border 
would possibly be taking them from maybe some of the other 
responsible duties that they are there to perform. However, 
they would still be in training, they would still be ready to 
go if they needed to be deployed somewhere, but, at this time, 
I cannot stress enough on behalf of the State of Arizona and on 
behalf of the people of Arizona that we have to have our 
borders secured.
    Chairman Lieberman. Thanks, Governor. My time is up. 
Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Governor, just to 
follow-up on this issue of more troops, you asked for 250 
National Guardsmen. Were you surprised by the response?
    Governor Brewer. I was very surprised. The reaction from 
the Obama Administration appeared to be very negative and I 
believe that it was very irresponsible, given the fact that 
through the Homeland Security Department, the past governor saw 
the need, and now we are not seeing the help that we need. I 
certainly know that Arizona and other States are facing greater 
and greater challenges from illegal drugs and insecure borders. 
We face very unique threats, and I just feel very disappointed 
that the Federal Government has not stepped up and has done 
what their responsibilities are, and I have left the control, 
if you will, up to our local law enforcement, our local State 
Department, public safety, our sheriffs, and our police 
organizations. I am disappointed.
    Senator McCain. Thank you, Governor.
    I believe, from having visited Mexico City myself--and the 
President has visited Mexico City--that we are getting from 
Mexico City an almost unprecedented level of cooperation. Now, 
there are serious corruption problems and there are other 
problems, but are you getting that same kind of cooperation 
from the governor of Sonora?
    Governor Brewer. Well, we have been in contact and we have 
met, and in my opinion, I do not believe they are as concerned 
about the open illegal immigration and the drugs coming in to 
the State of Arizona.
    Senator, we have to secure the border, and that will solve 
our problem. We, in Arizona, and the other border States need 
resources to take on this challenge. If we secure the border--
and I understand, Senator McCain, that they have issues down 
there, and I appreciate the problems that they are having to 
deal with, but the fact of the matter is if we get the 
resources, if we get the support, and if the Federal Government 
does what they are supposed to be doing according to our 
Constitution, those problems would halt. We need a secure 
border.
    Senator McCain. Attorney General Goddard, I will ask the 
other witnesses this, but you are involved in this issue every 
single day and fighting it every day. We have talked a lot 
about statistics and being the kidnapping capital of the 
country and the world with the exception of Mexico City. These 
numbers, billions and billions of dollars, put a human story on 
that, tell us a little bit about the Coyotes and what they do 
and tell us a little bit about some of the heinous acts of 
murder and torture that take place. Put a human face on this 
issue for us, would you?
    Mr. Goddard. Thank you, Mr. Chairman and Senator McCain, it 
is an extraordinary tale that is probably heard too seldom, and 
thank you for the opportunity to at least try.
    Human smuggling has become--I think there is a myth out 
there that at one point it was almost a Robin Hood type 
activity, that people were guided through the desert to seek a 
better life, and the people who guided them were good 
Samaritans. We have no illusions about that today, and I 
believe the Mexican officials have no illusions either because 
what we have now through the active intervention of the 
criminal cartels is a highly organized criminal activity using 
the same roots that the drug smugglers are using, and those 
Coyotes, those criminal operatives that bring people across the 
border, either are in the cartels themselves or are 
subsidiaries, they pay a tariff in essence, and only move 
people when they are given permission by the major bosses 
because there is an integrated dance on the border between 
drugs and people. Sometimes they are synonymous, sometimes they 
are separated, and always, they are part of a criminal 
operation.
    When they get to Phoenix, and this is, unfortunately, the 
distribution point for the entire country, these folks, and 
they are numbered in the millions--we still believe the folks 
crossing through the Arizona border and through this State, 
approximately 1 million human beings a year, and, so, they go 
to drop houses in the Phoenix area, some in Tucson, but mostly 
Phoenix because of our excellent access to transportation, and 
from there, the Coyotes move them across----
    Senator McCain. But many times, they are terribly 
mistreated or held----
    Mr. Goddard. I am getting to that, Senator. I am sorry if I 
am overlong for the Committee. Very often, we find that there 
are extortionate demands, the price that was originally quoted 
becomes double or triple what it originally was. We are 
investigating to try to find a number of murderers who 
literally took somebody from a group that protested the new 
price and shot them right in front of the others to make sure 
the collections would go easier.
    And I would like to emphasize that we use the word human 
smuggling and human trafficking almost interchangeably. They 
are not. Smuggling is when somebody pays a fee and goes to a 
destination of their choice, trafficking is when somebody comes 
across the border as a virtual slave. But because the drop 
houses have turned into prisons, the individuals there, it is 
hard to tell whether they are trafficked or smuggled, and, all 
too often, they end up in the sex trade or as individuals that 
are being held for personal labor without compensation, and, 
so, unfortunately, we are seeing an incredible rise in human 
trafficking as a direct result of the organized criminal 
activities in smuggling. And, so, anybody who wants to think 
today that this is a benign or humanitarian episode is sadly 
mistaken.
    Senator McCain. Thank you and thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCain. Senator Kyl.
    Senator Kyl. Thank you. If I could just follow-up on that 
last point. As Senator McCain said, the real story is the human 
tragedy story and not just the statistics, but, as a result of 
what you said, would you also believe that the number of 
reported crimes such as kidnappings, rapes, robberies, etc., 
are probably underreported due to the fact that so many of the 
victims are themselves illegal immigrants?
    Mr. Goddard. Mr. Chairman and Senator Kyl, I know Chief 
Harris and Mayor Gordon will speak to that, but there is no 
question that this is a significantly underreported crime, 
whether it is 1 in 10 or 1 in 3, I do not know, and I guess 
nobody does, but the fact is that we have criminal groups 
fighting with each other, and what I should have mentioned in 
response to Senator McCain's question is the terror among the 
victims when somebody heavily armed and wearing ski masks 
seizes a drop house from one gang and takes it over on behalf 
of another, a group kidnapping, if you will, which turns those 
people into objects of extortion, and the extortion activity 
also extends south of the border.
    A lot of the times the Coyotes will simply go to the 
families that they know have individuals working in the United 
States and will threaten to kidnap them, and the police in 
Sonora and other parts of Mexico are very concerned that wire 
transfers are being used to expedite extortion of their 
citizens, as well.
    Senator Kyl. You said that a lot of the routes are the same 
and that the smuggling of drugs, as well as human beings has 
been taken over by the cartels to a significant degree.
    Can you put some kind of a number on that? In other words, 
would you say that the bulk of the smuggling of illegal 
immigrants has been taken over by the same kind of folks that 
are smuggling drugs?
    Mr. Goddard. Mr. Chairman and Senator Kyl, unquestionably, 
I doubt there are any independent operatives in the market 
today. The cartels are that powerful and they either charge a 
per-person tax to use the corridor or they move the people 
themselves using their operational techniques.
    We had a River-Walker case that you probably are familiar 
with back in February. It was indicted. It basically took an 
entire Coyote organization from the drivers to the housekeepers 
at the drop houses and eliminated it, but the sophistication 
and the level of specialization within that criminal operation 
were extraordinary.
    Senator Kyl. Let me ask Governor Brewer a question. If 
there is time, I want to get back to the money issue that you 
brought up, governor, but you went over quickly because of your 
time, but you mentioned the costs to Arizona society, you 
mentioned hospitals, you mentioned the cost of the governments. 
There are two specific programs. One is the State Criminal 
Alien Assistance Program (SCAAP), and that has been authorized 
at $950 million a year. In the last couple of years, the 
appropriated amount is somewhere in the $400 million range. In 
other words, less than half.
    The question is whether that is one of the programs that 
you would like to see more resources in. And then, second is 
the so-called Section 1011 Program for hospital reimbursement 
for taking care of illegal immigrants who, under the law, 
emergency rooms are required to treat, and it is only up to the 
point of stabilization of the patient. That program has 
terminated, and except for some money that is still available 
to Arizona hospitals, the program is terminated for the other 
States because their money was paid out more rapidly, but that 
money will be going for Arizona hospitals, as well, by the end 
of this year.
    Is that another example, and are there any others that you 
want to make specific reference to?
    Governor Brewer. Thank you, Mr. Chairman and Senator Kyl.
    Absolutely, and as you are more than aware, in the last few 
years, Arizona has been very severely neglected in regards to 
receiving the reimbursement from the Federal Government in 
regards to the SCAAP dollars, and Senator Kyl, I remember you 
working with me when I was chairman of the Maricopa County 
Board of Supervisors because we, of course, were the ones that 
held the responsibility in our jails here in Maricopa County. 
So, we are continually trying to get the Federal Government to 
pay their share that is most necessary because the resources 
are just eating up our budget and we cannot continue to go down 
that path over and over again, and we are going to make another 
request to be reimbursed our fair share of those dollars. We 
really do receive the huge burden.
    In regard to the hospital cost, again, you realize how 
large these illegal immigration costs are to our hospital 
system. Because of the illegal immigration, they use our 
hospitals for emergency services, they use them for colds, and 
they show up at any given time and use up all the resources. We 
cannot continue to afford to take care of all these people that 
are coming in illegally through our borders.
    Our State, as you certainly are aware--we are in a state of 
catastrophe, and to have the citizens of Arizona continue to 
have to serve all these costs to the border being insecure is 
totally unfair. And, Mr. Chairman, Senator Kyl, and Senator 
McCain, it is the Federal Government's responsibility to 
protect our borders.
    Senator Kyl. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Kyl. Let us do a 
second round with the Governor and the Attorney General.
    Attorney General, let me start this one with you. As you 
all know, the Mexicans regularly call on us, the government, to 
help reduce the flow of weapons into Mexico. This was a major 
element of what President Calderon pleaded to President Obama 
in the recent visit, and, of course, it is a fact based on all 
the studies that we see that an overwhelming majority of the 
weapons that are seized from the drug cartels in Mexico are 
coming from the United States. I suppose for the obvious reason 
that we do not say enough but it is true, that it is our gun 
laws that are more liberal so to speak, it is easier to 
purchase a gun here than it is in Mexico, that is part of our 
constitutional system.
    What effectively can we do about it? I know that people 
have been called for a reinstitution of the ban on automatic 
weapon sales in the United States. I support that, but I 
suppose President Obama at least seemed to say to me when he 
spoke about it, it is not likely to pass Congress.
    There have been calls for closing the gun show loophole. 
That is a good idea, I think. Gun show loophole, long story 
short means that at a gun show you can buy a gun without having 
to present the personal background information that you do when 
you go into a licensed gun dealer to buy a gun. That will help. 
As I have gathered interestingly and noteworthy that most of 
the guns that are sent from the United States to Mexico are 
purchased legally in the first instance. And you correct me if 
I am wrong. In other words, the use of straw men to go into 
licensed gun dealers to buy them.
    So, I suppose another obvious thing we could try to do, and 
this goes to the monitoring that you are talking about. Right 
now, most people in America do not know this. You know it here 
at the border; there is effectively little or no inspection of 
traffic moving southward as opposed to traffic moving 
northward. There are random checks at best. That is obviously 
one way, both on our side of the border and on the Mexican side 
of the border to try to stop the flow of guns from here to 
there, but give me your sense of the dimensions of this problem 
and what you think we can really effectively do to try to 
assist keeping guns out of the hands of the Mexican cartels.
    Mr. Goddard. Mr. Chairman, thank you. I believe we can do a 
lot more. There is no question it is a major problem.
    Two years ago, a group of attorneys general were in 
Cuernavaca to meet with all the state and Federal law 
enforcement prosecution arm in Mexico. Their attorney general, 
Eduardo Medina Mora, made it very clear that he felt the United 
States was deficient in enforcing the laws on the books today. 
He said, ``I understand you have a Second Amendment, I 
understand that it is very important in the United States. We 
are not asking you to change one bit of your respect for that 
part of your Constitution. We are, however, asking you to 
enforce the Federal laws against straw buyers, which are, 
unfortunately, often in the breach.''
    You have here in this room, and I do not know if it is 
later in the program, Bill Newell, the head of Alcohol, 
Tobacco, and Firearms for this region. He has done an 
extraordinary job, I think, with a limited staff in trying to 
identify where the worst offenders are. My office has helped to 
bring prosecutions against two of those worst offenders, and we 
are anxious to do more.
    You may ask why the State is doing that and not the Federal 
agencies, and I think that is a good question. We talked about 
limited prosecution resources or Senator Kyl referred to that. 
I think that is one place where our U.S. attorney here in 
Arizona could have some significant help to be sure to be able 
to bring the cases that ATF brings.
    I have two suggestions. One is vigorous enforcement of the 
straw buyer ban. ``Don't lie for the other guy,'' as the 
National Shooting Sports Foundation says. I think that is a 
great message, and it is one that everybody needs to hear.
    Chairman Lieberman. Would it help to increase the legal 
penalties for straw buying?
    Mr. Goddard. I am always in favor of that when I think what 
is happening is literally the carnage in Mexico facilitated by 
a flood of arms coming from this country. Now, not just from 
this country, I guess we have to mention that there are 
military stores that the cartels have access to, which include 
grenades, rocket-propelled grenades, a variety of bazookas, and 
some extraordinary weapons which are not being sold at gun 
stores, that are not being sold by gun shows. So, they have 
access in other ways, but the AK-47s, the AR-15s----
    Chairman Lieberman. Right.
    Mr. Goddard. The other paramilitary type arms are, in fact, 
coming across the border in extraordinary numbers. They call it 
a parade of ants. Many individuals with two or three arms are 
going across----
    Chairman Lieberman. Right.
    Mr. Goddard [continuing]. And selling them illegally. The 
most important thing, and you mentioned it, Senator, is to----
    Chairman Lieberman. Excuse me just for a second while I cut 
you off. You said you had two.
    Mr. Goddard. The second one is the southbound inspections. 
Those are almost nonexistent today. We have the technology to 
do vehicle inspections and determine if a significant long gun 
is in the car.
    Chairman Lieberman. Right.
    Mr. Goddard. I think that needs to become the rule and not 
the exception, and that could do more than anything without 
interfering with people's constitutional rights to stop the 
flow of guns in New Mexico.
    Chairman Lieberman. That is a really important suggestion 
and one that we will take back with us as part of the 
appropriations process.
    Incidentally, in terms of ATF, our amendment, if it is 
carried through the budget process, does have funding for ATF 
to bring on 150 more investigators and 50 more investors to 
work on Project Gun Runner, but I take your point that it also 
is important to prosecutorial personnel to see those cases to a 
finish.
    Let me ask you first, governor, for a quick response to 
this.
    In the $40 million in our original amendment that we put 
in, and as part of the ornate budget process, this is the 
recommendation and authorizations of the appropriators--$30 
million was for Operation Stonegarden grants through the 
Department of Homeland Security to State and local government 
for specific work on action related to the Mexican drug 
cartels, and then $10 million was to State and local law 
enforcement to staff up the fusion centers insofar as the 
fusion centers, including the one here, are focused on the drug 
cartels.
    How about that division of the $40 million? Leave the 
amount aside, if you were asking us to supplement funding for 
you at the State level to help you help us fight the drug 
cartels or the impact of them, where would you like to see the 
money focused?
    Governor Brewer. Well, thank you, Mr. Chairman.
    I believe that the people of the State of Arizona and 
myself believe that we need to secure the border, we need to 
get the National Guard. I would like Congress and the Obama 
Administration to get the National Guard and boots on the 
ground.
    Mr. Chairman, I believe fully that if we secure our border, 
all the other issues that we are facing in regards to drug 
trafficking, kidnapping, border spillover, guns going south of 
the border, if we could get the resources to secure our border, 
then these other problems would go away in most cases, I 
believe. I just cannot take this time when I have an audience 
with you and Senators McCain and Kyl to express how strongly 
the State of Arizona and the people believe that our money, our 
resources, combined with yours ought to be used to secure the 
border.
    We know that there are a lot of issues out there, Mr. 
Chairman, but they all come from our borders not being secured. 
That is our first and primary concern. I would hate to think 
that all these other issues would take the eye of Congress off 
the real cause that is creating the problems, that we do not 
have a secure border.
    Chairman Lieberman. I think you have successfully conveyed 
that message this morning, governor.
    Governor Brewer. Thank you.
    Chairman Lieberman. I am over my time, but if you have a 
thought about how you could best use any additional money that 
we would send the State and local----
    Mr. Goddard. Very briefly, Members of the Committee, first 
and foremost, I hope you will take a hard look at how the 
Stonegarden funds are allocated, how those grants which now are 
available to your State, with all due respect, Mr. Chairman, is 
not on the border and is not having 44 percent of the immigrant 
traffic illegally coming across or most of the drugs. So, I 
would hope we could focus that where the problem is most acute, 
and that, I know, is a vigorous issue. We are also very 
respectful and find a great deal of help from the Arizona 
Counterterrorism Information Center, which is part of the 
formula that you described.
    So, if our various information aspects through that funding 
could be encouraged to do a better inter-operative 
communication, we have waited far too long to be able to have 
State, local, and Federal law enforcement talk to each other. 
It seems a very simple request. But, Mr. Chairman, it is not 
been happening, so, we could use the money to make sure that 
when or if a crisis comes on the border, we truly can have a 
coordinated response. I believe that is where we ought to focus 
these monies, to have our agents, basically communication 
between Federal, State, and local by cell phone instead of 
using the official channels which just do not work, I think 
would be a tremendous step forward.
    Chairman Lieberman. Well said. Thank you. Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman. Governor 
Brewer, I agree with you that we have to secure the borders 
first, and that would address a significant portion of the 
issue.
    I think there is also the fact that Retired Army General 
Barry McCaffrey told the Washington Post in a March 25 article 
``adding a handful of platoon-sized units is miniscule compared 
with the $2.5 billion the United States military spends in 
Afghanistan each month,'' and you state in your written 
testimony these efforts must be bolstered and that additional 
funding is still necessary, which, obviously, I agree with.
    Maybe you could provide for the Committee in writing, 
especially since we do not have unlimited amounts of money. 
There will be, I believe, additional sums. I am grateful there 
is so much publicity now as this violence has escalated in such 
a dramatic degree. If you could have your folks submit to us 
some of your priorities as to how we can best secure the border 
and what needs to be done in addition to that on a more 
permanent basis, we'd appreciate that since we will be 
revisiting this issue for some time to come, particularly in 
the coming legislation.
    Governor Brewer. Thank you, Senator McCain.
    Senator McCain. Thank you.
    Governor, studies have shown that well-administered drug 
courts can reduce recidivism up to 35 percent, and many 
counties in Arizona have established drug courts.
    Have you had a chance to look at what is being done here in 
Maricopa County to treat the drug issue?
    Governor Brewer. I have not been briefed totally on that. I 
am a little bit familiar with it, Senator McCain, having served 
on the board of supervisors. The last 3 months, having served 
as the Governor of the State of Arizona, I have been briefed on 
several different things.
    I will tell you that I believe that the drug courts have 
been very successful as far as Maricopa County and that we 
should probably try to implement those all over the State of 
Arizona to the standard of which the Maricopa Court System has 
done.
    Senator McCain. Thank you. Attorney General Goddard.
    Mr. Goddard. Absolutely. They work. We need more in the 
area of treatment, and I believe Senator Kyl made the reference 
to the drug policy. I would hope that a derivative of your 
discussions would be to put our national drug policy under the 
microscope, hopefully in a non-partisan and non-emotional way. 
I know that is a big order, but we have put huge amounts of 
money into suppression interdiction with very little result. 
The price of most illegal drugs is as low or lower than it has 
ever been, and as we now know, the border patrol is 
confiscating at a record level this year.
    So, the epidemic is on, let us look at drug courts and the 
treatment that they provide and the changes in lives that they 
have been able to accomplish. Let us look at better 
information.
    Here in Arizona, we have the Anti-Meth Program, which has 
been incredibly successful in reducing methamphetamine use by 
teenagers. We cut it in half in 2 years. I think that means 
that it is hopeful that we can do prevention on a national 
scale in a way that would help to cut down the cartel profits.
    Senator McCain. And it is my understanding that these drug 
courts are very tough. That there is constant testing, that if 
there is one mistake, the individual goes to prison. That it is 
a very tough program, not one that--I think maybe that there is 
not a good understanding how tough this program is.
    Is that your understanding?
    Mr. Goddard. Yes, sir. It is tough, and, frankly, the 
judges that are involved get heavily involved in each case, and 
they do not accept the litany of excuses that so often come 
from drug addicts to why they are not doing what they are 
supposed to do.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Goddard. Thank you, Senator.
    Chairman Lieberman. Thank you, Senator McCain. Senator Kyl.
    Senator Kyl. I think that the governor needs to get to the 
Navajo Nation, and, therefore, instead of just taking my full 
round, let me just make a point, and, governor, if you want to 
respond to this, fine.
    Your predecessor was very supportive of enhancing our ports 
of entry, you mentioned that. I understand there is some money 
in the budget now for the Mariposa Port of Entry. One thing I 
think we need to do, comment on this if you want, is that we 
need to get the Mexican government to do the same, that is to 
say it does not do any good to have a great highway and port of 
entry on our side if the Mexican highway does not match up with 
that. So, that is one thing that we need to do, and, obviously, 
anything we can do to enhance trade not only helps us, but 
helps Mexico, as well.
    If you want to make a comment, fine, otherwise, I will 
quickly go to the----
    Governor Brewer. Absolutely, Senator Kyl. I think that we 
do need to address that issue with the governor of Sonora and 
that we do enhance the border crossings on both ways. Certainly 
in regard to the gun trafficking going south, I think that 
they, too, need to step it up and certainly do their end of the 
job as we are trying to attempt to do up here.
    I would like to mention at this time, if I could, that I 
realize how important the issue is, and I am very sympathetic 
to the concerns of what is going back into Mexico, but the 
bottom line is I always remain very concerned when I hear 
Washington start discussing gun control measures, and, frankly, 
as we go down this path, I again want to mention that these 
other issues that we are facing here in Arizona, I do not want 
to take the issue away again, Mr. Chairman, of securing our 
borders, and the bottom line is that stopping the flow of guns 
into Mexico won't stop the Mexican cartels, if you will, from 
obtaining guns elsewhere. Venezuela and other countries have 
large factories that are making guns, and I am sure with their 
innovative abilities that they would get them. I do not believe 
that they are all coming from the United States.
    Senator Kyl. Attorney General Goddard, I just want to 
clarify one thing. There has been a lot of anecdotal evidence 
about the kind of violence that is occurring here in the United 
States. A lot of it is one drug cartel against another.
    In other words, that in terms of the murders, for example, 
or assaults, a lot of that is what we refer to as the bad guys 
on the bad guys. Is that the case with kidnappings, as well, 
however?
    Mr. Goddard. Mr. Chairman and Senator Kyl, and any experts 
behind me, Chief Harris, my understanding is that most of the 
kidnappings are gang-on-gang activities. Where the general 
population gets involved is where they make a mistake, where 
they take down a house or a home invasion, where it is not the 
person that they intended.
    Senator Kyl. Well, it is gang-on-gang, but the people who 
are being kidnapped are frequently innocent in the sense they 
may be illegal immigrants, but they have not committed crimes.
    Mr. Goddard. Senator, let me get out on a limb here--very 
often, the people who are kidnapped are under investigation by 
the police at the same time. The victims are often perpetrators 
in another context. So, they are not less of a victim because 
of that, but, very often, they are running a drop house 
themselves when they are kidnapped. That does not make them 
exactly simon-pure, and that is one of the reasons, as you 
pointed out earlier, that the reporting of these crimes is 
often, let us say, less than prompt if it happens at all.
    Senator Kyl. I understand. I presume it may come through 
the Judiciary Committee on this financial instrument issue, and 
we will want to work with you on that to make sure that we can 
try to accomplish what Senator McCain was talking about.
    Mr. Goddard. Thank you, Senator. It is just something we 
have done in Arizona pretty much on our own, but we have a lot 
of expertise that hopefully we can share with the Treasury and 
the IRS and some of the other agencies that could really help 
take a bite out of this problem.
    Senator Kyl. And, yet, even with your success of something 
like $17 million, when you compare that with the total, 
obviously, you are frustrated that it cannot be a whole lot 
more than----
    Senator McCain. It sounds like a bit, Senator, but it is a 
drop in the bucket. All it has done, and this is a tribute to 
the cartels' flexibility and opportunism, is simply moved them 
across the border. They wire the funds to Northern Mexico 
today, and they will make a phone call in Arizona. We are still 
in court fighting that issue as to whether we can, in fact, 
seize the records from the Northern Mexico money transmitters. 
I believe we can under our U.S. law, and I believe, hopefully, 
the Arizona Supreme Court will free us to do that in the 
future.
    Chairman Lieberman. Thanks very much, Senator Kyl, and 
thank both of you, Governor Brewer and Attorney General 
Goddard, for both highlighting the impact of the Mexican drug 
cartels on Arizona, but also giving us some very specific and 
practical steps that we can take in law and in financing to 
assist you in what you're doing to assist us to diminish this 
problem.
    I will just say parenthetically that I appreciate, Attorney 
General Goddard, your thought that we have to do a better job 
at monitoring and imposing some kind of control of southward 
traffic from here. We also, I think, have to ask and assist the 
Mexican government in doing a better job at monitoring traffic 
coming into Mexico from here, the right to be concerned about 
the flow of weapons, for instance, in if that is a priority, we 
can not just stop that from here, that has to be done on their 
side of the border, as well.
    We look forward to keeping in touch with both of you; we 
thank you for your time, for your service, for your testimony 
this morning. Thank you very much.
    Governor Brewer. Thank you.
    Mr. Goddard. Thank you, Mr. Chairman, and Senators.
    Chairman Lieberman. We will now call on the second panel, 
which we are honored to have a distinguished group of local 
officials and the Hon. Phil Gordon, Mayor of the city of 
Phoenix, the Hon. Octavio Garcia-Von Borstel, Mayor of the city 
of Nogales, and the Hon. Ned Norris, Chairman of the Tohono 
O'odham Nation. We thank you, all, for being here, and being 
patient as we heard the first panel.
    What we need you to help us understand in real terms what 
the impact of the Mexican drug cartels has been on your 
communities and what we can do to help you diminish that 
negative impact.
    Mayor Gordon, good morning, and we will start with you.

   STATEMENT OF HON. PHIL GORDON,\1\ MAYOR, CITY OF PHOENIX, 
                            ARIZONA

    Mayor Gordon. Good morning, Mr. Chairman. Thank you very 
much, Senator Kyl and Senator McCain, for being here in the 
city of Phoenix. We are honored to host this important and 
critical Committee meeting in the fifth largest city in the 
United States, dealing with one of the largest issues we face.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Gordon appears in the Appendix 
on page 209.
---------------------------------------------------------------------------
    Last month, as I believe you are aware, Mr. Chairman and 
Senators, I was invited to Washington, DC, to offer testimony 
before a House Subcommittee on this very topic. I went then, 
and I come here now to discuss an issue which we all have 
agreed must urgently be discussed, debated, addressed, and 
resolved.
    There can be no doubt, in my opinion, that a crisis exists 
at our border with Mexico. And for reasons ranging from a 
historically bad economy and corruption at many levels of 
government and law enforcement on the Mexican side of the 
border, to various degrees of inattention on our own side of 
the border, to the border itself, which is vast and porous, 
Phoenix finds itself at the center of the perfect storm--a 
storm that is growing increasingly violent, threatening, and 
resource-consuming. Homeland security, Senators, includes, as 
you are aware, hometown security, and that is especially true 
in Phoenix, Arizona, today.
    Senators, I know that a number of your colleagues sitting 
2,000 miles away from Arizona envision a border similar to what 
you find between El Paso and Juarez, or San Diego and Tijuana--
a road in, a road out, with a railroad-type crossing to control 
the flow of arms and people. But the Arizona-Mexico border, as 
you are aware, is not like that. It is 370 miles long, and 
hundreds and hundreds of square miles in area. It is hot, 
rugged, and has nooks and crannies, ravines and ridges, that 
facilitate covert movement. There is no ``Great Wall of 
Phoenix'' to separate us from that imaginary border. And I 
promise you, what happens at the border does not stay at the 
border but comes across here. And that is why we are all 
involved so deeply.
    But what happens in Phoenix does not stay here either. The 
criminals, as you have heard from the Attorney General, 
continue on to all parts of our country--Washington, Oregon, 
Iowa, Kansas, Maine, and Connecticut. We are just a gateway for 
their cargo of drugs and people to come into the United 
States--and for money to go into Mexico and drugs to come into 
the United States.
    That is one of the reasons I am feeling it is so critically 
important for you to be here today. This is not simply a 
Phoenix solution or an Arizona solution. It is a national 
problem requiring a national solution. We do need more funding. 
I specifically ask you to continue funding our partnerships 
with Immigration and Customs Enforcement (ICE), DEA, FBI, and 
ATF. We do need continued funding to go after the ``worst of 
the worst.'' We do need to continue funding to cut the drugs 
and the violence off at the border. We do need continued 
funding to help and protect our own law enforcement personnel.
    And even though the most violent spillover has not yet 
reached Phoenix, the perception outside Arizona is very 
different. And that perception, if left unchecked, will start 
impacting the people who want to visit our State and this 
city--the ones who want to move to Phoenix, the businesses that 
want to relocate to Phoenix, and anyone who wants to invest in 
Phoenix or the State. And that will directly impact our 
economy, which impacts our revenue stream, which impacts our 
ability to expand the public safety efforts that are necessary, 
not just to the city of Phoenix and the State of Arizona, but 
the Nation.
    We do really have a dichotomy here, Senators. Our crime in 
Phoenix and in most incorporated cities in the valley is down 
significantly from last year in every category--violence and 
property. And that is from last year where it was down last 
year. So 2 years straight in a row.
    Our cities have their priorities straight. They are going 
after the violent criminals, the syndication, and the repeat 
offenders. We know that the first order is to maintain order 
and safety, and that is why we plead with you and your 
colleagues in the Senate, and the House, to continue funding 
the Federal agencies that we have successfully partnered with.
    We need new funding for the Border Patrol. The money and 
the agents that have been allocated are not significant, nor 
sufficient, with the size of the border we have. U.S. Marshals, 
DEA, FBI, ATF, ICE, and yes, postal agents--everyone can go 
after dangerous felons by serving them the warrants that 
already have their names on them, instead of letting them 
collect dust sitting in a closet. All of our agencies are 
involved.
    As you might suspect, the cost of Phoenix border-related 
crime is staggering and far beyond what most municipalities in 
this country are required to bear. It is the cost of 
intelligence, the cost of equipment, the cost of hiring new 
officers, the cost of overtime, the cost of undercover 
operations that continue for months and years, the ongoing 
surveillance operations. In these challenging economic times we 
must be particularly sensitive to the manner in which our 
increasingly scarce resources are used. And that is why we go 
after the ``worst of the worst'' in a quick response.
    As you heard, people are being tortured. People are being 
kidnapped almost every night. Last year, the average was one a 
night. Phoenix police were called out to rescue one variation 
of the same story--``My wife is being held in a Phoenix drop 
house and they are torturing, raping, assaulting, or 
threatening to kill her if we do not pay thousands of dollars 
more.'' The response to that kind of call is incredibly labor 
intensive. More than 60 officers a night are diverted from 
other operations to go rescue individuals, sometimes innocent, 
undocumented aliens that have done nothing other than to come 
across the border illegally or bad guys on bad guys.
    And I will show you an example of each. The individual to 
whom you are closest is a bad guy that was tortured by another 
one.\1\
---------------------------------------------------------------------------
    \1\ The photograph referenced by Mr. Gordon appears in the Appendix 
on page 221.
---------------------------------------------------------------------------
    The overtime hours are staggering; the personal resources, 
as I said, diverted. I do not know if time permits. I can give 
you specific operations that have been so successful----
    Chairman Lieberman. Go ahead and take a few minutes.
    Mayor Gordon. Operation Blank Check: Again, a joint 
operation with the Federal partners I identified--led to the 
felony indictments of 183 individuals this last year alone. 
Twenty-two different gangs were identified and taken out, 
totaling more than $3 million in money obtained also.
    Operation En Fuego: Last year, again, alone was responsible 
for the break-up of a Phoenix-based smuggling organization from 
the syndicate south of the border, indicted 35 individuals on 
felony charges that related, as the Attorney General said, to 
the human smuggling of more than 10,000 individuals a year for 
at least 3 years.
    Operation Tumbleweed: Disrupted and stopped the illegal 
activities of 20 different organizations by following the money 
trail. Drug smuggling, human smuggling, money laundering were 
significantly impacted.
    Additionally, we shut down two of the largest syndicates in 
the Nation that dealt with the tragedy of human smuggling. Each 
year, 15,000 people were brought into the United States through 
Phoenix to the rest of the country; $30 million a year went the 
other way. That business is now closed.
    We are also a member of the FBI Violent Street Gang Task 
Force, which has resulted in more than 300 felony arrests of 
felon illegal immigrants arrested in the past year alone.
    The Phoenix Police Department has a very successful and 
innovative program, which we recommend across the country, 
where we embedded criminal ICE agents on a full-time basis for 
the last 3 years in our police department. That is where their 
desks are. Their presence and participation in the office and 
on the street is invaluable. They have access to the Federal 
databases. They allow us to not only rescue people that would 
be killed, but also to go after the syndications and identify 
individuals more quickly.
    When this Nation was founded, no one ever conceived or 
imagined that immigration enforcement was an issue that would 
ever fall to mayors and local police departments. But here we 
are. Not only are we being forced to step up our immigration 
efforts, but we have also an increased burden when it comes to 
gun crimes and white collar crimes connected to illegal 
immigration formerly handled at the Federal level due to 
September 11, 2001.
    You have seen the pictures from Mexico. You have seen what 
their criminal syndicates do to good Mexican police officers 
and honest Mexican politicians. And they do not respect our 
border, and they do not respect our police.
    In conclusion, let me say that the extreme violence, 
including the assassination of officers and government 
officials we are seeing on the Mexican side of the border, has 
not yet spilled over to the American side. Even the kidnappings 
and the shootings that have spilled over in an effort to 
control the human drug and gun trafficking operations in 
Arizona are almost exclusively, as Senator Kyl said, ``bad guys 
on bad guys''.
    But make no mistake. Related violent criminal activity--
shootings, kidnappings, home invasions, rape and torture--have 
spilled over and occur every day and are affecting American 
citizens and legal residents. The three of you know her, Julie 
Erfle, a police widow and her two young sons who will never see 
their husband and dad again--a young hero who was gunned down 
by an illegal immigrant smuggled back into our country having 
already been convicted and deported.
    Senators, without increased funding, the Phoenix Police 
Department and your Federal agencies here, and more Federal 
agents on the ground in the city, as well as at the border--
that spillover violence will increase and the victim pool will 
expand and touch law abiding American citizens. And that is a 
circle that I know we all want broken.
    Thank you very much for your time. And I am here afterwards 
to answer any questions you may have.
    Chairman Lieberman. Thank you, Mayor. Thanks for the 
warning at the end, which I believe is stark but well taken.
    Next, Mayor Octavio Garcia-Von Borstel. Thank you for being 
here this morning.

STATEMENT OF HON. OCTAVIO GARCIA-VON BORSTEL,\1\ MAYOR, CITY OF 
                        NOGALES, ARIZONA

    Mayor Garcia-Von Borstel. Thank you. Good morning, Chairman 
Lieberman, Senator McCain, and Senator Kyl.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Garcia-Von Borstel appears in 
the Appendix on page 222.
---------------------------------------------------------------------------
    I appreciate the opportunity to appear before you today to 
discuss ``Southern Border Violence: State and Local 
Perspectives''. I want to commend Senator McCain for his 
personal attention on the border and personal visits in meeting 
with local movements.
    We are all aware of the international situation as it 
relates to the drug cartel violence that has been occurring 
along the Southwest Border. What I would like to address this 
Committee with are the effects of the border violence in our 
community of Nogales, Arizona.
    Since May 2007, the city of Nogales, Arizona, has been a 
witness to several highly reported brutal slayings that are 
occurring between drug cartels in our sister city of Nogales, 
Sonora, Mexico. The Department of National Drug Intelligence 
Center has identified the Mexican drug trafficking 
organizations as the greatest organized crime threat facing the 
United States today.
    Although in our neighboring city the violence committed 
against innocent parties and tourism is very rare, in October 
2008, the State Department issued a travel advisory mentioning 
the city of Nogales, Sonora, Mexico. This advisory has had an 
effect on the economy of the city of Nogales. We are 
experiencing longer waits on the border crossings and a decline 
in tourism.
    Nogales, Arizona, is on the frontlines in this fight 
against drugs. We see continued record high tonnage of drug 
seizures, cash, and weapons--all results of this effort between 
Federal, State, and local identities working in conjunction.
    Nogales is a thriving, safe community that has always put 
the safety of our citizens and tourists on the top of our 
priorities. Nogales reported zero drug-related homicides in 
2008, and what we call ``small crime'' such as vandalism and 
shoplifting were at a minimum.
    The principal effect of border violence in my community of 
Nogales, Arizona, are as follows:
    The drug trafficking has reached a point where this 
activity is even occurring in our sewer system. Last week 
alone, numerous loads of marijuana were intentionally channeled 
through our International Outfall Interceptor (IOI), which is 
the main sewer line flowing through Nogales, Arizona. This 
shows the length to which drug traffickers have resorted in 
getting the product into this country. What is normally a drug 
trafficking problem has now become an infrastructure problem 
because these actions can damage a sewer line infrastructure to 
the tune of millions of dollars.
    Locally, we cannot go more than a few months without 
discovering another drug channel under the border into Nogales, 
Arizona. These tunnels cause great damage to the structural 
integrity of our streets and buildings.
    The wait times at our port of entry continue to be 
considerable. It is our understanding that a great portion of 
these wait times are due to heightened security at our border. 
While this ensures our national safety, the burden of longer 
wait times for commercial and pedestrian entry, which is 
frequently exceeding 1 to 2 hours, falls on the border cities. 
We estimate that approximately 75 percent of people in these 
lines at the border are coming to shop in the United States. 
When the wait times exceed 1 or 2 more hours, potential 
visitors and customers are discouraged from coming into the 
United States to buy our products. This affects Nogales, 
Tucson, Phoenix, and the rest of the State of Arizona.
    State and national media reports discourage people from 
other parts of the United States from coming to Ambos Nogales. 
Tourism--tourists used to come and lodge in Nogales, Arizona, 
and shop and dine in Nogales, Sonora. That is not happening 
much anymore. Whether merited or not, the perception alone of 
increased violence in Nogales, Sonora, has greatly reduced the 
amount of business and tourist visitors to Ambos Nogales. This 
reduction in business and tourism has had a detrimental effect 
in our community, which damages commerce, tourism, and 
ultimately reduces our precious sales tax, which is the main 
source of revenue in Nogales, Arizona. Sixty percent of our 
sales tax comes from Mexico.
    The factors not only affect existing business, but also 
greatly diminishes new business prospectives from our border 
town. Produce, the maquiladora industry, and other border 
operations which might have been thinking of relocating to 
Ambos Nogales are now discouraged to do so because of the fear 
of increased violence along the border.
    Due to the growing violence in Mexico, our local police 
departments are forced to spend a great amount of time 
assisting Federal law enforcement agencies. While the effects 
on this side of the border are indirect, they directly affect 
our economy and deplete our budgetary resources that are 
crucial to border cities during difficult economic times.
    For instance, our police and fire departments' levels of 
response to incidence at the ports of entry have greatly 
increased. From January 2008, the police department responded 
to 34 calls, and in January 2009, they have responded to 6,800 
calls at the port of entry.
    Our citizens living in close proximity to the International 
Boundary Line are constantly deprived of a reasonable night 
rest due to the noise and disruptive activities, such as 
emergency vehicles, surveillance aircraft, high capacity 
floodlights, emergency sirens, etc.
    The city of Nogales is therefore requesting your assistance 
in seeing that greater resources are allocated to combating the 
potential spillover effect of the drug war in Mexico, as well 
as increased CBP manpower to properly staff and operate the 
largest port of entry in Arizona. If we can maintain the 
security and operation of the Mariposa and DeConcini ports of 
entry in Nogales, all of Arizona, as well as this country, will 
benefit.
    The sad irony is that Nogales, Arizona, remains one of the 
safest cities in the country despite the violence, drug and 
human trafficking that surrounds us.
    Thank you for the opportunity to testify here today. By 
continuing to work together we can develop new ideas to refresh 
and strategies that can rise to the current challenge. I will 
be happy to answer any questions you may have. Thank you.
    Chairman Lieberman. Thank you, Mayor. You pointed out, and 
Mayor Gordon did the same, that there is a complicated picture 
here. That while the Mexican drug cartels have had an obvious 
impact on public safety, overall, some of the communities here, 
thanks to the leadership and work of the law enforcement have 
actually seen declining rates of violent crimes. So that 
insofar as people living here form an attitude about crime, or 
even people intending to visit or come here, generally 
speaking, these are still very safe communities to be in.
    Mr. Norris, thanks for giving us your time this morning, 
and we look forward to your testimony now.

 STATEMENT OF HON. NED NORRIS JR.,\1\ CHAIRMAN, TOHONO O'ODHAM 
                             NATION

    Mr. Norris. Thank you, Mr. Chairman, Senator McCain, and 
Senator Kyl. The Tohono O'odham Nation is honored to be here at 
the table with you to share our thoughts about the border 
violence and the impact that activity has had on the Tohono 
O'odham Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Norris appears in the Appendix on 
page 224.
---------------------------------------------------------------------------
    Border-related crimes, such as illegal immigrant and drug 
trafficking, robberies, sexual assaults, stolen vehicles, and 
property crimes have an impact not only on our law enforcement 
and other resources, but also affects the quality of life of 
our people and diminishes our efforts to maintain our culture 
and traditions.
    The Tohono O'odham Nation has 78 law enforcement officers; 
about 46 are assigned field operations or patrol duties. 
Although border crossings have decreased from a high of about 
1,500 a day from 2005/2006 to about 400 to 450 a day, these 
numbers remain significant because of the increase of drug 
smuggling. Customs and Border Protection data show that about 
10 percent of the crossers are criminal aliens with histories 
of rape, assaults, drug and human smuggling, and murder. So, 
there are about 40 to 50 felons entering the Tohono O'odham 
Nation on a daily basis, or about 1,500 a month.
    Tohono O'odham Police investigate an average of 70 deaths a 
year of illegal immigrants that die attempting to cross Tohono 
O'odham Nation. They die from exposure or injury. About 3 
percent were murdered by other illegal immigrants robbing them 
of their drugs and other human cargo.
    From years 2004 to 2008, the Tohono O'odham Nation Police 
Department seized 290,885 pounds of marijuana, an average of 
58,000 pounds a year. For year 2009, Tohono O'odham Police 
Department is expected to exceed this average by about 27 
percent, or approximately 79,236 pounds.
    Additionally, there were 877 pounds of cocaine seized. The 
estimated street value of all the drugs seized is $221,633,000. 
These numbers do not indicate data from Customs and Border 
Patrol or Immigration and Customs Enforcement, who seized about 
400,000 pounds in fiscal year 2007.
    Information indicates that there are two Mexican Cartels 
operating within the Tohono O'odham Nation: (1) the Sinaloa 
Cartel, and (2) the Tijuana Cartel. Both are vying for control 
of the Tohono O'odham Nation, particularly the western side. 
They see the porous nature of our border, despite the 
construction of vehicle barriers. The barriers do not stop foot 
traffic. Because the southern side of the border is rural 
desert area with little, if any, law enforcement presence, they 
use the area as staging areas to smuggle drugs and illegal 
immigrants.
    Because of the vehicle barriers, they can no longer drive 
north from the Mexican side of the border, so they shifted 
their tactics to stealing vehicles from the Phoenix metro area. 
They then drive the stolen vehicles to sites on the Tohono 
O'odham Nation where the drugs and/or human cargo are stored or 
waiting. They then transport the cargo north off the Tohono 
O'odham Nation. Because the current practice of Customs and 
Border Patrol is to not check southbound vehicles, this has 
been, thus far, a successful strategy for the cartels thus far.
    The cartels are developing formal relationships with Tohono 
O'odham Nation members to drive vehicles loaded with hundreds 
of pounds of drugs and/or illegal immigrants to designated 
locations off the Tohono O'odham Nation. What they do is a 
simple process of offering $700 to $5,000, depending on the 
type of load, to a Tribal member to either drive the load or 
store the drugs at their home or a shed.
    More and more, the Tohono O'odham Nation's members are 
getting involved in the illegal operations. As little as 5 
years ago there were just a few Tribal members involved in the 
illegal operations. As indicated, about 30 percent of the total 
Federal prosecutions for drug smuggling and/or transport of 
illegal immigrants are Tribal members. In the same period of 
time there were 145 drug possession/transport cases prosecuted 
in Tribal Court.
    Lack of interoperability, radio and cell phone--there is 
about 30 percent of the Tohono O'odham Nation that lacks 
adequate radio and cell phone communication. This handicaps our 
efforts and presents an officer and public safety concern. 
Adding to this is the inability to communicate directly with 
our Federal partners--Customs and Border Patrol, and 
Immigration and Customs Enforcement.
    In conclusion, I would like to emphasize that should this 
type of activity occur in any town or city in the United 
States, it would be considered a crisis. The Tohono O'odham 
Nation is in the midst of this crisis, and our way of life and 
culture and traditions are changing every day.
    This crime and violence does not end at the Tohono O'odham 
Nation. The drugs and criminals transporting the drugs and 
human cargo are headed to cities and towns throughout the 
United States. The victims of kidnapping that the city of 
Phoenix has been experiencing have likely traveled through the 
Tohono O'odham Nation. We need help to protect not only our 
community but also to protect our neighbors, the State of 
Arizona, and the United States of America. I urge you to do 
whatever you can to help us protect our homeland.
    Thank you, Mr. Chairman and Members of the Committee.
    Chairman Lieberman. Thank you very much, Mr. Norris, for a 
very strong statement.
    Let me begin the questioning. Mayor Gordon, you talked--and 
I think very compellingly--about the cost of border-related 
crimes to Phoenix being staggering--something we do not think 
about. And let me just make sure I understand you. You said 
that 60 officers a night are involved--does that mean they 
spend most of the night or they are responding to something 
that you would consider a border-related crime every night?
    Mayor Gordon. Mr. Chairman--and again, noting that Chief 
Harris will be on the next panel--the police operations are 
ongoing now in terms of both going after drop houses. These are 
two examples. Nightly--and Senator McCain actually also put a 
face on it--in fact, late last night, our police were involved 
and rescued a group of immigrants that were being held. One of 
the smugglers shot at the police officer from above. 
Fortunately, he missed or at least he was gone--this was last 
night alone.
    Chairman Lieberman. The smuggler was holding the illegal 
immigrants?
    Mayor Gordon. Yes, sir.
    Chairman Lieberman. Just for the record, why was he holding 
them?
    Mayor Gordon. For smuggling, extortion, and transportation.
    Chairman Lieberman. Because they had not paid him, or he 
was not going to let them go until they paid him more?
    Mayor Gordon. The typical--almost every occurrence now is 
that individuals will pay X-dollars to get them to the border, 
and the transportation system related to the cartels takes them 
through the desert--roads or no roads--over fences with the 
truck-loading equipment--to the Phoenix metro area where they 
are held in drop houses. At that point, the holders of the 
homes then start to extort additional monies from the occupants 
and then call their relatives to say either pay us X-dollars 
more or we will torture and rape them.
    The one I am referring to last night, an innocent victim, a 
14-year-old girl, was raped. The mother was raped also. But a 
14-year-old girl, no matter what her nationality, legal status, 
is not----
    Chairman Lieberman. In other words, how is this related?
    Mayor Gordon. Last night, officers came across a home. 
There were a number of individuals in there being held against 
their will--very similar to the picture you see in the middle 
or on the end--waiting for transportation on one hand to other 
parts of the country to go to work. And on the other hand, 
being held to get more money from what they originally paid to 
get to the metro area to then go to Iowa or Connecticut.
    The individuals, part of the smuggling syndication, were 
discovered at the premises by the police. It was a two-story 
apartment, as I understood. One of those smugglers raised his 
gun to shoot at a police officer down below. Fortunately, the 
Phoenix police officer shot back and was safe. So, that 
violence--that went on last night.
    Chairman Lieberman. And those rapes, who were those women?
    Mayor Gordon. They were immigrants being held. But the cost 
on those operations are ongoing. They may be one night; they 
may be weekly. Those calls from Seattle to internationally 
across the world. And again, the police are then diverting 
resources over time. These are officers involved in these 
operations that just cannot be pulled off the street.
    Chairman Lieberman. Let me ask you briefly--I am going to 
ask your two colleagues--of the likelihood that additional 
funding would come to State and local governments for Mexican 
drug cartel-related violence through existing programs. It is 
not definitely so, but it is always a likelihood. Now, which of 
the existing programs are helping you most and, therefore, 
would you like to see more funding put into as part of 
supplemental funding?
    Mayor Gordon. Mr. Chairman and Senators, I think the 
operations that I described--those are partnerships. Whether 
the money goes directly to the Federal agencies for those 
partnerships, to the Department of Safety (DPS) directly, or to 
the city of Phoenix, which tends to have the most officers 
involved--for those specific operations--there is not a delay. 
The results are proven, all across the board for a couple of 
years. I went to D.C. to testify to get the Federal agencies 
more. That would be the best single dollars you could use.
    Chairman Lieberman. OK. Mayor.
    Mayor Garcia-Von Borstel. Mr. Chairman, thank you. Although 
I recognize that we are working in a partnership with all 
agencies, the trend seems to be that local agencies seem to be 
supporting Federal agencies, such as CBP, because of their lack 
of funding and agents at the border. So, to me it makes sense 
to certainly support CBP in getting more qualified border 
agents at the border.
    Chairman Lieberman. Would that include beefing up and 
monitoring our inspections southward?
    Mayor Garcia-Von Borstel. Correct. That would make a lot of 
sense.
    Chairman Lieberman. Mr. Norris.
    Mr. Norris. Mr. Chairman, Members of the Committee, the 
U.S. Customs and Border Protection is one of the primary 
agencies that we are working with. Our Tribal Police 
Department, as well as the entity that I am sure the Committee 
is familiar with--the Shadow Wolves, who are very active out 
there need assistance in funding themselves to continue their 
operations on our Tohono O'odham Nation.
    Chairman Lieberman. Right. It is very interesting. That is 
not the answer I expected, but it is significant that you gave 
it.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Mayor Gordon, with 
the tremendous difficulties as associated with the economy, you 
have more foreclosures. Right?
    Mayor Gordon. Yes, sir.
    Senator McCain. So you have more boarded up homes. So you 
have more places for these people to go in and locate. What do 
we do about that?
    Mayor Gordon. Mr. Chairman and Senator McCain, first, let 
me note that almost all the drug drop houses that are 
discovered on a daily basis are not boarded up. They are 
operational. This one is in a very affluent neighborhood, and 
locations are not discriminatory in terms of lower 
socioeconomic or higher. They are throughout the entire valley. 
It is keeping a low presence, and sometimes the highest areas 
are done.
    The boarded up homes are a significant issue as it relates 
to street crime, gang members, drug dealing, because 
transients----
    Senator McCain. But these people have no trouble finding 
anywhere to locate?
    Mayor Gordon. These people have no trouble, and money is 
not an issue in terms of renting homes that may be owned by 
out-of-state corporations or individuals or locally.
    And to answer your question directly, with respect to the 
money that the Federal Government, your body, and the House and 
Administration has allocated from the last Administration, is 
already put to use at the city of Phoenix in terms of acquiring 
these boarded-up homes. There is a percentage that cannot be 
saved, demolished. The others rehabbed and then sold to single 
owner-occupied families. So, we have found the best way to use 
the Federal money is actually to bridge the gap instead of 
trying to become a rental agency.
    Senator McCain. Thank you very much, Mayor Gordon.
    But crime overall has gone down, but crime associated with 
this is going to continue. Would you say it is your major 
challenge besides the overall economy?
    Mayor Gordon. Mr. Chairman, and Senator McCain. Absolutely. 
And that point, because it really is a dichotomy, crime is down 
significantly in the city of Phoenix. Homicide, as an example, 
is down by over 25 percent from last year alone. Having said 
that, 225 or 250 homicides a year--the Chief can correct me--it 
is either all bad guys and bad guys, these syndicates, or 
unfortunately, probably related a small percentage to domestic 
violence.
    Those officers that are being diverted to keep this 
spillover violence from affecting our daily lives, and these 
things are coming at a significant cost as I described over 
time to the families. The undercover operations--these officers 
are undercover a long time and cannot be replaced on a rotating 
basis. Our public safety budget is now 74 percent of our 
operating budget. Police and fire--the vast majority of that is 
police, and that is growing as the demand is needed to stay 
equal to keep that crime going down. But that is pulling 
officers now off the street.
    We, for the first time in our history, Senator, have had to 
reduce the Public Safety budget, especially since I have been 
mayor. The growth of that--we are still hiring but we do not 
have the luxury to keep adding to the Federal task forces that 
have been so successful.
    Senator McCain. Mayor Garcia-Von Borstel, now they are 
moving drugs through the sewers.
    Mayor Garcia-Von Borstel. That is right.
    Senator McCain. And how often are you uncovering a tunnel?
    Mayor Garcia-Von Borstel. Very often, it is very sad to see 
that all of our efforts are going towards the border and trying 
to be effective in eliminating drug trafficking and human 
trafficking. And it is sad to see that they keep finding and 
identifying ways to make sure that their product comes into our 
country illegally.
    And so it is very sad to see in our community that although 
we are working diligently with our Federal and State 
governments, they continue to identify ways to smuggle their 
products.
    Senator McCain. What kind of cooperation do you get from 
the city of Nogales, Sonora?
    Mayor Garcia-Von Borstel. We work very diligently with 
them. There is a great wave of communication with them. But I 
think that it is bigger than their local government, as well. 
Both local governments working together I do not think is 
enough.
    Senator McCain. What do you estimate the population of 
Nogales, Sonora, is?
    Mayor Garcia-Von Borstel. I estimate it at 500,000. Half a 
million.
    Just on a personal note, Senator, talking about identifying 
abandoned homes. I live in a single-family home by myself, and 
so my house is abandoned during the day while I go to work. And 
so after I came home one day, I identified a red t-shirt 
hanging from a tree outside my house. And so I figured that was 
odd; I will get to it tomorrow morning. And nevertheless, the 
next morning I ran off to work again and came home for lunch 
and saw that there were illegal aliens at my house just hanging 
out and resting. Who knows for what.
    And so these people are very creative and just find ways to 
identify houses that are abandoned during the day. So I just 
thought I would share that with you because it was a personal 
experience that happened to me. And so it was that red shirt 
that was signaling other illegal aliens to say that is the 
house where we are hanging out today.
    Senator McCain. Mr. Norris, it is good to see you again. 
Thank you for all your service to the Tohono O'odham Nation.
    It seems to me from your testimony that the border 
crossing, as you mention, has decreased from a high of about 
1,500 a day in 2005 and 2006 to about 400 to 450 a day. Is that 
because of the vehicle barriers?
    Mr. Norris. Mr. Chairman and Senator McCain, I think that 
it has a lot of factors. There has been a significant increase 
of Border Patrol agents on the Tohono O'odham Nation's land. 
And so the ability to do their business on the Tohono O'odham 
Nation has decreased but also, because the vehicle barriers 
have had a significant impact on that, as well.
    But I think the fact is that there is always a continued 
effort on the Tohono O'odham Nation's part to work 
cooperatively with the Border Patrol. And so we are hoping that 
our cooperation is going to be able to assist the Border Patrol 
and take into consideration the Tohono O'odham Nation's 
interest in the fact that we have nine communities that 
continue to exist today in Mexico and about 1,500 enrolled 
Tribal members in Mexico, as well. So, we have to have a 
cooperative working relationship with the Border Patrol in 
order for us to be able to address this issue.
    Senator McCain. It seems to me your major concern here is 
the penetration of drugs into the young people of your Tohono 
O'odham Nation.
    Mr. Norris. Yes, sir. Not long ago I was talking to the 
former Chief of Police for the Tohono O'odham Nation, who 
shared with me a situation where a 16-year-old female was 
offered $500,000 to drive a vehicle from this point to that 
point.
    And obviously, that is just one of several examples of how 
some of our people are bought into the illegal activity of drug 
smuggling and sale in that, if you wave $500,000 in front of a 
16-year-old's face, or anybody for that matter, to just drive 
this vehicle from this point to that point, I think it is 
extremely enticing for them to----
    Senator McCain. Is drug addiction up amongst Tribal 
members?
    Mr. Norris. I think that my service to my Tohono O'odham 
Nation goes back 32 years. I spent 14 years as a non-attorney 
tribal judge, and I can remember in the late 1970s, early 1980s 
when the choice of drug was alcohol. That graduated to 
marijuana. Over the years that graduated to cocaine. Over the 
years that has graduated to methamphetamine.
    So I think that slowly there is an increase in the types of 
drugs that members of the Tohono O'odham Nation use and that we 
are seeing come across our Tohono O'odham Nation's borders.
    Senator McCain. I have had the great pleasure of visiting 
you on numerous occasions. The Tohono O'odham Tribe has been on 
the frontline and they have cooperated with State, local, and 
Federal officials. I thank you for that, Mr. Norris. And I know 
you need additional help, and it seems to me that we have 
probably not given you nearly what you need.
    Mr. Norris. I appreciate that Senator. Thank you.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCain. Senator Kyl.
    Senator Kyl. Let me begin by noting that Mayor Gordon 
mentioned the need for more U.S. Marshals to be able to serve 
the warrants on the felons and so on.
    Just to make the point again that it is not just more 
Border Patrol agents or the arresting officers, but the people 
all up and down the line. So I appreciate you mentioning that.
    I need to clarify something--I will ask the chief this, as 
well--but I am a little bit dubious of the notion that all the 
violence is, as you said, almost exclusively bad guys on bad 
guys. And I did not say that. I asked the question about it to 
try to differentiate between the kind of case that you 
described--the innocent girl who gets raped. She is not a bad 
guy. Yes, she may have crossed the border illegally, but that 
is it.
    And so I do really want to bore down a little bit more on 
this notion that it is just bad guys on bad guys. There are a 
lot of relatively innocent people--innocent, certainly, in 
terms of the kind of crimes that are committed against them 
that are caught up in all of this. And I know you agree with 
that because you cited the example of it.
    Any further comment you would like to make on that is 
appreciated. But, there can be kind of a sense that, well, if 
it is just bad guys on bad guys, let them kill each other.
    You make two points about that, Mayor Gordon. First, it 
diverts a whole lot of your resources that should be devoted to 
protecting the rest of us. And second, there are a lot of cases 
in which innocent people are taken advantage of. If you would 
like to comment any further on that you are welcome to.
    Mayor Gordon. Mr. Chairman and Senator McCain, thank you.
    I was too loose with my words, but I think you adequately 
described it.
    First of all, any crime--I have said in so many public 
speeches--is too much crime. Second, there are always innocent 
victims, including those that are engaged in criminal 
activities with their families.
    With respect to specifically, my intent was to say that 
anecdotally--because I do not think anybody could drill down 
deep enough--the vast majority of violent crime is related to 
drug smuggling, use of drugs, and now human smuggling and gun 
smuggling. And as you will hear from the chief--you have heard 
from the Federal agencies--these cartels and syndicates, they 
are now one in terms of drugs, people, guns, and money. So it 
is one continuous operation.
    The individual closest to you was--I will describe, as the 
chief would say--a bad guy. But you can see he was tortured. 
That is how the police found them as they were untying them--
anyone that is torturing and willing to kill anyone is not 
going to hesitate to kill individuals. We have had police 
officers that have been shot at, killed. They are certainly 
innocent.
    Senator Kyl. One of the key points, with only 5 minutes 
here, let me quickly get to this point. In order to get 
resources in Washington, we cannot sugarcoat. And I appreciate 
that the job of mayors is to say we have wonderful, safe cities 
and so on. But it does not argue against that to recognize that 
we have a problem that we need help with. And you have both 
made the point that for the most part the citizens of the 
cities are safe. So that should not be a reason for people not 
to come to Nogales or to Phoenix.
    But by the same token, resources are being diverted in both 
cases, and there is a threat to the citizens, in addition to 
which we do not want crime to occur against anybody and our 
citizens. So I am just making the point that--just, for 
example, you talked about the reporting of statistics. I would 
not suggest that the numbers here are a result of the fact that 
Phoenix reports all of its murders, whereas some other cities 
may not. The reality is that, as was noted earlier by the 
Attorney General, a lot of the crime is not even reported 
because it is crime against illegal immigrants or against other 
bad guys.
    So, just a suggestion here, and to enable us to better do 
our job, be straightforward about what is occurring here and 
ask for help. And that will help us to make the case that our 
colleagues who have no idea of what is going on will be more 
likely to provide the assistance that we need.
    Mayor Gordon. Mr. Chairman and Senator Kyl, that has been 
my job for 3 years now, coming to Washington asking for that 
help. The numbers continue to go up. And in no means was my 
intent to say or to sugarcoat or not tell it. I think I have 
told it directly day in and day out. And the local officers--
and Phoenix Police just to be specific--are doing an inordinate 
amount to maintain the status quo in gross numbers.
    But, again, these individuals that are involved are more 
heavily armed than police officers, with body armor, using 
sophisticated smuggling equipment and all other types of 
technology. They are better armed than a lot of the National 
Guard is, Senator. So, I said, as you noted, it is not a 
question of if it is growing; it will continue to grow. And we 
are begging for more help.
    Senator Kyl. You need to try to get that assistance. I, 
too, have enjoyed our various meetings about different kind of 
problems. It is so distressing, just heartbreaking, to hear the 
kind of stories that you are talking about--to bribe people on 
the reservation and it must be just heartbreaking for you, as 
well.
    The vehicle barriers you have noted have had some impact. I 
need to go back and look this up--but my recollection also is 
that there were some recommendations from the Department of 
Homeland Security with respect to foot traffic--fences to stop 
foot traffic, as well. What is the status of that? Is there any 
problem with that? I know there are some miles of fencing yet 
to be completed, but I am not familiar with the situation on 
the Tohono O'odham reservation.
    Mr. Norris. Mr. Chairman and Senator Kyl, as the Committee 
is well aware, the Tohono O'odham Nation's leadership and 
legislative counsel supports the establishment of vehicle 
barriers on our Tohono O'odham Nation.
    We also supported and continue to support the efforts to 
establish the virtual fence on our Tohono O'odham Nation's 
land. So, we also continue to support the establishment of 
beacon lights on our Tohono O'odham Nation's lands.
    The Nation's Legislative Council recently--about 2 months 
ago--passed a resolution that reaffirmed its commitment to 
establishing the vehicle barriers. And for those areas that 
have been omitted for some reason or another, the Tohono 
O'odham Nation wants the vehicle barrier project to be 
completed. And we will do whatever is necessary in our power to 
ensure that completion is----
    Senator Kyl. Do you oppose fencing for foot traffic?
    Mr. Norris. The opposition regarding fencing is that the 
Tohono O'odham Nation has gone on record to say that the Tohono 
O'odham Nation will not ever agree to a walled fence. And for 
the reasons that I stated earlier--we have nine villages that 
continue to exist in Mexico. We have 1,500 enrolled tribal 
citizens living in Mexico--not necessarily because they want to 
live in Mexico, but when the International Border was 
established without any consultation with the Tohono O'odham 
Nation or its people itself, that essentially cut that portion 
of the Tohono O'odham Nation off from the part that ended up in 
the United States.
    We will continue to work diligently with the U.S. 
Government to come up with an amicable way to address the 
concerns that we have and to ensure the protection of the 
United States of America, as well.
    Senator Kyl. Well, I will just note--and I appreciate the 
problem, but I know the Customs and Border Patrol has tried to 
work out arrangements whereby the movement of tribal members 
across the border is facilitated with special cards and so on.
    And I will just note that since you, yourself, pointed out 
the problem of the foot traffic that is not stopped by the 
vehicle barriers even though they have obviously an impact--
that it may be that we are going to have some kind of ability 
to stop the foot traffic, as well. And in some places, actual 
barriers have worked very well. So that is something that we 
should probably continue to work on.
    Mr. Norris. Yes, Senator.
    Senator Kyl. Thanks, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Kyl.
    I want to thank this panel very much for excellent 
testimony which made it real for us. And there is this 
dichotomy, which we will explore with the next panel of law 
enforcers and my colleagues have stated it, that thanks to a 
lot of effort, generally, violent crimes are going down. But 
that does not mean that there is not a tremendous burden on 
local law enforcement, local municipalities, and the Tribal 
nations to deal with the violence that is from the Mexico drug 
cartels.
    And, of course, it would appear that as Mayor Gordon 
expressed at the beginning, this will grow more significant if 
we do not come together and push it back. So, your testimony 
has been very helpful. I am very pleased--as I said at the end 
of my questioning--that you have had this cooperative 
relationship with the Federal agencies, particularly as I heard 
you speak with Customs and Border Patrol.
    Thank you very much.
    Mr. Norris. Thank you.
    Chairman Lieberman. I will now call the third panel. Jack 
Harris is a Public Safety Manager for the city of Phoenix; 
Clarence Dupnik, the Sheriff of the County of Pima, Arizona; 
and Larry Dever, Sheriff of the County of Cochise, Arizona.
    Thank you very much for being with us.
    Chief Harris, obviously, we want to hear from you now about 
law enforcement at the local level and the impact that the 
Mexican drug cartels have begun to have as you have witnessed 
it.
    Obviously, there are some people in Washington who think we 
are overreacting here. I think you know that. So, your 
testimony will be very important.
    Chief Harris, welcome. You have been much referred to this 
morning. Now it is your time for your defense.

STATEMENT OF JACK F. HARRIS,\1\ PUBLIC SAFETY MANAGER, CITY OF 
                        PHOENIX, ARIZONA

    Mr. Harris. I hope I can live up to the billing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harris appears in the Appendix on 
page 227.
---------------------------------------------------------------------------
    Thank you very much, Mr. Chairman and Senators of the 
panel. I will read my statement to begin with, and I am afraid 
I will be repeating some of the numbers that you have already 
heard. But I will try to put it into perspective in what we are 
facing at the local level, especially here with the Phoenix 
Police Department.
    As you heard, Phoenix does continue to be one of the safest 
major cities in the country--2008 numbers compared to 2007: 
Property crime is down by 8 percent; violent crime is down by 6 
percent; homicides are down by 24 percent. As a member of Major 
City Chiefs--the 55 largest cities in the country--I can tell 
you that in bad economic times historically crime rates soar. 
And that is happening in most of the major cities across the 
country.
    But we have had the ability here and the good fortune to be 
able to help drive that crime rate down. However, as you have 
also heard, in 2007, there were 357 reported kidnappings in 
Phoenix and 317 home invasions. In 2008, there were 368 
kidnappings and another 337 home invasions. This problem has 
garnered the attention of the world.
    Phoenix is, as you have heard, a transshipment point for 
illegal drugs and smuggled humans. Both come here before being 
shipped to other points throughout America. The majority of the 
victims of kidnappings and home invasions are involved directly 
or indirectly with the drug or human smuggling business. 
Regardless of their involvement in the crime, these victims are 
human beings, and first and foremost, we treat them as such.
    Many of the kidnapping victims, as you have heard, are 
being brought into Phoenix by smugglers known as ``coyotes,'' 
and each victim is paying in excess of $1,500 each to be 
brought into the country. Once here, the coyotes take them to 
drop houses where dozens of smuggled people are kept. Their 
shoes and clothes are often taken so that they can not escape. 
They are beaten and tortured while their loved ones listen on 
the telephone in horror as another $2,500 or more is being 
demanded from the kidnappers.
    The pictures that you saw up here earlier depict one of 
those drop houses where the humans who were sitting there had 
been smuggled.\1\ They were being held in a drop house, which 
was actually in a pretty decent neighborhood, but if you 
noticed in the picture, the windows were boarded up in the 
summer. You are well aware of what the temperatures are in 
Phoenix. They are held without food, they are held without 
water, and their clothes are taken away from them, and then 
they are tortured to get their loved ones to bring more money 
to the smugglers.
---------------------------------------------------------------------------
    \1\ The photographs submitted for the record by Mr. Gordon appear 
in the Appendix on pages 218 through 221.
---------------------------------------------------------------------------
    Other coyotes try to ``steal'' the human cargo from the 
original coyotes. They then ask for more money before they will 
release or transport their prisoners. We have had shootouts on 
our highways where a vanload of people being smuggled are 
trying to be stolen by another group of coyotes and they opened 
fire in an attempt to steal the load.
    There have been other kidnappings, which sometimes start as 
a home invasion where the victims are the smugglers themselves. 
Groups often dressed, as you have heard, in police-type raid 
gear break into a home or a vehicle and kidnap the smugglers. 
These kidnappers know the smugglers or their family members and 
associates have the ability to come up with ransoms ranging 
from $30,000 to a million dollars or more.
    Oftentimes, the ransom demands include drugs, such as 100 
pounds of marijuana, or methamphetamine, or cocaine. The 
primary goal for investigators in these cases is to rescue the 
victims. But saving these lives, as you have also heard, is 
tremendously resource-intensive. We have had operations that go 
more than a week trying to locate these kidnapped people in a 
city of over 550 square miles. And we have put as many as 60 
officers on one case.
    And then when you look at the numbers that I started with 
in excess of 350 of each of those types of crimes, you can see 
how manpower-intensive this is.
    Chairman Lieberman. Chief, how large is the Phoenix Police 
Department?
    Mr. Harris. We have approximately 3,600 sworn officers and 
another 1,100 support staff. And we are covering a 550 square 
mile area with a population of a little over a million and a 
half. We respond to about 750,000 dispatch calls per service 
per year.
    If you went out there on the street right now and added up 
every officer in this uniform, you would find maybe 250 
officers covering that 550 square miles.
    The officers that I need to assign to combat the problem of 
border violence are a valuable resource that I have had to pull 
off of their regular duties throughout the department. Like 
other agencies, we do not have a pool of excess officers to 
draw from. However, we have been forced to do something, which 
is why we have participated with two other agencies in the 
creation of the Illegal Immigrant Prevention and Apprehension 
Coop Team (IIMPACT).
    Additionally, IU have authorized the department--or the 
development of the Phoenix Police Home Invasion and Kidnapping 
Enforcement (HIKE) Unit. We have great partnerships in both of 
these endeavors.
    IIMPACT is a partnership between the Phoenix Police 
Department, the Arizona Department of Public Safety, and the 
U.S. Bureau of Immigration and Customs Enforcement. This team 
deals specifically with the violence associated with human 
smuggling and illegal immigration.
    The HIKE team, which is one of the only ones like it in the 
country, is made up of supervisors and detectives from the 
Robbery, Assaults, and Document Crimes Units from within our 
own department. In addition, agents from the Bureau of 
Immigration and Customs Enforcement, the U.S. Bureau of 
Alcohol, Tobacco, Firearms, and Explosives, and the Drug 
Enforcement Administration are part of the team. This team 
deals specifically with the kidnappings in Phoenix.
    Home invasions and kidnappings have had an impact on local 
gangs in Phoenix. Gang members have been recruited to 
participate in these crimes. In addition, they have learned of 
these crimes and copied them in an effort to get financial 
gain. To combat this problem, the Phoenix Police Department has 
partnered with the U.S. Federal Bureau of Investigation in the 
FBI Violent Street Gang Task Force. As the name implies, this 
team deals with gang violence, which is influenced by the 
border violence.
    I have submitted that portion of my statement to you.
    Chairman Lieberman. That will be printed in full in the 
record as everyone's statements will be.
    Mr. Harris. But let me conclude by saying I know that you 
are here to ask what impact the border violence has had on our 
cities and our counties. And also, it is clear and we very much 
appreciate that you are asking what can you do from Washington 
to help us.
    I can tell you that financially we have applied for a 
number of grants under the stimulus, under the COPS program. We 
are asking to add 25 people to the HIKE unit to handle these 
types of cases. So there certainly is a financial need in our 
city.
    I would also ask you to please keep in consideration our 
Federal partners. All of these task forces, all of the major 
investigations that you have heard about this morning, have 
been conducted by--for the most part--task forces that include 
ATF, DEA, the FBI, and ICE, along with our local law 
enforcement agencies. So, any assistance that you can give to 
people, resources, and finances to help those Federal agencies 
along the border and in our communities would be very much 
appreciated.
    But, beyond that, I know that I have given presentations to 
the International Association of Chiefs of Police, the Major 
City Chiefs. I have worked with the faith community, with the 
business community. I have worked with and given presentations 
to the Police Executive Research Forum in Washington, the 
Police Foundation. And I can tell you that foremost beyond all 
of this--we all want a secure border but we have to have 
immigration reform.
    There is a big difference between the pictures that you saw 
of 25 or 50 people who have committed the crime of trying to 
come into this country to work and provide for this country, 
and the people who are running guns, smuggling their human 
cargo, and smuggling narcotics. We have to have immigration 
reform--comprehensive reform. So, this country has to make a 
decision as to what they want us to do at the local level.
    In all of those Federal groups and associations that I have 
talked to, I can tell you there is a minimum of hundreds of 
different ways that local law enforcement is trying to cope 
with this very difficult divisive issue. We have to have 
something in the way of immigration reform to tell us do we 
want a workforce in this country that is an immigrant workforce 
or do we not? We have to find a way, if we do want that as a 
country, to bring those people into the country legally for a 
period of time to provide the labor that the business community 
seems to need.
    That I would say is the most important thing that could 
come out of Washington, DC, in the near future to help local 
law enforcement. Thank you.
    Chairman Lieberman. Thank you, Chief. Thanks for all parts 
of your testimony, including what I would call a healthy dose 
at the end of Arizona straight talk to which we have become 
accustomed in Washington.
    Sheriff Dupnik, welcome.
    Mr. Dupnik. Thank you, Senator.
    Chairman Lieberman. I look forward to your testimony now.

 STATEMENT OF CLARENCE W. DUPNIK,\1\ SHERIFF, COUNTY OF PIMA, 
                            ARIZONA

    Mr. Dupnik. Thank you, Senator. I have submitted my 
testimony, as well, but much of what is in here is a 
duplication or triplication of what has already been said. And 
I think the problem that we have here in Arizona with drug 
smuggling and people smuggling is pretty well identified.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dupnik appears in the Appendix on 
page 231.
---------------------------------------------------------------------------
    So I would like to kind of concentrate on some areas that I 
thought were very important that have been previously 
discussed. And I would kind of like to amplify on that.
    And first I would like to thank Mr. Norris if he is still 
here--I do not see him.
    But at any rate, a lot of what I had to say had to do with 
the Tohono O'odham Reservation. And I appreciate the candor 
with which he talked about it, because it is a very significant 
problem, not only for the nation, but for our country and for 
smuggling, as well. Because we have a corridor that runs 
primarily from Phoenix and Interstate 8 down to the Mexican 
border, west of Tucson, and all the way to the border.
    And it is in that area that most of this activity takes 
place. And that is where Tucson kind of gets caught in the 
middle. We have a tremendous amount of violence associated with 
the people smuggling and with the narcotics smuggling that goes 
on because somehow all of this activity has to get from Mexico 
up to Phoenix. And therein lies the rub.
    A lot of this is related to the drug cartels down in 
Mexico. For example, a couple of years ago, before we formed 
our Border Crimes unit in Pima County, we had two loads of 
aliens coming across in the wee hours of the morning, 3 a.m., a 
very rural known smuggling route. And they were fired upon by, 
as it turned out, four armed banditos who were apprehended by 
the Border Patrol and in their statements they had been hired 
by the Sinaloa Cartel down in Sinaloa. They came up, lived in 
the desert, and were told to rip off drugs from a competing 
cartel, namely the Gulf Cartel, which was trying to move in. 
They fired upon these vehicles, which they assumed to be 
carrying drugs--instead were carrying people, and killed 
several people, wounded several people. And that happened on 
two different occasions.
    Now, we have not had that kind of violence in about a 
little over a year for reasons that I know not. That kind of 
activity has subsided. I suppose being a politician I could pat 
myself on the back and say it is because of us, but I think 
probably we had nothing to do with it.
    One of the things that concerns me is the fact that we 
spend a lot of money the same way we spent it last year and the 
same way we spent it the year before. And most of the money 
that we spend in Tucson, for example, goes to investigative 
activities--intelligence and actually narcotics investigation. 
We do not get into alien smuggling hardly at all because we 
simply do not have the resources, nor should we. I do not think 
that is our problem; I think that is your problem.
    We assist with it all the time. For example--I am not a 
lawyer so I do not want to use the word arrest--but we stop and 
detail probably 100 or so aliens every month that we then turn 
over to the Border Patrol.
    But those are incidental to what we do. We have a 
department of about 1,500 people, about 600 of whom are sworn 
police officers. In our jail--you talked about SCAAP a while 
ago. Two years ago, Pima County was able to recoup 3 percent of 
our actual costs in the jail. That is not a whole lot. On any 
given day, 10 percent of our prisoners are Mexican aliens who 
are there not because of any immigration issues but because 
they committed serious crimes in our county. In our jail that 
is 200 people every day. Well, that is a lot of expense.
    That does not include the expense that we have related to 
healthcare--for example, our morgue is overwhelmed with the 
bodies that are found in the desert. Mainly, people who are not 
committing any serious crime except trying to get into this 
country.
    So, expenses are a horrible problem. I do not know how you 
address that. The previous Administration tried to eliminate 
SCAAP.
    But I have this idea. We talk about southbound activity, 
and that is an area that cries out for some activity, for some 
leadership, for some response. Putting more people at the ports 
of entry to check southbound activity is imperative and we need 
to do that. But that is not going to stop the sophisticated 
people from getting guns and money back to Mexico. We need to 
develop a task force, and in my remarks I talked about a 
management program that we put together for our investigative 
unit down in Tucson.
    We had almost a dozen separate task forces existing at one 
time in Tucson. And about 8 years ago we decided to make that 
one task force. And we succeeded at doing that. And I think the 
reason we succeeded at doing that is because we do not have 
anybody in charge of it. If Customs tries to do something--and 
I realize there is no such agency as Customs anymore--but if 
DEA, for example, has a task force and they want other Federal 
agencies to plan, it is not going to happen. If it becomes the 
ownership of one agency, other agencies are going to be very 
reluctant to participate.
    And that is why this management concept that we put 
together in Tucson has applications beyond investigative and 
intelligence activities. If we could put together a task force 
that would deal with the people stealing the cars in Phoenix 
and going down to the border and bringing people and contraband 
across, we could make significant impact not only on that which 
is going south, but that which is coming north.
    In our Border Crimes Unit we have 18 people. Well, when you 
consider it takes 5.2 people to staff one position 24 hours a 
day, 7 days a week, that is not a lot of people to stick out 
into the hundreds of miles that we are talking about.
    Pima County, Senator, is a little larger than the State of 
Connecticut. It is almost 10,000 square miles. And in that 
county we have this reservation where State and local police 
officers are not allowed to participate. And it is a 
significant problem because most of the activity is now coming 
across that reservation. It is winding up in Pinal County and 
up to Maricopa County. And it is very difficult for people like 
us to deal with what is going through that reservation. So, I 
really think there needs to be something done about that 
particular issue with the reservations.
    We have some serious problems in Tucson--primarily in the 
city of Tucson--where all the pockets of social issues and 
problems exist. And it does not matter which particular social 
indices you want to pick to evaluate--whether it be high school 
dropouts, whether it be unwed teenage mothers, whether it be 
gang membership or single parents in the home, crime, gang 
membership, whatever--they are all in one pocket. And in that 
pocket, credible information from people that I deal with in a 
particular school district in there say that at least 40 
percent of those kids are illegal. That is staggering.
    Last week in the Arizona Republic there was a story quoting 
Pew. Is it an institute?
    Chairman Lieberman. Yes, Pew Research Center, probably.
    Mr. Dupnik. They said that in Arizona, one in seven 
students is illegal. I think it is understandable why we have 
the kinds of problems that we have with reference to our 
education program. When you consider the millions, and 
millions, and millions of dollars that we have to provide just 
so that students can learn English--and we are not allowed to 
ask those students whether they are here legally or not because 
of a 1986 decision back in Washington.
    Maybe it is time that we send another case back to the 
Supreme Court to see if we might get a different ruling. I have 
said enough.
    Chairman Lieberman. Thank you, Sheriff. You covered some 
good ground and it was interesting to the Committee.
    Sheriff Dever.

  STATEMENT OF LARRY A. DEVER,\1\ SHERIFF, COUNTY OF COCHISE, 
                            ARIZONA

    Mr. Dever. Chairman Lieberman, Senator McCain, and Senator 
Kyl. Thank you for being here today and inviting me to 
participate.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dever appears in the Appendix on 
page 251.
---------------------------------------------------------------------------
    I will just preface my remarks by saying this is the eighth 
opportunity I have had to testify before committees of Congress 
related to border issues. And I am starting to feel like maybe 
I am a little ineffective. But, hopefully, I can say something 
useful today.
    Let me give you just a little bit of historical 
perspective, if I may. I have here a copy of Arizona Sheriff 
Magazine that features the Border Patrol. And in this article 
it quotes the sector chief of the Tucson Sector of the Border 
Patrol at that time saying this:
    ``Within the last year we have been mandated by Congress to 
gain control of the border, and we are going to do that along 
the Southern Border, whether it is narcotics, illegal aliens, 
terrorists, criminals, or whatever.''
    A couple of notable items about this article. It was 
written in the fall of 1987, which was 1 year post-Reagan 
amnesty, by the way. It mentions the word ``terrorist,'' which 
I find kind of compelling. The thought of terrorists using our 
international border to facilitate their evil ways is not a new 
concept, and the U.S. Border Patrol had 250 agents in the 
Tucson sector at that time. That was 1987; today, there are 
over 3,000 in the sector, and we are sitting here talking about 
all of the violence associated with drug smuggling and people 
smuggling coming across the border.
    Violence comes really in many forms, and you have heard a 
lot of it today about murder and kidnapping, rape, robbery. It 
is estimated that 80 percent of the women who cross the border 
illegally have been sexually assaulted in some fashion. That 
study comes actually from a 1995 study that originated in 
Central America.
    But there is another form of violence that I think is just 
as insidious, and that is the number of people in--Sheriff 
Dupnik mentioned his morgue--the number of people who are left 
behind who cannot keep up the pace, either as a result of 
illness, pregnancy, injury, or whatever it may be. And they are 
left behind by these ruthless smugglers to die in the desert, 
which in and of itself is murder in my mind. And all of those 
cases have to be investigated as homicides, which require a 
tremendous amount of resources on our part to do.
    Something that has not been mentioned in detail a little 
bit by authorities here in Phoenix is the impact on our local 
residents of this unferreted smuggling that continues to invade 
us and threaten homeowners and property owners along the border 
and particularly in the rural areas. My county--we are in the 
southeast corner of Arizona. Properties are continually 
burglarized. Their fences are cut and damaged. Their water 
sources destroyed, contaminated. The amounts of human waste and 
trash left behind are devastating, not only to private property 
but to the beautiful and scenic mountainous areas and park and 
recreation areas in Cochise County.
    If you drive into the entry, up one of the canyons into the 
public parks--these areas where people like to go for 
recreation--you will find a sign at the entry onto those 
Federal properties that says: ``Caution: Drug and human 
smuggling may be encountered here.'' Bad situation.
    The day and night disruption of the quality of life is 
enormous. People cannot leave their homes together. Spouses--
husbands and wives--somebody has to stay behind to watch the 
place to keep it from being robbed. We have a 6,300 square mile 
county, and I do not have an Indian reservation so my county 
jurisdiction is bigger than my partner Sheriff Dupnik, here, in 
those terms. And I have 86 deputies total in my organization.
    Mr. Dupnik. Chief Dever, I am jealous. If you could share a 
few, I would take them.
    Mr. Dever. There are some things that we have and cannot 
ask you to do. You mentioned SCAAP, Senator Kyl. SCAAP is 
important. In 1997, when we first applied for SCAAP, we 
received about 33 percent of our actual costs associated with 
incarcerated criminal aliens. Today it is 9 cents on every 
dollar. There are a lot of causes in that--reduction in the 
fund, as well as the tremendous impact of the presence of 
illegal alien activity, criminal activity throughout the 
country, and more people tapping that fund.
    Today, as we sit here in spite of all the efforts and 
funding that we have seen come down the pipe and to talk about 
the need for interoperability that is physical communication, 
the ability for State, local, and Federal law enforcement first 
responders--police, fire, medical--to be able to pick up the 
microphone on the radio and talk to each other in the event of 
a need in a situation to do that--does not exist along most of 
the Southwest Border.
    We are talking about a tremendous need for infrastructure 
in order to support that kind of effort. Specifically, I sit on 
the Board of Directors of the National Sheriffs' Association 
and chair the Immigration Subcommittee of the Homeland Security 
Committee. And we sat down and crunched numbers, taking a 
specific look at the Southwest Border and what might be needed 
in terms of funding support for personnel, for communications 
infrastructure and support, along the entire 2,200 mile 
Southwest Border to a distance of only 25 miles north. The 
nominal number of about $500,000,000 a year for five 
consecutive years is the figure that comes up--rises to the 
surface when we discuss and examine that.
    Finally, I would like to address what Senator Lieberman 
stated this morning in a comment in your initial remarks where 
you emphasized the importance of coordinated effort and 
discussion at the State and local level with Federal 
authorities. Everything--every policy, every strategy, every 
initiative launched by the Federal Government has an immediate 
and long-term local impact. And State and Local officials who 
have lived and worked in this environment their entire lives 
and for many years must be included in those planning sessions.
    And one last comment that came up when you were talking 
about the National Guard. We need to understand the culture 
from whence these people come. They do not have a great regard 
for civil law enforcement officials--either Federal or local--
and in some places those do not even exist. But they do have a 
great deal of--I will call it--respect, and more likely fear of 
military resources. And the mere presence of those units---
regardless of what they are tasking is--creates a whole new 
element of deterrence in the mind of the border crossers.
    Thank you.
    Chairman Lieberman. Thank you, Sheriff.
    That is a very interesting point at the end. I appreciate 
it.
    Chief Dever, let me ask you to give us some context to a 
few of the statistics that are part of the national debate with 
regard to ``Phoenix: Kidnapping Capital of America.'' You did 
some of this, but first off it is just a question of fact 
because most other parts of the country--we do not talk about 
home invasions. We talk about breaking and entering, things of 
that kind. But what is a home invasion?
    Mr. Dever. Well, the difference is--I think most people 
would think if their house was broken into, that it was 
probably a burglary.
    Chairman Lieberman. Right.
    Mr. Dever. While they were not at home.
    Chairman Lieberman. Correct.
    Mr. Dever. A home invasion is more of a tactical entry into 
the house, similar to what you would think a SWAT team would do 
where people come heavily armed. They force their way through 
the front door while the people are at home, and then they take 
them captive. And it is usually about drugs. Somebody fronted a 
bunch of money or drugs to another dealer and they did not get 
the money back, and so they are breaking into the house. They 
are going to hold everybody in the house captive until the 
money or the drugs are brought to them.
    Chairman Lieberman. And that I take it can also become a 
kidnapping incident.
    Mr. Dever. Yes.
    Chairman Lieberman. Obviously, in most of the rest of the 
country, when we talk about kidnapping--not always so. 
Obviously, sometimes it has to do with domestic disputes, but 
at worst it is grabbing somebody who you do not know and 
holding them, perhaps for various purposes. One might be for 
ransom.
    But, again, you said the majority of the kidnappings are 
within the drug smuggling and human smuggling communities. 
Correct?
    Mr. Dever. Yes. The vast majority. We have had incidents 
where a bad guy had moved out of a house.
    Chairman Lieberman. Yes.
    Mr. Dever. And the other drug dealers came and hit the 
house a few days later and there were innocent people that had 
moved into the house. American citizens.
    But the vast majority of the cases that we are talking 
about is drug dealer on drug dealer or it is tied to the human 
smuggling for ransom.
    Chairman Lieberman. So to say the obvious, I assume that 
were it not for the presence of the Mexican drug cartels 
operating in and around Phoenix that the kidnapping rate here 
would be pretty much like the kidnapping rate everywhere else 
in America.
    Mr. Dever. Absolutely.
    Chairman Lieberman. Let me go to a different part of this, 
if I can.
    I want to ask you, if you could--and I ask all three of 
you--characterize your working relationships with the Federal 
law enforcement agencies in your jurisdiction.
    Go back to the Sheriff's last point and my first point. We 
want to know whether there is real coordination going on here, 
and a lot of the testimony that we have heard that was 
submitted talked about the need for enhanced information 
sharing and collaboration between Federal agencies and the 
State and local law enforcement departments. I do not think any 
of this is personal, but how is it going in that regard?
    Mr. Dever. Well, in Phoenix, I can tell you that it is 
unique compared to the rest of the country from what I have 
seen. We have a very good working relationship with all of the 
Federal agencies.
    As I mentioned in my testimony, most of the major cases 
that were mentioned today by the Attorney General and by the 
Mayor were conducted through task forces involving the 
Department of Public Safety, our State Police Organization, 
with our sheriffs, with ATF, DEA--all the three letter 
identifier organizations in the country. So, in Phoenix, we 
have had a really great relationship.
    The information sharing is something that I think 
nationally--whether you are talking to the sheriffs or you are 
talking to local police, they are going to tell you we would 
like to see more of the information sharing made available to 
us at the local level.
    Chairman Lieberman. Tell me what you're talking about 
there. What kinds of information?
    Mr. Dever. When you look at the information that an 
organization like DEA has available to them in reference to 
narcotics trafficking or you look at the information that the 
FBI has in relation to terrorism, there has been a long history 
of being very careful about sharing that information with local 
agencies.
    We would like to see improvements, even though here in 
Phoenix we do not have a big problem with it. But nationally, I 
would say that we need to see an improvement there.
    One of the things that has been very beneficial in doing 
that are the fusion centers--the Arizona Counter Terrorism 
Information Center (ACTIC) here in Arizona has representatives 
from all of those agencies. We did something very unique in 
Phoenix last year. We asked ICE to provide us 10 of their ICE 
agents to work in our Violent Crimes Bureau. So they sit right 
next to our detectives that are investigating the home 
invasions, the murders, and the kidnappings. They have access 
to databases that we do not have access to.
    So we are able to alleviate a little bit of that, but if we 
had access to some of those databases that would be much 
improved.
    Chairman Lieberman. I appreciate that. My time is up.
    This has been a real focus of our Committee going back to 
the post-September 11, 2001, period because obviously, part of 
the story of September 11 is that the agencies of the Federal 
Government were not sharing information that they should have 
shared. If they had shared, it is possible we could have 
stopped September 11.
    I always feel that from a Federal level we should look at 
State and local law enforcement as part of one national force. 
And when you think about how much stronger we would be--whether 
the enemy is the terrorists or what we are dealing with as 
Mexican drug cartels--if we are working together. It just seems 
foolish not to. I do not know why you would not share 
information with local law enforcement. I do not think there is 
a good argument that I have heard for that.
    So, I thank you for bringing us to the relevance of that 
point to the Mexican drug cartel.
    Senator McCain.
    Senator McCain. Well, I thank the witnesses, and I am very 
glad to see all three of you. Thank you for your many years of 
service to our State. I am grateful that you would come today, 
and I am very appreciative of the input that we get from you.
    Chief Harris, last month, the Department of Homeland 
Security notified our office that of the hundreds of 
kidnappings in Phoenix last year, the FBI's Phoenix field 
office only opened seven kidnapping cases--five of which came 
out of the Tucson resident office. Do you know why that is?
    Mr. Harris. No, actually, I do not.
    Senator McCain. Has that concerned you?
    Mr. Harris. Well, our kidnapping cases that are related to 
this--we open those cases. Our investigators investigate those 
cases. They would not be transferred over to the Federal 
agencies. But, no, I was not aware of that number.
    Senator McCain. Sheriff Dupnik, you have been around as 
sheriff since 1980 and have a wonderful record of service. How 
is this whole issue of violence on the border changed since the 
day you first were sworn in as sheriff?
    Mr. Dupnik. In 1980, there was very little violence. It was 
kind of incidental based on what was going on. There was very 
little smuggling going on. The same kind of smuggling that we 
have today was not going on in 1980.
    Primarily, they were using aircraft and things of that 
nature. Today, it is just totally changed. The people involved 
in the activities have become more and more violent themselves. 
They are very quick to pull the trigger and kill another human 
being over a minor issue. That is something that we did not 
used to see in the old days. People had a little more respect 
for human life than they do today. But, there was very little 
violence associated with the traffic.
    And I think one of the reasons that it has escalated to the 
point it is today is because of the organized criminal activity 
that is involved in it. Back in 1980, there was not that much 
criminal organization involved in smuggling. Today, it is 
almost totally organized.
    A few years ago the Colombians tried to make some in-roads 
into taking the cocaine from Colombia, putting it into Mexico, 
transporting it across Mexico, and bringing it into the United 
States, and then trying to control it in the United States, as 
well. The Mexicans fought back and eventually kicked the 
Colombians out. And now it is just the cartels fighting each 
other.
    Speaking of Mexico, I would like to echo what a lot of the 
speakers have already said. I have seen presidents--as you all 
have--come and go in Mexico. They talked about doing something 
about drugs but very little ever happened. As a matter of fact, 
years ago they would take the helicopters, and the money, and 
the aid that we provided to them and used it for their own 
purposes.
    So, President Calderon is the first president that has had 
the courage to do something about it. How this is all going to 
turn out, I do not know. But I think this is the only chance we 
may have in our generation to assist that country in doing 
something about this horrible problem. If he fails, it is going 
to have incredible consequences for the country of Mexico, and 
it is going to have substantial consequences for us here.
    Senator McCain. I could not agree with you more, Sheriff. 
And we certainly need to emphasize the need to cooperate with 
him in a broad variety of ways. Some argue that it is not only 
our last chance, but maybe the Mexican government's last 
chance. I do not necessarily accept that description, but there 
certainly is a significant threat.
    Sheriff Dever, in his statement, talked about the lack of 
interoperability that still exists after all these years of 
trying to fix it. Are you plagued with that problem, too?
    Mr. Dupnik. We are, but we are in the process of fixing it, 
to some extent.
    Five years ago we passed a bond issue in Pima County for 
$105 million for an interoperability radio system for public 
safety, which is primarily for first responders--police, fire, 
and emergency services. The contract was just let 2 weeks ago 
to begin to build that system 5 years later.
    We still do not have the kind of funds that we need to 
finish it because 5 years ago prices were different and there 
never was enough money put into it. They put $95 million into a 
project that really needed about $115 million. So, we still 
could use some Federal help to make that happen.
    At one time I had this noble goal of including our Federal 
partners in this system so that we could talk to our Federal 
partners, as well. And I went to the FBI. I went to ICE. And I 
went to the Border Patrol. And they all wanted to play. They 
had no reservations because their system sucks, too, to be 
honest about it. Their systems are horrible.
    Chairman Lieberman. Talk about Arizona straight talk. 
[Laughter.]
    Mr. Dupnik. They are in worse shape than we are. But, 
because of the bureaucracy, if we tried to make that happen, we 
would still be talking about it.
    Senator McCain. It is also because of the failure to get 
the frequencies. And it is one of the recommendations of the 9/
11 Commission--in fact, one of the few recommendations that 
have not been implemented and it is disgraceful. There is no 
reason wasting the time of the Committee to go through it.
    Sheriff Dever, you testified, as you mentioned, last month 
before the House Homeland Security Committee, and you stated 
the important thing to remember--and I cannot emphasize it 
enough--that every Federal initiative, every Federal strategy 
and tactical planning opportunity needs State and local input 
because they have local consequences. Have you noticed 
significant difficulty in that area? The lack of State and 
local input?
    Mr. Dever. Yes, sir, although it is much improved.
    In part, answering Senator Lieberman's question along with 
yours, in Mexico we talk about the corruption problem, and they 
have institutionalized corruption in Mexico. What we have had 
traditionally in the intelligence system in the United States 
is what I call institutionalized territorialism. And there is 
still a large degree of mistrust and a desire to safeguard the 
very important pieces of information that need to filter down 
to the working level--the most rudimentary area.
    But, it has been recently improved. There has been a lot of 
outreach recently from DHS to attempt to include, particularly 
Southwest Border sheriffs, I know, in discussions, what our 
specific needs are. I am working on a document to send back to 
that committee that you mentioned that talks about some 
specific needs. So it is all very encouraging, but it needs 
follow through, of course, and a commitment to consistency and 
determination to follow through on these discussions is what is 
critical. And we still have to overcome that institutionalized 
territorialism to a great degree.
    Senator McCain. Thank you. Just finally, Chief Harris, how 
are you generally able to identify these drop houses? Is it 
neighbors? Is it surveillance? What is it that usually 
identifies these places for you?
    Mr. Harris. Many times it is just the neighbors calling in. 
There is suspicious activity. They are seeing a lot of people 
coming and going out of the area and something does not seem 
right to the community. It is really a strong point for 
community policing--that neighbors are far more aware than they 
were 20 years ago as to what goes on in their neighborhoods.
    So, mostly it is that kind of a call. A check welfare. We 
are seeing something is not right over there at the house. 
Could you check it out? And then the officers arrive; they go 
up to the house.
    Senator McCain. Do we have a program encouraging citizens 
to call in?
    Mr. Harris. Yes.
    Senator McCain. If you had to make a guess, if you could, 
how many drop houses do you think there are in Phoenix?
    Mr. Harris. Well, that would be very difficult at any given 
moment to guess, but I would say the records probably reflect 
that there are somewhere between 90 and 100 drop houses a year.
    Senator McCain. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCain. Senator Kyl.
    Senator Kyl. Thank you.
    I have always wondered about the comparison between Tucson 
and Phoenix in this regard. I have always assumed that there 
were a lot more in Phoenix, even though it is a bigger 
community.
    Is the drop house issue comparable in Tucson, Sheriff 
Dupnik? Do you know?
    Mr. Dupnik. I do not think that it is. It is a significant 
issue for us in Tucson, but I do not think it is nearly the 
problem that it is up in Phoenix. And I think it is because the 
traffic is going to Phoenix. Phoenix is the hub.
    Senator Kyl. Yes. So, the point is they are not going to 
stay in Tucson very long. The main point is to get folks up to 
Phoenix so then they can either go east, or west, or north.
    Mr. Dupnik. That is correct. We get them. Tubac gets them. 
Eloy gets them. But not in the numbers.
    Senator Kyl. The other thing that I wanted to ask you--I am 
not sure I understood--you indicated that the bulk of the 
problem was through the Tohono O'odham Reservation. Could you 
expand on that? Did you mean that in the Tucson sector? Or on 
the Arizona border? Quantify that if you would.
    Mr. Dupnik. Primarily, it is the Tucson sector that I am 
talking about. And because we cannot get on the reservation--
that it makes it a lot more difficult for us to deal with the 
problem.
    But if I could get back to one of the questions because I 
think I could add something to Senator Lieberman's question 
about intelligence-sharing.
    One of the reasons that we cannot share intelligence with 
the Federal agents as much as they would like to share with us 
is because in their systems they have intelligence information. 
We do not have that in our system.
    For example, with our license plate readers we have two 
issues. Most of our units in our Border Crimes unit have these 
license plate readers that read things automatically and feed 
you back information immediately, automatically. But the 
problem is in Arizona--we do not have front license plates, 
which makes it very difficult operationally, not only for us 
but for the Border Patrol and for all law enforcement. And for 
some reason, we cannot get the legislature to understand that. 
I do not think it is that big of an issue.
    But the second problem is that--for example, a car from 
Colorado, we check their plate and nothing comes back out of 
our system. But, if we were tied to DEA's system, we would know 
that car was involved in narcotics trafficking or some other 
criminal activity. So, that is a serious problem.
    DEA is looking at that closely now to see if they can help 
us to perhaps incorporate some of the information that comes 
out of the El Paso Intelligence Center (EPIC), and somehow 
linking that to our system. But it is a problem, and it is 
always going to be a problem when you are talking about 
intelligence information being accessed by multiple agencies.
    Senator Kyl. I appreciate that. We cannot solve the front 
license plate problem, though I assume that the first panel 
should be contacted about that.
    But on the second matter, we just need to know from many of 
you--and you do not have to wait until there is a hearing. I 
know you come back and see us in Washington, and that is 
helpful, but at any point that you suggest that we could do 
something to help facilitate things like the information 
sharing. If it is a cost issue, for example, please let us know 
that.
    Mr. Dupnik. Well, one time you did, Senator. You may recall 
that right after September 11, 2001, because of some things 
that happened in Tucson with reference to terrorism, I 
contacted you and you tried desperately to get the people in 
Washington to do something about a call line where people could 
report terrorism.
    Well, you were not successful in that, unfortunately, but I 
laud you for your effort. I should have called Senator McCain. 
[Laughter.]
    But at any rate, we started that program in Tucson, and 
that is one of the things that I wanted to talk about. We 
started it right after September 11, 2001, in Tucson, and we 
got some very interesting calls.
    There are not going to be that many calls that come in 
referencing terrorism--whether it be Tucson, New York City, or 
whomever. But I think that the program could be done on a 
national basis with very little cost, and it would be very 
effective. Because all it takes is the one phone call. And I 
can see President Obama right now on TV in a public service 
announcement advertising this new program.
    Senator Kyl. Would you do us a favor and write up a little 
one-page memo on that to the Chairman, and then we will see if 
we can get more going on that.
    The story here--there were two specific calls in to the 
Sheriff's office which resulted in significant terrorist 
investigations in Pima County right after September 11, 2001, 
so it was a big deal. If you could do that, that would be very 
helpful.
    Before the time expires, Sheriff Dever has been on the 
frontline of this for a long time. And all of the things that 
you talked about, the one thing that has not really gotten the 
attention because it is more of a rural county, is the 
protection of the folks out in ranch country. For example, the 
cutting of fences, leaving the water on, or cutting the water. 
And you also mentioned the environmental impact.
    I guess the time is up. Could you speak just for a second 
about the environmental consequences here? Because I think 
people back east have a hard time imagining out here in the 
desert how there could be environmental consequences to this 
smuggling.
    Mr. Dever. Well, I am trying to keep people out of Cochise 
County, so I will not tell them how beautiful it is. 
[Laughter.]
    But we have on the western and eastern ends of the county, 
primarily, two sky islands. Mountain ranges that reach up 9,000 
feet. They are beautiful, forested. People come from all over 
the world to visit. Bird watchers flock in --no pun intended--
by the hundreds of thousands. And those areas are just simply 
trashed.
    And when I say trashed, I am talking about football field-
size areas piled two to three feet deep with backpacks, and 
clothing, and medical supplies, and human waste up in those 
areas. People normally go and recreate there. They are lay-up 
areas for illegals--both drug smugglers, and alien smugglers.
    I did not mention the fires. Just last month we had four 
fires that were started by smuggling groups that got out of 
control. One of them burned one house and 12 other structures. 
There is all kinds of environmental damage and consequences to 
that.
    And, water is scarce in our area. And those water sources 
are popular gathering places for smugglers and illegals 
crossing the area. And they contaminate it and they leave all 
kinds of junk behind.
    Cattle ingest plastic bags that are left behind by people 
carrying them through--and strangle and die. It is a sad set of 
circumstances that has just gone on way too long.
    Chairman Lieberman. Sheriff Dupnik, I just have one other 
question.
    My staff has been here for a couple of days before the 
hearing and meeting with people, and they were surprised in 
talking to the Border Patrol to learn that Border Patrol has 
been prohibited by Federal law from building permanent 
checkpoints in the Tucson sector, which means that when they 
try to stop traffic they basically have to get out there on a 
limited access highway with orange cones and try to bring the 
cars to a stop.
    What is the background on that and how do you feel about 
it? Do they understand it correctly?
    Mr. Dupnik. Do you want a candid answer?
    Chairman Lieberman. Yes, sir. We have not put you under 
oath but I know you are an honorable man. Yes.
    Mr. Dupnik. There used to be a congressman representing 
that area that we are talking about who simply would not allow 
it. Would not allow it to be funded.
    Chairman Lieberman. Right.
    Mr. Dupnik. That is tending to change. And it is my 
understanding that at some point they are going to put one--not 
where they really want it but in a different location that will 
not upset so many people in that location.
    Chairman Lieberman. But you would say from a law 
enforcement point of view that it is a good idea to have a 
permanent checkpoint?
    Mr. Dupnik. I think it is a fantastic idea.
    And if I could offer--I do not know how much time we have 
left----
    Chairman Lieberman. No, go ahead.
    Mr. Dupnik. We talk about southbound traffic. But I still 
have not heard very many ideas on what we ought to do about it.
    One of the things that happens when you guys allocate 
Federal money is that we all get together and figure out how to 
spend it. And sometimes we do some very good things with it, as 
you have heard here today.
    But sometimes, one of the things that happens is we tend to 
just fortify what we have been doing. And the Federal agencies 
tend to do that, as well. And nothing really creative happens.
    I would kind of like to see a separate program--maybe a 
pilot program--where you say to us give us your ideas--maybe a 
one-page statement of the problem and a one-page statement of 
how you would like to attack it.
    Chairman Lieberman. Do you mean specifically relating to 
the drug cartels?
    Senator McCain. Mr. Chairman----
    Chairman Lieberman. Go ahead, Senator McCain.
    Senator McCain. On the subject of the permanent 
checkpoint--and I cannot make Congressman Colby's argument as 
convincingly as he did--but his argument was we establish a 
permanent checkpoint and the drug dealers and the human 
smugglers know about it and they just simply go around. I am 
curious about your response to that.
    Mr. Dupnik. From my point of view that is a weak argument. 
It sounds reasonable. He said we should put all of our 
resources on the border instead of right at the border in a 
denial mode. But, unfortunately, there are not enough resources 
to do that. And they will find ways to circumvent it.
    But, the Border Patrol has plenty of statistics to show the 
effectiveness of permanent checkpoints. And they have 
strategies to deal with the very issue that you brought up. 
They have ways to deal with the flanking that is going to 
occur. And, in fact, they want that to happen.
    I would like to talk about a southbound project where we 
incorporate some semi-permanent checkpoints going south. And 
also, some mobile checkpoints. But we, in law enforcement, from 
a legal standpoint--State and local people cannot do much about 
that because we do not have the authority to stop the traffic 
along the border.
    In our Border Crimes Unit, we have two full-time Border 
Patrol sergeants assigned to our unit. So that helps us. But, 
on our own we cannot do it.
    Chairman Lieberman. So, do you want to give us an idea. I 
mean, I will ask you for a second memo now since Senator Kyl--
    Mr. Dupnik. Well, we talk about the National Guard, for 
example. What could the National Guard do if we really wanted 
them to do? And I am not a legal expert on posse comitatus 
either.
    Chairman Lieberman. Right.
    Mr. Dupnik. But I have never heard anybody say how far can 
you push the envelope to having the National Guard do something 
substantial to help you? Well, I would like to see a program--a 
Southbound Task Force--using the management concept that I 
talked about in this paper where we have a huge task force of 
State, and local, and Federal people trying to deal with 
southbound traffic.
    And if we had the National Guard to assist us in getting 
into the remote areas by helicopter and then using perhaps a C-
26, which I think is a minor version of the Airborne Warning 
and Control System (AWACS) to be able to provide communications 
and control of operations, we could then get into areas where 
there are incursions occurring or where there is narcotics 
being trafficked. I think we could really make some substantial 
progress.
    Chairman Lieberman. It is a really good idea.
    Senator McCain. Mr. Chairman, could I just ask for a brief 
statement from each one? Obviously, we know there is a demand 
for drugs. Maybe we could close up here by what do we do about 
the demand? Starting with you, Chief Harris
    Mr. Harris. Well, I think you hit on one of the keys. As a 
citizen of this country, we have to take responsibility for why 
all those drugs are coming across the border. They are coming 
across the border because we want them, and we give them big 
money to get them to come across the border.
    So it is easy to point fingers at the drug cartels. They 
are bad people, but we are fueling that whole business with our 
insatiable desire for drugs.
    I think it starts at the very earliest levels of education 
with our children as they are in kindergarten and on up--is to 
try to divert them away from the demand for the drugs. So, I 
think one of the key things for that side of it is we can 
certainly do more in the area of enforcement, but as a guy who 
worked narcotics undercover making buys, I have been into 
apartment complexes back in the 1970s where I could have bought 
25 buys a day in one apartment complex. So, that is a very 
difficult enforcement part of the picture to be involved with.
    But, I think education, especially with the younger the 
better, is one of the keys and in the schools.
    Mr. Dupnik. I think as long as there are drugs on the 
streets kids are going to use them. And adults are going to use 
them.
    So, how do we keep the drugs off the street? Part of the 
problem, in my judgment, is the fact that there is not the will 
in America to make the necessary effort or the sacrifice to do 
the significant things that need to be done. We need to have a 
policy at the national level that deals with our schools--and 
not only provides the support that they need for getting the 
drugs out of their school, but they need perhaps some 
regulation.
    Drug testing ought to be a significant component. If law 
enforcement officers and other groups of people can submit 
themselves on a regular basis to being tested for drugs--so, it 
is an invasion of privacy. And I understand that. But if you 
look at the national data on schools that use drug testing as 
part of their program and have a very rigid approach to dealing 
with drugs decisively, their drug use has gone down 
dramatically.
    If we had the same programs for business--if we had the 
same programs for supporting our parents in our homes and 
getting the drugs out of our homes, out of our businesses, out 
of our schools--I think we could make some significant 
progress.
    Mr. Dever. We talk about the insatiable appetite for 
illegal drugs. There is a much greater appetite for controlled 
substances that are legally produced and distributed in this 
country. So, the problem--law enforcement is an important 
component, an important element of the equation or the 
solution. We have to keep reinforcing it and keep working it--
what Sheriff Dupnik suggested--and that is keeping the stuff--
legal substances and illegal substances--out of the hands of 
the people that should not have them.
    But I am just telling you, Senator, and this is my personal 
perspective, churches have a role to play. Synagogues have a 
role to play. Law enforcement has a role to play. Schools have 
a role to play. But if it is not happening in the home, it is 
not going to happen.
    Senator McCain. Could I say, Mr. Chairman, I really thank 
you for coming to Phoenix, Arizona, to conduct this hearing. It 
is a terrible issue that confronts my State, as well as 
America, and I am very grateful that you are here. And I think 
it has been very useful and very helpful. And thank you for 
your time in coming here today.
    Chairman Lieberman. Well, thanks for saying that, Senator 
McCain. And thank you for making sure that I came here. It was 
a very important morning. I learned a lot. Not just to put 
human faces and reality onto the numbers and the problem, but 
the various panels have given us some specific ideas that I 
think are very practical and helpful in terms of law changes 
and where we ought to develop resources. Your idea about a task 
force on southbound traffic is a very good idea.
    I mean, ultimately, we can have a lot of arguments about 
gun control, etc., but it is pretty clear that those are only 
going to go so far. If we want to respond to what the Mexican 
government is most asking us for, which is to try to deter the 
movement of weapons south, we are going to have to do it in the 
southbound flow.
    And, of course, the second part is that the money is going 
that way, and that is another way to hurt the enemy here--if I 
can use that expression--the drug cartels. It has been a very 
productive morning, and I thank you all.
    Well, in the normal course of things, this Committee leaves 
the record of these hearings open for 15 days, if you want to 
add anything to your testimony or if we want to ask more 
questions to answer for the record.
    I cannot thank you enough. This is a real crisis. It 
happens to be more intense here along the border, but it is a 
national crisis as your answer to the last question indicated. 
And we are going to do everything we can to get you help as 
quickly as we possibly can.
    The hearing is adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0382.152

[GRAPHIC] [TIFF OMITTED] T0382.153

[GRAPHIC] [TIFF OMITTED] T0382.154

[GRAPHIC] [TIFF OMITTED] T0382.001

[GRAPHIC] [TIFF OMITTED] T0382.002

[GRAPHIC] [TIFF OMITTED] T0382.003

[GRAPHIC] [TIFF OMITTED] T0382.004

[GRAPHIC] [TIFF OMITTED] T0382.005

[GRAPHIC] [TIFF OMITTED] T0382.006

[GRAPHIC] [TIFF OMITTED] T0382.007

[GRAPHIC] [TIFF OMITTED] T0382.008

[GRAPHIC] [TIFF OMITTED] T0382.009

[GRAPHIC] [TIFF OMITTED] T0382.010

[GRAPHIC] [TIFF OMITTED] T0382.011

[GRAPHIC] [TIFF OMITTED] T0382.012

[GRAPHIC] [TIFF OMITTED] T0382.013

[GRAPHIC] [TIFF OMITTED] T0382.014

[GRAPHIC] [TIFF OMITTED] T0382.015

[GRAPHIC] [TIFF OMITTED] T0382.016

[GRAPHIC] [TIFF OMITTED] T0382.017

[GRAPHIC] [TIFF OMITTED] T0382.018

[GRAPHIC] [TIFF OMITTED] T0382.019

[GRAPHIC] [TIFF OMITTED] T0382.020

[GRAPHIC] [TIFF OMITTED] T0382.021

[GRAPHIC] [TIFF OMITTED] T0382.022

[GRAPHIC] [TIFF OMITTED] T0382.023

[GRAPHIC] [TIFF OMITTED] T0382.024

[GRAPHIC] [TIFF OMITTED] T0382.025

[GRAPHIC] [TIFF OMITTED] T0382.026

[GRAPHIC] [TIFF OMITTED] T0382.027

[GRAPHIC] [TIFF OMITTED] T0382.028

[GRAPHIC] [TIFF OMITTED] T0382.029

[GRAPHIC] [TIFF OMITTED] T0382.030

[GRAPHIC] [TIFF OMITTED] T0382.031

[GRAPHIC] [TIFF OMITTED] T0382.032

[GRAPHIC] [TIFF OMITTED] T0382.033

[GRAPHIC] [TIFF OMITTED] T0382.034

[GRAPHIC] [TIFF OMITTED] T0382.035

[GRAPHIC] [TIFF OMITTED] T0382.036

[GRAPHIC] [TIFF OMITTED] T0382.037

[GRAPHIC] [TIFF OMITTED] T0382.038

[GRAPHIC] [TIFF OMITTED] T0382.039

[GRAPHIC] [TIFF OMITTED] T0382.040

[GRAPHIC] [TIFF OMITTED] T0382.041

[GRAPHIC] [TIFF OMITTED] T0382.042

[GRAPHIC] [TIFF OMITTED] T0382.043

[GRAPHIC] [TIFF OMITTED] T0382.044

[GRAPHIC] [TIFF OMITTED] T0382.045

[GRAPHIC] [TIFF OMITTED] T0382.046

[GRAPHIC] [TIFF OMITTED] T0382.047

[GRAPHIC] [TIFF OMITTED] T0382.048

[GRAPHIC] [TIFF OMITTED] T0382.049

[GRAPHIC] [TIFF OMITTED] T0382.050

[GRAPHIC] [TIFF OMITTED] T0382.148

[GRAPHIC] [TIFF OMITTED] T0382.149

[GRAPHIC] [TIFF OMITTED] T0382.150

[GRAPHIC] [TIFF OMITTED] T0382.151

[GRAPHIC] [TIFF OMITTED] T0382.159

[GRAPHIC] [TIFF OMITTED] T0382.160

[GRAPHIC] [TIFF OMITTED] T0382.051

[GRAPHIC] [TIFF OMITTED] T0382.052

[GRAPHIC] [TIFF OMITTED] T0382.053

[GRAPHIC] [TIFF OMITTED] T0382.054

[GRAPHIC] [TIFF OMITTED] T0382.055

[GRAPHIC] [TIFF OMITTED] T0382.056

[GRAPHIC] [TIFF OMITTED] T0382.057

[GRAPHIC] [TIFF OMITTED] T0382.058

[GRAPHIC] [TIFF OMITTED] T0382.059

[GRAPHIC] [TIFF OMITTED] T0382.060

[GRAPHIC] [TIFF OMITTED] T0382.061

[GRAPHIC] [TIFF OMITTED] T0382.062

[GRAPHIC] [TIFF OMITTED] T0382.063

[GRAPHIC] [TIFF OMITTED] T0382.064

[GRAPHIC] [TIFF OMITTED] T0382.065

[GRAPHIC] [TIFF OMITTED] T0382.066

[GRAPHIC] [TIFF OMITTED] T0382.067

[GRAPHIC] [TIFF OMITTED] T0382.068

[GRAPHIC] [TIFF OMITTED] T0382.069

[GRAPHIC] [TIFF OMITTED] T0382.070

[GRAPHIC] [TIFF OMITTED] T0382.071

[GRAPHIC] [TIFF OMITTED] T0382.072

[GRAPHIC] [TIFF OMITTED] T0382.073

[GRAPHIC] [TIFF OMITTED] T0382.074

[GRAPHIC] [TIFF OMITTED] T0382.075

[GRAPHIC] [TIFF OMITTED] T0382.076

[GRAPHIC] [TIFF OMITTED] T0382.077

[GRAPHIC] [TIFF OMITTED] T0382.078

[GRAPHIC] [TIFF OMITTED] T0382.079

[GRAPHIC] [TIFF OMITTED] T0382.080

[GRAPHIC] [TIFF OMITTED] T0382.081

[GRAPHIC] [TIFF OMITTED] T0382.082

[GRAPHIC] [TIFF OMITTED] T0382.083

[GRAPHIC] [TIFF OMITTED] T0382.155

[GRAPHIC] [TIFF OMITTED] T0382.156

[GRAPHIC] [TIFF OMITTED] T0382.157

[GRAPHIC] [TIFF OMITTED] T0382.158

[GRAPHIC] [TIFF OMITTED] T0382.084

[GRAPHIC] [TIFF OMITTED] T0382.085

[GRAPHIC] [TIFF OMITTED] T0382.086

[GRAPHIC] [TIFF OMITTED] T0382.087

[GRAPHIC] [TIFF OMITTED] T0382.088

[GRAPHIC] [TIFF OMITTED] T0382.089

[GRAPHIC] [TIFF OMITTED] T0382.090

[GRAPHIC] [TIFF OMITTED] T0382.091

[GRAPHIC] [TIFF OMITTED] T0382.092

[GRAPHIC] [TIFF OMITTED] T0382.093

[GRAPHIC] [TIFF OMITTED] T0382.094

[GRAPHIC] [TIFF OMITTED] T0382.095

[GRAPHIC] [TIFF OMITTED] T0382.138

[GRAPHIC] [TIFF OMITTED] T0382.139

[GRAPHIC] [TIFF OMITTED] T0382.096

[GRAPHIC] [TIFF OMITTED] T0382.097

[GRAPHIC] [TIFF OMITTED] T0382.098

[GRAPHIC] [TIFF OMITTED] T0382.099

[GRAPHIC] [TIFF OMITTED] T0382.100

[GRAPHIC] [TIFF OMITTED] T0382.101

[GRAPHIC] [TIFF OMITTED] T0382.102

[GRAPHIC] [TIFF OMITTED] T0382.103

[GRAPHIC] [TIFF OMITTED] T0382.104

[GRAPHIC] [TIFF OMITTED] T0382.140

[GRAPHIC] [TIFF OMITTED] T0382.141

[GRAPHIC] [TIFF OMITTED] T0382.142

[GRAPHIC] [TIFF OMITTED] T0382.143

[GRAPHIC] [TIFF OMITTED] T0382.105

[GRAPHIC] [TIFF OMITTED] T0382.106

[GRAPHIC] [TIFF OMITTED] T0382.107

[GRAPHIC] [TIFF OMITTED] T0382.108

[GRAPHIC] [TIFF OMITTED] T0382.109

[GRAPHIC] [TIFF OMITTED] T0382.110

[GRAPHIC] [TIFF OMITTED] T0382.111

[GRAPHIC] [TIFF OMITTED] T0382.112

[GRAPHIC] [TIFF OMITTED] T0382.113

[GRAPHIC] [TIFF OMITTED] T0382.114

[GRAPHIC] [TIFF OMITTED] T0382.115

[GRAPHIC] [TIFF OMITTED] T0382.116

[GRAPHIC] [TIFF OMITTED] T0382.117

[GRAPHIC] [TIFF OMITTED] T0382.118

[GRAPHIC] [TIFF OMITTED] T0382.119

[GRAPHIC] [TIFF OMITTED] T0382.120

[GRAPHIC] [TIFF OMITTED] T0382.121

[GRAPHIC] [TIFF OMITTED] T0382.122

[GRAPHIC] [TIFF OMITTED] T0382.123

[GRAPHIC] [TIFF OMITTED] T0382.124

[GRAPHIC] [TIFF OMITTED] T0382.125

[GRAPHIC] [TIFF OMITTED] T0382.126

[GRAPHIC] [TIFF OMITTED] T0382.127

[GRAPHIC] [TIFF OMITTED] T0382.128

[GRAPHIC] [TIFF OMITTED] T0382.129

[GRAPHIC] [TIFF OMITTED] T0382.130

[GRAPHIC] [TIFF OMITTED] T0382.131

[GRAPHIC] [TIFF OMITTED] T0382.132

[GRAPHIC] [TIFF OMITTED] T0382.133

[GRAPHIC] [TIFF OMITTED] T0382.134

[GRAPHIC] [TIFF OMITTED] T0382.135

[GRAPHIC] [TIFF OMITTED] T0382.136

[GRAPHIC] [TIFF OMITTED] T0382.137

[GRAPHIC] [TIFF OMITTED] T0382.144

[GRAPHIC] [TIFF OMITTED] T0382.145

[GRAPHIC] [TIFF OMITTED] T0382.146

[GRAPHIC] [TIFF OMITTED] T0382.147

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
